                             Organizational Chart                         Office of Inspector General





                                            Inspector General



                 Counsel to the
                                                   Deputy
                   Inspector                  Inspector General
                    General

                                                                                 Assistant Inspector
                                                                                 General for Audits
                                         Senior
                 Legal Assistant                          Special Agent
                                      Investigator

                                                                               Audit               Audit
                                      Investigator         Investigator       Manager             Manager


                                                                               Audit               Audit
                                                                              Manager             Manager
Administrative
                           Administrative
  Support
                              Ofﬁcer
  Assistant                                                                              Audit
                                                                                        Manager
April 1, 2008 - September 30, 2008

                                                                      OFFICE OF
                                                                      INSPECTOR
                                           U.S. Securities
                                           and Exchange
                                                                      GENERAL
                                            Commission
                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                      Mission

                                          The mission of the Ofﬁce of Inspector General is to promote the integrity, efﬁciency, and
                                      effectiveness of the critical programs and operations of the Securities and Exchange
                                      Commission. This mission is best achieved by having an effective, vigorous and independent
                                      ofﬁce of seasoned and talented professionals who perform the following functions: !


                                      •"     Conducting independent and objec            •"   Offering expert assistance to improve
                                             tive audits, evaluations, investigations,        Commission programs and opera-
                                             and other reviews of Commission                  tions;
                                             programs and operations;                    •"   Communicating timely and useful in
                                      •"     Preventing and detecting fraud, waste,           formation that facilitates management
                                             abuse, and mismanagement in                      decision-making and the achievement
                                             Commission programs and opera                    of measurable gains; and
                                             tions;                                      •"   Keeping the Commission and the
                                      •"     Identifying vulnerabilities in                   Congress fully and currently informed
                                             Commission systems and operations                of signiﬁcant issues and developments.
                                             and recommending constructive solu
                                             tions;
U.S. Securities and Exchange Commission


                                                                                   SEMIANNUAL
                                                                                   REPORT TO
                                                  Ofﬁce of
                                                 Inspector
                                                  General
                                                                                   CONGRESS
                                           CONTENTS
                                           MESSAGE FROM THE INSPECTOR GENERAL..............................................................
                                                                             !                                                              1


                                           MANAGEMENT AND ADMINISTRATION........................................................................
                                                                        !                                                                        5

                                           !       Agency Overview................................................................................................................
                                                                        !                                                                                                               5

                                           !     ! OIG Staffing!........................................................................................................................6

                                           !     ! New OIG Website!............................................................................................................... 7

                                           !     ! New OIG Complaint Hotline!................................................................................................ 7


                                           RESPONSES TO CONGRESSIONAL INQUIRIES...........................................................
                                                                               !                                                           9


                                           ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY...........................................
                                                                                       !                                           11

                                           !       Annual Attorney Certification of Bar Membership..............................................................
                                                                                                           !                                                               11

                                           !       Enforcement Policies and Procedures for 

                                           ! !      the Selection of Receivers, Administrators and Consultants............................................
                                                                                                                              !                                            12

                                           !       New Performance Management System...........................................................................
                                                                                               !                                                                           12

                                           !       New Enforcement Manual.................................................................................................
                                                                              !                                                                                            13

                                           !       Revised Regulation on Use of SEC Office Equipment........................................................
                                                                                                                  !                                                        13

                                           !       Office of Information Technology Policies and Procedures................................................
                                                                                                                         !                                                 13


                                           THE INSPECTOR GENERAL’S STATEMENT ON THE U.S. SECURITIES AND 

                                           EXCHANGE COMMISSION’S MANAGEMENT AND 

                                           PERFORMANCE CHALLENGES...................................................................................
                                                                    !                                                                                15

                                           !       Procurement and Contracting...........................................................................................
                                                                                  !                                                                                           15!

                                           !       Information Technology Management................................................................................
                                                                                             !                                                                                16

                                           !       Financial Management......................................................................................................
                                                                          !                                                                                                   17

                                           !       Performance Management................................................................................................
                                                                              !                                                                                               17

                                           !       Personal Securities Trading...............................................................................................
                                                                               !                                                                                              18

SEMIANNUAL REPORT TO CONGRESS

                                 AUDITS, EVALUATIONS AND INSPECTIONS ..............................................................
                                                                                              !                                                              19

                                 ! OVERVIEW.................................................................................................................
                                            !                                                                                                                19

                                 ! !       Audits ............................................................................................................................
                                                  !                                                                                                                            19

                                 ! !       Evaluations and Inspections...........................................................................................
                                                                                  !                                                                                            19

                                 ! SUMMARY OF AUDITS, EVALUATIONS AND INSPECTIONS..................................
                                                                                 !                                  20

                                 "   "     SEC’s Oversight of Bear Stearns and Related Entities: 

                                 !   !                                                                                   !
                                             The Consolidated Supervised Entity Program (Report No. 446-A).................................                20

                                 "   "     SEC’s Oversight of Bear Stearns and Related Entities: 

                                 !   !                                                                             !
                                             Broker-Dealer Risk Assessment Program (Report No. 446-B).......................................               26

                                 !   !     Internal Control Review of the Government 

                                 !   !                                                !
                                             Purchase Card Program (Report No. 440)....................................................................    28

                                 !   !     Audit of Premium Travel (Report No. 447).......................................................................
                                                                                    !                                                                      30

                                 "   "     Survey of Enforcement’s Hub System (Report No. 449)..................................................
                                                                                                        "                                                  31

                                 !   !     2008 FISMA Executive Summary Report (Report No. 451).............................................
                                                                                                             !                                             33

                                 !   !     Inspection of Corporation Finance Referrals (Report No. 433).........................................
                                                                                                                 !                                         34


                                 INVESTIGATIONS..........................................................................................................
                                                  !                                                                                                          37

                                 ! OVERVIEW.................................................................................................................
                                            !                                                                                                                37

                                 ! INVESTIGATIONS AND INQUIRIES CONDUCTED....................................................
                                                                                                        !                                                    38

                                 !   !     Re-Investigation of Claims by Former Enforcement Employee of 

                                 !   !       Improper Preferential Treatment and Retaliatory Termination ........................................
                                                                                                                          !                                        38

                                 !   !     Investigation of Failure to Vigorously Enforce Action in Regional Office ...........................
                                                                                                                                       !                           43

                                 !   !     Investigation of Conflict of Interest, Improper Solicitation and 

                                 !   !       Receipt of Gifts from a Prohibited Source, and Misuse of Official Position..................... !                     47

                                 !   !     Investigation of Falsification of Personnel Forms and Employment Application................           !                48

                                 !   !     Investigation of Misuse of Official Government Position...................................................
                                                                                                                !                                                  49

                                 !   !     Follow-up Investigation of Disruptive and 

                                 !   !                                                        !
                                             Intimidating Behavior by a Senior Manager...................................................................          49

                                 !   !     Investigation of Failure to Maintain Active Bar Status......................................................
                                                                                                            !                                                      50

                                 !   !     Follow-up on Investigation of Misuse of Government Parking Permit...............................
                                                                                                                                   !                               51

                                 !   !     Investigations into Misuse of Government Resources and 

                                 !   !                                                                               !
                                             Official Time to Operate Private Photography Businesses.............................................                  52

                                 !   !     Investigations and Inquiries into Misuse of 

                                 !   !                                                          !
                                             Computer Resources to View Pornography..................................................................              53

                                 !   !     Investigation into Misuse of Computer Resources, 

                                 !   !                                                                             !
                                             Appearance of a Conflict of Interest and Lack of Candor..............................................                 54

                                 !   !     Investigation of Complaint of Order to Falsify a Government Record...............................
                                                                                                                                   !                               55

                                 !   !     Investigation of Alleged Unethical Instructions 

                                 !   !                                                                        !
                                             to Close Cases and Failure to Pursue Investigations.....................................................              56

                                 !   !     Misuse of Government Resources and Time by a Contract Employee............................ !                            56

                                 !   !     Other Inquiries Conducted..............................................................................................
                                                                        !                                                                                          57


                                 PENDING INVESTIGATIONS AND INQUIRIES..............................................................
                                                                     !                                                              58

                                 !   !     Possible Violation of Rules Governing Employee Securities Transactions........................          !                        58

                                 !   !     Whistleblower Allegations of Falsification of Contract Documents...................................
                                                                                                                                        !                                   59

                                 !   !     Complaint of False Statement in Previous OIG Investigation............................................
                                                                                                                              !                                             59

                                 !   !     Complaints of Unprofessional Conduct by Commission Contractor and 

                                 !   !      Employee ......................................................................................................................
                                                      !                                                                                                                     59

SEMIANNUAL REPORT TO CONGRESS

                                 !   !   Allegations of Perjury by a Commission Manager and 

                                 !   !                                   !
                                          Receiver Conflict of Interest.............................................................................................  60

                                 !   !   Allegations of Unauthorized Disclosure by Former Employee and 

                                 !   !                                               !
                                          Improper Enforcement Investigation.................................................................................         60

                                 !   !   Complaint of Management Retaliation Against Staff and Travel Abuse...............................
                                                                                                                                      !                               60

                                 !   !   Allegations of Misuse of Resources and 

                                 !   !                                                          !
                                          Official Time to Support Private Businesses.....................................................................            61

                                 !   !   Complaint of Perjury and Retaliation by Regional Office Managers.....................................
                                                                                                                                !                                     61

                                 !   !   Allegation of Conflict of Interest on the Part of a Senior Manager.......................................
                                                                                                                              !                                       61

                                 !   !   Allegations of Conflict of Interest and Investigative Misconduct..........................................
                                                                                                                           !                                          61

                                 !   !   Allegation of Retaliatory Investigation.................................................................................
                                                                                    !                                                                                 62

                                 !   !   Allegation of Leak of Confidential Document to the Press..................................................
                                                                                                                   !                                                  62

                                 !   !   Complaint of Favoritism, Abuse of Position and Retaliation by a Manager.......................... !                          62

                                 !   !   Allegations of Repeated Time and Attendance Abuse and 

                                 !   !    Misuse of Government Resources ..................................................................................
                                                                                   !                                                                                  62

                                 !   !   Other Pending Inquiries.....................................................................................................
                                                                   !                                                                                                  63


                                 REVIEW OF LEGISLATION AND REGULATIONS..........................................................
                                                                      !                                                          65


                                 STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS................
                                                                                       !                67


                                 REVISED MANAGEMENT DECISIONS.........................................................................
                                                             !                                                                         67


                                 AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS.................................
                                                                                !                                 67


                                 INSTANCES WHERE INFORMATION WAS REFUSED..................................................
                                                                        !                                                  67


                                 TABLES
                                 ! 1!      List of Reports: Audits, Evaluations and Inspections .......................................................
                                                                                                !                                                       69


                                 ! 2!      Reports Issued With Costs Questioned or
                                 ! !       Funds Put to Better Use (Including 

                                 ! !                        !
                                           Disallowed Costs)........................................................................................................... 71


                                 ! 3!      Reports With Recommendations on Which 

                                 ! !                                               !
                                           Corrective Action Has Not Been Completed.................................................................... 73


                                 ! 4!      Summary of Investigative Activity....................................................................................
                                                                            !                                                                                    79


                                 ! 5!      Summary of Complaints Received..................................................................................
                                                                         !                                                                                  81


                                 ! 6!      References to Reporting Requirements of 

                                 ! !                                !
                                           the Inspector General Act................................................................................................ 83

                                                    Message from the
SEMIANNUAL REPORT TO CONGRESS

                                                    Inspector General
                                                    This is my ﬁrst full reporting period since being appointed Inspector General for
                                                    the Securities and Exchange Commission (SEC or Commission) on December
                                                    23, 2007. It has been a very eventful six months with numerous noteworthy
                                                    accomplishments.

                                    When I ﬁrst joined the Commission, I stated my belief that a vibrant and vigorous Ofﬁce of
                                Inspector General (OIG) was critical to achieving the aims of the SEC, and pledged to ensure that
                                the OIG fulﬁlls its responsibilities of promoting efﬁciency and effectiveness within the Commission.
                                I believe that our work over the last six months demonstrates the important role the OIG plays in
                                increasing the quality of SEC operations and combating actual or potential occurrences of fraud,
                                waste and abuse in Commission programs and operations.

                                   We issued numerous important reports by both the audit and investigative sides of the OIG
                                during this reporting period that provided valuable information to the Commission, the Congress
                                and the public at large concerning Commission programs and operations.

                                    On April 2, 2008, we received a request from Ranking Member Charles E. Grassley of the
                                United States Senate Committee on Finance for an analysis of the Commission’s oversight of several
                                investment banks, most notably Bear Stearns, as well as an investigation into the facts and
                                circumstances surrounding the Commission’s decision to not pursue an Enforcement action against
                                Bear Stearns.

                                   In response to this Congressional request, we issued two separate audit reports during the
                                reporting period. The ﬁrst report related to the Commission’s program that oversaw Consolidated
                                Supervised Entity (CSE) ﬁrms, which included Bear Stearns, Goldman Sachs, Morgan Stanley,
                                Merrill Lynch and Lehman Brothers. The second report discussed the Commission’s Broker-Dealer
                                Risk Assessment Program, which tracks the ﬁling status of 146 broker-dealers that are part of a
                                holding company structure and have at least $20 million in capital.

                                    We also completed an investigative report relating to the decision by a Commission Regional
                                Ofﬁce to close an Enforcement investigation brought against Bear Stearns and another entity. Our
                                report found a failure on the part of management in the Regional Ofﬁce to administer its statutory
                                obligations and responsibilities to vigorously enforce compliance with applicable securities laws. The
                                report also noted that the fact that two of the defense counsels in the investigation were former
                                Enforcement attorneys created the appearance, to some, that they may have obtained favorable
                                treatment from Enforcement staff.

                                    During this reporting period, our auditors issued several additional reports on a variety of issues
                                and subjects important to Commission operations. We ﬁnalized an audit of Commission premium
                                class travel and provided several recommendations designed to strengthen management controls and

                                                                                   1

SEMIANNUAL REPORT TO CONGRESS
   enhance policies and procedures relating to Commission travel. Through an outside contractor,
                                 we conducted an audit of the Commission’s Government Purchase Card (GPC) Program, under
                                 which 96 SEC employees made purchases on behalf of the Commission. The report found that
                                 internal controls over the GPC program were not operating effectively and provided 17
                                 recommendations, many of which Commission management has already begun to address, to
                                 increase efﬁciencies and controls.

                                     OIG auditors also followed up on a Government Accountability Ofﬁce (GAO) report
                                 regarding the operation of the Division of Enforcement (Enforcement) and conducted a survey of
                                 Enforcement’s new case management tracking system. This survey culminated in a written
                                 report providing several recommended actions based upon user feedback in an effort to improve
                                 Enforcement’s new system. Additionally, we ﬁnalized an inspection of the process by which the
                                 Division of Corporation Finance refers potential securities law violations to Enforcement for
                                 investigation, and provided recommendations to improve the referral process. We also contracted
                                 with an outside entity for the 2008 Federal Information Security Management Act Report
                                 assessing the Commission’s information technology security procedures and controls.

                                      In investigative matters, we completed a re-investigation of claims made by a former
                                 Enforcement attorney that he was improperly terminated and that Enforcement gave improper
                                 preferential treatment to a high-level investment bank executive in an investigation. I undertook
                                 this re-investigation personally and conducted it over a ten-month period. In the course of this
                                 re-investigation, I reviewed over 70 transcripts of testimony or memoranda of interviews of
                                 individuals with knowledge of matters relating to the re-investigation, and personally conducted
                                 testimony on-the-record and under oath of 20 witnesses. I prepared a nearly 200-page report of
                                 investigation, with a ﬁve-volume set of 226 appendices. The report concluded that Enforcement
                                 failed in numerous respects in how it managed the former employee and allowed inappropriate
                                 reasons to factor into its decision to terminate him. The report also raised serious questions
                                 about the appropriateness of the information provided by senior Enforcement ofﬁcials to an
                                 investment bank concerning an ongoing investigation.! In addition, the report concluded that the
                                 common practice in Enforcement!that allows (and even encourages) outside counsel to contact
                                 those above the line attorney level on behalf of their clients when they have disagreements with
                                 the line attorneys could allow certain lawyers (of prominence or note) to have greater access to
                                 the decision makers in Enforcement than other less prominent lawyers would have, and create
                                 real inequities.

                                     Our investigative staff also completed numerous other investigations during the reporting
                                 period. These investigations related to, among other things, conﬂict of interest, falsiﬁcation of
                                 employment application, improper solicitation and receipt of gifts from a prohibited source,
                                 misuse of ofﬁcial Government position and misuse of Government resources.

                                    I am extremely proud of the accomplishments of this ofﬁce during the past six months that
                                 have been achieved with a very small staff. Throughout most of the reporting period, our staff
                                 consisted of three investigators, six auditors, a counsel and a few administrative folks. We added



                                                                                2

SEMIANNUAL REPORT TO CONGRESS
   a Deputy Inspector General in July and an additional investigator in September, who have greatly
                                 enhanced our team. Particularly during these turbulent ﬁnancial times, I believe that the work of
                                 this Ofﬁce has been critical in providing the Commission, the U.S. Congress, and the public with
                                 valuable information about the regulatory climate, and we intend to continue this important work
                                 in the future.

                                    #

                                    #          #       #      #       #      #        #
                                    #          #       #      #       #      #        #     H. David Kotz
                                    #          #       #      #       #      #        #     Inspector General

                                    #

                                    #          #       #      #       #      #        #




                                                                                 3

4

U.S. Securities and Exchange Commission


                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General



                                           MANAGEMENT AND 

                                           ADMINISTRATION
                                           AGENCY OVERVIEW                                   investment trusts, exchange-traded funds,
                                                                                             interval funds, and variable insurance
                                               The United States Securities and              products), almost 11,000 federally registered
                                           Exchange Commission (SEC or Commission)           advisers, approximately 5,730 broker-dealers
                                           aims to be the standard against which Federal     with about 677,000 registered representatives,
                                           agencies are measured. The SEC’s vision is to     about 700 transfer agents, 10 securities
                                           strengthen the integrity and soundness of the     exchanges, the Financial Industry Regulatory
                                           United States securities markets for the beneﬁt   Authority, 4 securities futures products
                                           of investors and other market participants, and   exchanges, 10 clearing agencies, 9 credit rating
                                           to conduct its work in a manner that is as        agencies, and the Municipal Securities
                                           sophisticated, ﬂexible, and dynamic as the        Rulemaking Board. The SEC also selectively
                                           securities markets it regulates.                  reviews the disclosures of almost 13,000 public
                                                                                             companies under the Securities Act of 1933
                                               The SEC’s mission is to protect investors,    and the Securities Exchange Act of 1934. In
                                           facilitate capital formation and maintain fair,   2007, the volume traded on U.S. equity
                                           orderly, and efﬁcient markets. To achieve its     markets amounted to nearly $44 trillion.
                                           mission, the SEC enforces compliance with the
                                           Federal securities laws, promotes healthy             In order to accomplish its mission most
                                           capital markets through an effective and          effectively and efﬁciently, the SEC is organized
                                           ﬂexible regulatory environment, fosters           into four main divisions (Corporation Finance,
                                           informed investment decision making, and          Enforcement, Investment Management, and
                                           maximizes the use of human capital and            Trading and Markets), and also has 18
                                           technological resources.                          functional ofﬁces. The Commission’s
                                                                                             Headquarters is located in Washington, D.C.,
                                               SEC staff monitor and regulate a securities   and there are 11 Regional Ofﬁces located
                                           industry that includes more than 37,000           throughout the country. As of September 30,
                                           investment company portfolios (including          2008, the SEC had 3,511 full-time equivalents,
                                           mutual funds, closed-end funds, unit

                                                                                        5

SEMIANNUAL REPORT TO CONGRESS
   consisting of 3,442 permanent and 69                  Law and Policy Award for that work.
                                 temporary positions.                                  Additionally, Mr. Morris received a
                                                                                       commendation from the Federal Bureau of
                                 OIG STAFFING                                          Investigation (FBI) for outstanding assistance in
                                                                                       an investigation conducted jointly by the SEC
                                     During the reporting period, the OIG ﬁlled
                                                                                       and FBI.
                                 three critical positions, including the position of
                                 Deputy Inspector General. The new Deputy
                                                                                           Prior to joining the Commission, Mr.
                                 Inspector General, Noelle Frangipane, was a
                                                                                       Morris served as a Trading Analyst in Market
                                 Senior Counsel in the Ofﬁce of the General
                                                                                       Investigations/Market Surveillance for the
                                 Counsel of the SEC prior to joining the OIG.
                                                                                       American Stock Exchange, where he reviewed
                                 In that capacity, Ms. Frangipane served as an
                                                                                       and analyzed complex listed derivative products
                                 agency subject matter expert on issues of
                                                                                       for indications of improprieties by member
                                 privacy and information-sharing. Before she
                                                                                       ﬁrms' proprietary accounts. Mr. Morris also
                                 joined the SEC, Ms. Frangipane was the
                                                                                       worked at Smith Barney Shearson in its Sales
                                 Director of Policy and Public Information for
                                                                                       Practice and Compliance Department as an
                                 the Peace Corps. In that capacity, she
                                                                                       Analyst. In that capacity, Mr. Morris was
                                 supervised the audit and evaluation of existing
                                                                                       responsible for reviewing client securities
                                 agency policy, operating plans and programs,
                                                                                       trading for 532 branch ofﬁces to ensure
                                 and the drafting of new policy, and served as
                                                                                       compliance with suitability guidelines as well as
                                 the agency’s Freedom of Information and
                                                                                       industry and ethical standards. Before that, Mr.
                                 Privacy Act Ofﬁcer. Ms. Frangipane began her
                                                                                       Morris worked at Merrill Lynch in its Fraud
                                 Federal career at the National Institutes of
                                                                                       Control Unit as an Assistant Investigator where
                                 Health, where she worked in the ofﬁces of
                                                                                       he was responsible for investigating Visa card
                                 administration and management, as well as
                                                                                       and check fraud for Merrill Lynch’s cash
                                 legislative and intergovernmental affairs. Ms.
                                                                                       management accounts. Mr. Morris has a
                                 Frangipane is a graduate of the College of New
                                                                                       Bachelor’s degree in Psychology from Touro
                                 Jersey, where she received her Bachelor’s degree
                                                                                       College.
                                 magna cum laude in English, and Rutgers
                                 School of Law – Camden, where she received
                                                                                           In September, we added another new
                                 her J.D., graduating with awards for her pro
                                                                                       investigator, Ray Arp, who came to the OIG
                                 bono work and brief writing.
                                                                                       with more than 35 years of experience in
                                                                                       criminal investigations, law enforcement
                                     In addition, we added two new criminal
                                                                                       operations, fraud and white collar crime,
                                 investigators during the reporting period. In
                                                                                       program analysis and program management.
                                 April, Sam Morris joined the OIG Ofﬁce of
                                                                                       Mr. Arp served for 15 years as both a criminal
                                 Investigations with almost 20 years of                investigator and supervisory criminal
                                 investigative experience in the securities
                                                                                       investigator with the U.S. Army’s Criminal
                                 industry. Mr. Morris came to us from the SEC’s
                                                                                       Investigation Command, where he specialized
                                 Division of Enforcement, where he served for
                                                                                       in white collar crime investigations and drug
                                 over 10 years as a Market Surveillance
                                                                                       enforcement. After retiring from the Army with
                                 Specialist investigating violations of the Federal    twenty years of service, Mr. Arp was employed
                                 securities laws. In that position, Mr. Morris
                                                                                       by the Commonwealth of Virginia for 10 years,
                                 served on the Terrorist Attack Trading
                                                                                       where he served in management, analysis and
                                 Investigative Team immediately after the
                                                                                       administrative positions before returning to the
                                 September 11, 2001 attacks, and received the
                                                                                 6

SEMIANNUAL REPORT TO CONGRESS
   Federal government in June 2003. From 2003           NEW OIG COMPLAINT HOTLINE
                                 until he joined the SEC, Mr. Arp served as a
                                 Senior Criminal Investigator with the                    During the previous reporting period, in
                                 Department of Defense Ofﬁce of Inspector             order to facilitate the making of conﬁdential
                                 General’s Investigative Oversight Directorate,       complaints to the OIG, the OIG entered into a
                                 where he worked on a number of high proﬁle           contract with an outside vendor to provide both
                                 investigations, including the death of Corporal      telephone and web-based Hotline services for
                                 Patrick Tillman and leadership failures in the       the reporting of suspected fraud, waste or abuse
                                 investigation and reporting of sexual assaults at    in SEC programs and operations, and SEC staff
                                 the U.S. Air Force Academy. Mr. Arp has a            or contractor misconduct. We are pleased to
                                 Bachelor’s degree in Criminal Justice                report that the Hotline became operational on
                                 Administration from Park University and a            August 13, 2008.
                                 Master’s degree in Administration from Central
                                 Michigan University. Additionally, he is an              Hotline complaints may be made by either
                                 accredited fraud investigator and criminal           calling the OIG’s toll-free Hotline number, (877)
                                 justice trainer, and currently serves on the board   442-0854, 24 hours a day, seven days a week,
                                 of directors for a national association of           where a specially-trained Hotline operator will
                                 investigators. His awards include both the           record all important details of the complaint, or
                                 Bronze Star and the Meritorious Civilian             by completing an online complaint form at
                                 Service Award.                                       www.reportlineweb.com/sec_oig. While
                                                                                      individuals submitting complaints through the
                                 NEW OIG WEBSITE                                      Hotline may request to remain anonymous,
                                                                                      complainants are encouraged to assist the OIG
                                     During this reporting period, the OIG            by providing their names and information on
                                 enhanced its public resources by developing an       how they may be contacted for additional
                                 upgraded and more extensive OIG website.             information. The OIG will protect the
                                 The new website, which will become                   conﬁdentiality of complainants upon request.
                                 operational shortly, will feature streamlined
                                 navigational tools for access to general                 Between the date the Hotline became
                                 information about the OIG, its mission and its       operational and the end of the reporting
                                 staff, as well as more speciﬁc information           period, the OIG received a total of 29 Hotline
                                 concerning the OIG’s two central components,         complaints (19 by telephone and 10 by web-
                                 the Ofﬁce of Audits and Ofﬁce of                     based reporting). We anticipate that the
                                 Investigations. The website will also provide        number of Hotline complaints will increase as
                                 online visitors with direct access to expanded       more individuals become aware of and familiar
                                 content, such as audit and evaluation reports        with the Hotline. We believe that the new
                                 and several years of OIG Semiannual Reports          Hotline service will enhance the ability of
                                 to Congress. Another new feature of the              Commission employees and members of the
                                 website is the option of subscribing to a list       public to report matters conﬁdentially to the
                                 serve to allow visitors to receive notiﬁcation of    OIG and will assist the OIG tremendously in
                                 newly-issued OIG reports. Finally, the website       carrying out its critical function of preventing
                                 will provide visitors with information about and     and detecting fraud, waste, abuse and
                                 access to the OIG’s new telephone and web-           mismanagement in Commission programs and
                                 based Hotline for making conﬁdential                 operations.
                                 complaints to the OIG, as described below.

                                                                              7

8

U.S. Securities and Exchange Commission

                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           RESPONSES TO
                                           CONGRESSIONAL INQUIRIES

                                               During the reporting period, the OIG        Enforcement not to pursue an action against
                                           responded to several inquiries and requests     Bear Stearns and to close the investigation.
                                           for information from Congressional
                                           Committees, as well as individual Members           Ranking Member Grassley also asked
                                           of Congress.                                    the OIG to conduct follow-up audit work on
                                                                                           matters relating to the Commission’s
                                               On April 2, 2008, we received a letter      oversight of investment banks, such as Bear
                                           from Ranking Member Charles E. Grassley         Stearns, through its Division of Trading and
                                           of the United States Senate Committee on        Markets (TM). Speciﬁcally, Senator
                                           Finance requesting that OIG undertake           Grassley asked that the OIG analyze the
                                           both investigatory and audit work relating to   missions of TM’s oversight programs, as
                                           the collapse of Bear Stearns. The April 2,      well as their polices and procedures, and the
                                           2008 letter noted that according to             adequacies of the reviews conducted of
                                           regulatory ﬁlings and a December 2007           Bear Stearns.
                                           Wall Street Journal article, the
                                           Commission’s Division of Enforcement                As discussed at length in the section on
                                           (Enforcement) declined to bring an action       Investigations and Inquiries Conducted, on
                                           against Bear Stearns. Ranking Member            September 30, 2008, the OIG issued a
                                           Grassley asked that, in light of the            comprehensive report of investigation
                                           subsequent collapse and Federally-backed        relating to the decision by a Commission
                                           bailout of Bear Stearns, the OIG conduct a      Regional Ofﬁce to close the Enforcement
                                           thorough investigation into the facts and       investigation of Bear Stearns and another
                                           circumstances surrounding the decisions by      entity, ﬁnding a failure on the part of
                                                                                           management in the Regional Ofﬁce to



                                                                                    9

SEMIANNUAL REPORT TO CONGRESS
   administer its statutory obligations and             establishing policies regarding the directing of
                                 responsibilities to vigorously enforce compliance    appropriate resources to signiﬁcant and
                                 with applicable securities laws.                     complex cases in Enforcement, the issuance of
                                                                                      written guidance requiring supervisors to keep
                                     In addition, as discussed at length in the       complete and reliable records of all outside
                                 section on Summary of Audits and Inspections,        communications regarding any Enforcement
                                 on September 25, 2008, the OIG issued two            investigations, as well as policies regarding the
                                 separate audit reports in response to the April 2,   communicating of recusals to all SEC staff who
                                 2008 Congressional request. The ﬁrst report          have ofﬁcial contact with the recused individual,
                                 related to the Commission’s program that             and maintaining a record of the recusals. The
                                 oversees Consolidated Supervised Entity (CSE)        May 15, 2008 letter also informed Senator
                                 ﬁrms, which included Bear Stearns, Goldman           Grassley about an April 2, 2008 memorandum
                                 Sachs, Morgan Stanley, Merrill Lynch and             issued by SEC Chairman Christopher Cox to
                                 Lehman Brothers. The second report discussed         all SEC employees reminding them that the
                                 the Commission’s Broker-Dealer Risk                  Commission has protections in place to
                                 Assessment Program, which tracks the ﬁling           safeguard them from retaliation for making
                                 status of 146 broker-dealers that are part of a      protected whistleblower disclosures of
                                 holding company structure and have at least          wrongdoing at the Commission. The
                                 $20 million in capital.                              memorandum also speciﬁcally indicated that
                                                                                      communicating with the OIG may be an
                                     During the reporting period, the Inspector       alternate, conﬁdential channel of
                                 General also issued a progress report to Senator     communication that employees may use to
                                 Grassley on the status of the SEC’s                  report wrongdoing or misconduct if they fear
                                 implementation of the recommendations made           communicating through their chain of
                                 in an August 2007 Report prepared by the             command.
                                 Minority Staff of the Committee on Finance,
                                 United States Senate and the Committee on the            During the reporting period, the Inspector
                                 Judiciary, United States Senate, as requested in     General also met, and had numerous telephone
                                 a February 4, 2008 letter to the Inspector           calls, with staff of Congressional Committees to
                                 General from Senator Grassley.                       discuss a variety of matters of ongoing concern
                                                                                      with the SEC or the IG community. The OIG
                                     By letter dated May 15, 2008, Inspector          also replied to an inquiry from a Member of
                                 General Kotz informed Senator Grassley about         Congress about a matter of interest to an
                                 the status of SEC actions relating to instituting    individual constituent.
                                 standardized investigative procedures,




                                                                                10

U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                        CONGRESS

                                           ADVICE AND ASSISTANCE
                                           PROVIDED TO THE AGENCY

                                               During this reporting period, the OIG            individual had never been admitted to any bar.
                                           provided advice and assistance to                    The Commission requires that all individuals
                                           management on a number of serious issues             occupying attorney positions maintain active
                                           that were brought to our attention through           bar membership as a condition of their
                                           investigations conducted by the OIG and              employment.
                                           otherwise. This advice was conveyed through
                                           written communications, as well as oral                  In order to ensure that Commission
                                           brieﬁngs and meetings with agency ofﬁcials.          attorneys comply with the requirement of
                                           In addition to recommending improvements             maintaining active bar membership, the OIG
                                           in existing procedures, we provided numerous         issued a memorandum recommending that
                                           comments, both oral and written, on policy           management require all Commission
                                           and rule changes that were being implemented         attorneys to certify on a annual basis that they
                                           by management, some as a result of previous          are an active member of at least one bar. We
                                           OIG recommendations.                                 also recommended that Commission attorneys
                                                                                                be required to acknowledge on the annual
                                           Annual Attorney Certification of Bar                 certiﬁcation form that the failure on their part
                                           Membership                                           to maintain active bar membership at any
                                                                                                time during their employment as a
                                                Investigations conducted by the OIG
                                                                                                Commission attorney will result in a referral to
                                           during this reporting period and the prior
                                                                                                the appropriate authorities, and may result in
                                           reporting period revealed that two individuals
                                                                                                their pay being withheld and/or disciplinary
                                           employed as Commission attorneys had no              action. Management concurred with the
                                           active bar membership as required by their
                                                                                                OIG’s recommendation and agreed to
                                           positions. One of these attorneys was
                                                                                                implement the annual certiﬁcation
                                           transferred to an inactive status due to his
                                                                                                requirement.
                                           failure to renew his bar license, while the other

                                                                                          11

SEMIANNUAL REPORT TO CONGRESS
   Enforcement Policies and Procedures                   the policy itself and not just in the
                                 for the Selection of Receivers,                       attachment. The OIG also recommended
                                 Administrators and Consultants                        that the information sought in the attachment
                                     Within the past year, the OIG received            to the policy be obtained for a broader or
                                 two complaints pertaining to SEC                      indeﬁnite period of time, and that a
                                 Enforcement matters alleging that the                 certiﬁcation that complete and truthful
                                                                                       information was provided be included on the
                                 receivers who worked on these cases had
                                 improper conﬂicts of interest as a result of          form. Management agreed to consider the
                                 prior legal work they had performed, and is           OIG’s comments as it continues to draft the
                                 continuing to look into these matters.                revised policies and procedures.
                                 Additionally, during the previous reporting
                                 period, the OIG issued an inspection report           New Performance Management
                                                                                       System
                                 (No. 432, Oversight of Receivers and
                                 Distribution Agents, dated December 12,                   A prior OIG audit (No. 423, Enforcement
                                 2007) that made recommendations for                   Performance Management, issued February 8,
                                 improvements in receiver and distribution             2007) had found signiﬁcant problems with the
                                 agent oversight. The OIG has continued to             Division of Enforcement’s performance
                                 monitor the implementation of these                   management process and made numerous
                                 recommendations.                                      recommendations for improvements.
                                                                                       Thereafter, the Commission began to
                                     In connection with its ongoing efforts            implement a new agency-wide performance
                                 regarding receiver and distribution agent             management program. In the previous
                                 oversight, during the reporting period, the           reporting period, the OIG provided numerous
                                 OIG reviewed the Division of Enforcement’s            substantive comments on several drafts of the
                                 (Enforcement’s) draft policies and procedures         Commission’s new performance management
                                 governing the selection of receivers, fund            policy.
                                 administrators, independent distribution
                                 consultants, tax administrators and                       During this semiannual period, the OIG
                                 independent consultants. The OIG also                 continued to monitor the Commisson’s
                                 reviewed the attachment to the draft policy,          implementation of the new performance
                                 which was a form on which receiver and                management system and brought a particular
                                 independent consultant applicants would               problem it identiﬁed to management’s
                                 disclose conﬂicts of interest and background          attention. Speciﬁcally, the OIG discovered a
                                 information. Based upon its review of these           loophole in the transitioning of supervisory
                                 documents, the OIG issued a memorandum                employees who had recently joined the SEC
                                 to management making three                            to the new performance management system
                                 recommendations for enhancements to the               at the beginning of Fiscal Year 2009 that
                                 policy and attachment.                                would result in these employees not being
                                                                                       rated for a certain period of time. After the
                                     Speciﬁcally, the OIG recommended that             OIG pointed out the problem, management
                                 the important issue of actual or apparent             agreed to rectify the situation by adding
                                 conﬂicts of interest on the part of receivers         another rating period for these employees.
                                 and independent consultants be addressed in



                                                                                 12

SEMIANNUAL REPORT TO CONGRESS
   New Enforcement Manual                              OIG recommended that the policy be revised
                                                                                     to include an exception to allow for situations
                                     During the reporting period, Enforcement        where SEC staff and contractors, such as
                                 worked on preparing a new Enforcement               OIG employees, may have a legitimate reason
                                 Manual in response to a recommendation              to seek and access prohibited materials during
                                 made by the United States Senate                    the performance of their ofﬁcial duties. In its
                                 Committees on Finance and the Judiciary.            comments, the OIG also referenced the
                                 Various sections of the draft manual were           recommendation that management send
                                 provided to the OIG for its review and              appropriate reminders to SEC employees and
                                 comment. OIG staff conducted a thorough             contractors and suggested that management
                                 review of these manual sections and provided        do so in connection with notifying them of
                                 comments thereon. The OIG’s comments                the revised SECR 24.4.3 policy. Management
                                 pertained to, among other things, information       agreed to add the exception language
                                 that should be entered into Enforcement’s           recommended by the OIG and to consider
                                 Hub case management system, the deﬁnition           the suggestion for reminding employees of the
                                 of material external communications,                prohibition against accessing pornography.
                                 protecting witness conﬁdentiality in
                                 investigations, and redactions from materials       Office of Information Technology
                                 produced in response to subpoenas.                  Policies and Procedures

                                 Revised Regulation on Use of SEC                        During the reporting period, the OIG
                                 Office Equipment                                    reviewed and provided comments to
                                                                                     management on several draft Ofﬁce of
                                     As a result of prior OIG investigations         Information Technology (OIT) policies and
                                 into several employees’ misuse of SEC               procedures. For example, the OIG provided
                                 resources and ofﬁcial time to view                  comments on OIT’s draft Operating Directive
                                 pornography, the OIG had recommended                on Privacy Incident Management (OD
                                 that the Ofﬁce of the Executive Director            24-08.04) and its draft Implementing
                                 (OED), in consultation with the Ofﬁces of           Instruction on Privacy Incident Response
                                 General Counsel and Information                     Capability (II 24-08.04.01). In its comments
                                 Technology, update, consolidate and clarify         on these documents, the OIG recommended
                                 the agency’s Internet usage policies, including     that a provision pertaining to notiﬁcation to
                                 SEC Regulation (SECR) 24-4.3, “Use of SEC           the OIG of privacy incidents be expanded to
                                 Ofﬁce Equipment,” which had not been                require prompt notiﬁcation to the OIG of any
                                 updated since March 2002. The OIG also              incident where there appears to have been an
                                 recommended that the OED, in consultation           intentional breach of privacy by a
                                 with these other ofﬁces, send reminders to all      Commission staff member or contractor. The
                                 SEC employees and contractors that accessing        OIG further recommended that the detailed
                                 or downloading pornographic materials from          procedures for investigating privacy incidents
                                 Commission computers is strictly prohibited         be revised to require consultation with the
                                 and may result in appropriate discipline.           OIG whenever there is an indication of an
                                                                                     intentional breach of privacy by a
                                     During this reporting period, the OIG           Commission staff member or contractor.
                                 reviewed a revised draft of SECR 24.4.3 and         OIT thanked the OIG for its feedback and
                                 provided written comments on the draft. The


                                                                               13

SEMIANNUAL REPORT TO CONGRESS
   agreed to work on revising the draft policies         revised certiﬁcate to be issued upon an
                                 and procedures.                                       employee’s or contractor’s completion of the
                                                                                       agency’s required information technology (IT)
                                     The OIG also recommended several                  security training course. Further, an OIG
                                 revisions to a draft implementing instruction         staff member participated in testing of the
                                 establishing policies and procedures for the          revised IT security training program and
                                 use of digital forensic tools. The OIG’s              provided input on the training program to
                                 recommended changes were designed to                  OIT.
                                 ensure that the forensic tools are only used
                                 under appropriate circumstances and with the
                                 proper approvals. In addition, the OIG
                                 reviewed and provided comments on the




                                                                                 14

U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                      CONGRESS
                                           THE INSPECTOR GENERAL’S
                                           STATEMENT ON THE
                                           SEC’S MANAGEMENT AND
                                           PERFORMANCE CHALLENGES
                                                As required by the Reports Consolidation         The OIG believes that while the Ofﬁce of
                                           Act of 2000 and Ofﬁce of Management and           Administrative Services (OAS) has made
                                           Budget guidance, I am pleased to submit the       progress in recent years to enhance service
                                           following summarizing what I consider to be       delivery through reorganizing the
                                           the most serious management challenges            procurement and contracting functions,
                                           facing the Securities and Exchange                enhancing the skill level of current staff,
                                           Commission. This statement has been               recruiting additional skilled staff to better
                                           compiled based on Ofﬁce of Inspector              manage the workload, and pursuing efforts to
                                           General (OIG) audits, investigations,             implement an automated procurement system,
                                           evaluations, and the general knowledge of the     signiﬁcant challenges still remain.
                                           agency’s operations.
                                                                                                 An ongoing OIG review of the
                                           CHALLENGE:
                                       procurement and contracting function has
                                           PROCUREMENT AND CONTRACTING 
                     identiﬁed the following key organizational
                                                                                             issues:
                                               The Ofﬁce of Inspector General (OIG)
                                           has identiﬁed the Securities and Exchange         •"   OAS’s Ofﬁce of Acquisitions (OA) is
                                           Commission’s (Commission or SEC)                       attempting to implement a new $4
                                           procurement and contracting function as a              million automated procurement sys
                                           management challenge.                                  tem after two failed attempts to auto
                                                                                                  mate the procurement operation, cost
                                                                                                  ing more than $2.5 million.




                                                                                       15

SEMIANNUAL REPORT TO CONGRESS
   •"   OA does not maintain a consolidated                 Information Security - The OIG found
                                      record of active, pending, completed            that while the Commission’s Ofﬁce of
                                      and cancelled contracts, agreements,            Information Technology (OIT) generally has
                                      and purchase orders due to its                  effective security controls in place and has
                                      manually-driven processes.                      addressed most of the major areas for a sound
                                                                                      information security and privacy program, the
                                 •"   Select individuals in the Commission’s
                                                                                      SEC has not completed the security controls
                                      regional ofﬁces have been delegated
                                      the authority to execute contracts              and contingency plan testing for all of its
                                      without adequate contracting training           systems. OIT also has not taken the necessary
                                      and experience. Additionally, con               steps to implement the Federal Desktop Core
                                      tract activities in the regional ofﬁces         Conﬁguration (FDCC) requirements.
                                      are not reported in the Federal Pro
                                      curement Data System (FPDS), which                  Laptop Controls - The OIG concluded
                                      is a web-based tool used by agencies            in a recent audit report that OIT did not have
                                      to report contract data to the Presi            proper controls over its laptop computers.
                                      dent, Congress, the Government Ac
                                                                                      Speciﬁcally, OIT lacked an inventory of its
                                      countability Ofﬁce, Federal executive
                                                                                      laptops and was unable to trace ownership of
                                      agencies and the general public.
                                                                                      laptops to speciﬁc individuals.
                                 •"   OA does not have direct authority
                                      and oversight over some individuals                 Enterprise Architecture (EA) - The
                                      performing contract award and ad                OIG found that OIT had made progress in
                                      ministrative functions at headquarters          developing and documenting a
                                      and the regional ofﬁces.                        comprehensive EA program, but that EA has
                                                                                      not been satisfactorily integrated into the
                                 •"   OA still needs to develop comprehen             SEC’s overall IT strategy. The EA program is
                                      sive policies and procedures address
                                                                                      intended as a management tool to ensure
                                      ing key aspects of the procurement
                                                                                      planning is aligned with the agency’s strategic
                                      operation to ensure compliance with
                                      the Federal Acquisition Regulation              goals. The OIG found that the EA program
                                      and other applicable Ofﬁce of Man               performed well in certain areas, but poorly in
                                      agement and Budget guidance.                    the Results Capability Areas.

                                 CHALLENGE:                                               The integration of IT into Commission
                                 INFORMATION TECHNOLOGY                               work processes and interactions with the
                                 MANAGEMENT                                           public continues to be a management
                                     Information technology (IT) management           challenge. In addition to the issues described
                                 continues to be a management challenge,              above, the OIG has identiﬁed challenges in
                                                                                      several other key IT areas:
                                 although signiﬁcant improvements have been
                                 made in recent years.
                                                                                      •"   IT capital investment;
                                                                                      •"   Administration and oversight of IT
                                     In this reporting period, the OIG
                                                                                           contracts;
                                 evaluated three areas of IT management:              •"   IT governance; and
                                                                                      •"   IT human capital.




                                                                                16

SEMIANNUAL REPORT TO CONGRESS
       Currently, OIT has vacancies in two of its       not have reasonable assurance that
                                 most senior management positions - the Chief         misstatements would be prevented or detected
                                 Information Ofﬁcer (CIO) and Chief                   on a timely basis.
                                 Information Security Ofﬁcer (CISO). These
                                 positions are essential to the SEC’s IT                  GAO identiﬁed four signiﬁcant control
                                 program and should be ﬁlled expeditiously.           deﬁciencies in the Commission’s ﬁnancial
                                 Despite those vacancies, OIT has still made          reporting process, which, taken collectively,
                                 considerable progress in strengthening the           constitute a material weakness. These control
                                 SEC’s IT program in several areas, including:        deﬁciencies concerned the Commission’s (1)
                                                                                      period-end ﬁnancial reporting process, (2)
                                 •"   Supporting a major upgrade to the               calculation of accounts receivable for
                                      agency’s core ﬁnancial management               disgorgements and penalties, (3) accounting
                                      system;                                         for transaction fee revenue, and (4)
                                                                                      preparation of ﬁnancial statement disclosures.
                                 •"   Developing comprehensive informa
                                      tion security management and pri
                                                                                           In addition, GAO identiﬁed three
                                      vacy policies and procedures;
                                                                                      signiﬁcant (but not material) deﬁciencies in
                                 •"   Initiating a project expected to em             internal controls, which adversely affect the
                                      ploy XBRL interactive data technol              Commission’s ability to meet ﬁnancial
                                      ogy, which gives investors and analysts         reporting and other internal control
                                      quicker and easier access to key ﬁnan           objectives. These deﬁciencies concerned the
                                      cial information about public compa             Commission’s (1) information security
                                      nies and mutual funds; and                      controls, (2) property and equipment, and
                                                                                      (3) accounting for budgetary resources.
                                 •"   Competing and awarding a new con
                                      tract for Infrastructure Support Serv
                                                                                          According to GAO, although certain
                                      ices.
                                                                                      compliance controls should be improved, the
                                     The OIG plans to continue its oversight of       Commission maintained, in all material
                                                                                      respects, effective internal controls over
                                 IT management and monitor progress in the
                                 key areas denoted above.                             compliance with laws and regulations. This
                                                                                      provided reasonable assurances that
                                                                                      noncompliance with laws and regulations that
                                 CHALLENGE:

                                 FINANCIAL MANAGEMENT
                                could have a direct and material effect on the
                                                                                      ﬁnancial statements would be prevented or
                                     The Government Accountability Ofﬁce’s            detected on a timely basis.
                                 (GAO) ﬁscal year 2007 audit of the
                                 Commission’s ﬁnancial statements found that          CHALLENGE: 

                                 they were fairly presented in all material           PERFORMANCE MANAGEMENT

                                 respects. However, because of a material
                                 weakness and signiﬁcant deﬁciencies in                   In February 2007, the OIG issued an
                                 internal controls, the GAO found that the            audit report on the Commission’s
                                 SEC did not maintain effective internal              performance management process. This
                                 controls over ﬁnancial reporting, and thus did       audit found that the Commission did not
                                                                                      consistently perform all parts of the



                                                                                17

SEMIANNUAL REPORT TO CONGRESS
   performance appraisal process. In addition,           CHALLENGE: 

                                 the audit report found that the Commission’s          PERSONAL SECURITIES TRADING

                                 performance management process did not
                                                                                           While conducting a comprehensive
                                 sufﬁciently contain policies and procedures
                                                                                       investigation of the securities trading activities
                                 with regard to managing employees with
                                                                                       of a few Commission employees, we have
                                 performance problems and implementing all
                                                                                       determined that the Commission’s current
                                 phases of the performance review cycle.
                                                                                       system in place to report the ownership and
                                                                                       trading of securities is insufﬁcient to prevent
                                     The OIG also found that the Commission
                                                                                       and detect insider trading on the part of
                                 did not make meaningful distinctions between
                                                                                       Commission employees or violations of the
                                 employees’ performance since each employee
                                                                                       Commission’s rules.
                                 was merely rated as “pass” or “fail.” Further,
                                 the performance process was not aligned with
                                                                                           The OIG investigation has found that the
                                 the ﬁscal year, and did not timely reward
                                                                                       reports that employees are required to ﬁle
                                 employees for their signiﬁcant, performance-
                                                                                       when they buy, sell or own securities are not
                                 based contributions.
                                                                                       meaningfully reviewed or sufﬁciently checked
                                                                                       for conﬂicts of interest. Moreover, there is
                                     The Commission, has, however, taken
                                                                                       currently no system in place for the
                                 numerous steps to remedy this challenge.
                                                                                       Commission to detect if an employee who has
                                 Beginning in Fiscal Year 2008, Commission
                                                                                       traded or owns a security failed to properly
                                 employees will begin transitioning to a new
                                                                                       report such transaction.
                                 performance management process, which
                                 includes a ﬁve-level rating system. All
                                                                                           The lack of a reliable oversight system of
                                 employees are expected to transition to the
                                                                                       employee securities trading poses a signiﬁcant
                                 new process by Fiscal Year 2010. The OIG
                                                                                       management challenge to the Commission
                                 reviewed several drafts of the Commission’s
                                 new written guidance and provided three               and may create an appearance of a conﬂict of
                                                                                       interest in the matters on which Commission
                                 separate sets of substantial written comments
                                                                                       employees work.
                                 on those drafts. The Commission
                                 incorporated the OIG’s comments into its
                                                                                           The Ethics Counsel for the Commission is
                                 guidance.
                                                                                       aware of this signiﬁcant challenge and has
                                                                                       indicated that he intends to take steps to
                                                                                       correct the problem.




                                                                                 18

U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           AUDITS, EVALUATIONS AND

                                           INSPECTIONS
                                           OVERVIEW                                           accordance with laws and regulations. Audits
                                                                                              are systematic, independent and documented
                                                The OIG’s Ofﬁce of Audits (AUD) focuses       processes for obtaining evidence.
                                           its efforts on conducting and supervising
                                           independent audits, evaluations and                    In general, audits are conducted when
                                           inspections of the Commission’s program and        ﬁrm criteria or data exist, sample data is
                                           operations. AUD also hires independent             measurable, and testing internal controls is an
                                           contractors and subject matter experts to          integral component of the objectives. Our
                                           conduct work on its behalf. Speciﬁcally, we        audits focus on Commission programs and
                                           review the Commission’s programs and               operations related to areas such as the
                                           operations to determine whether:                   oversight and examination of regulated
                                                                                              entities, the protection of investor interests,
                                           •"   There is compliance with governing            and the evaluation of administrative activities.
                                                laws, regulations, and policies;              AUD conducts audits in accordance with OIG
                                           •"   Resources are safeguarded and appro
                                                                                              policy, generally accepted government
                                                priately managed;
                                                                                              auditing standards issued by the Comptroller
                                           •"   Funds are expended properly;
                                           •"   Desired program results are achieved;         General of the United States (the Yellow
                                                and                                           Book), as well as guidance issued by the
                                           •"   Information provided by the                   President’s Council on Integrity and Efﬁciency
                                                Commission to the public and others           (PCIE) and the Executive Council on Integrity
                                                is reliable.                                  and Efﬁciency (ECIE).

                                           Audits                                             Evaluations and Inspections

                                               Audits examine operations and ﬁnancial             AUD conducts evaluations and inspections
                                           transactions to ensure that proper                 when non-audit services or consulting services
                                           management practices are being followed and        are rendered to the agency, or when a project’s
                                           resources are being adequately protected in
                                                                                        19

SEMIANNUAL REPORT TO CONGRESS
   objectives are based on specialty and highly         B) addresses TM’s Risk Assessment Program
                                 technical areas.                                     and is discussed in detail below.

                                     Evaluations and inspections are reviews              Prior to the OIG’s issuance of its audit
                                 that typically cover broad areas and are             reports, senior Commission ofﬁcials informed
                                 designed to provide Commission management            the OIG that they had determined the reports
                                 with timely and useful information associated        contained conﬁdential and nonpublic
                                 with current or anticipated problems.                information that could not be released to the
                                 Evaluations are conducted in accordance with         public under Commission regulations. As a
                                 OIG policy, the non-audit service standards of       result, on September 25, 2008, the OIG
                                 the Yellow Book, or guidance issued by the           issued both public and nonpublic versions of
                                 PCIE/ECIE. Inspections are conducted in              Report Nos. 446-A and 446-B. The redacted
                                 accordance with OIG policy and the PCIE/             public versions of the reports were placed on
                                 ECIE Quality Standards for Inspections.              the OIG’s website, while the unredacted
                                                                                      nonpublic versions were issued internally
                                                                                      within the Commission.
                                 SUMMARY OF AUDITS, EVALUATIONS
                                 AND INSPECTIONS                                      Background of the CSE Program
                                 SEC’s Oversight of Bear Stearns and                      In 2004, the Commission adopted rule
                                 Related Entities: Consolidated
                                 Supervised Entity Program                            amendments under the Securities Exchange
                                 (Report No. 446-A)                                   Act of 1934, which created the voluntary
                                                                                      CSE program. This program was established
                                     The OIG conducted an audit of the                to allow the Commission to supervise certain
                                 Commission’s Oversight of Bear Stearns and           broker-dealer holding companies on a
                                 Related Entities: Consolidated Supervised            consolidated basis. In this capacity, the
                                 Entity Program, during the period from April         Commission’s supervision extended beyond
                                 2008 through August 2008, in accordance              the registered broker-dealer to the
                                 with generally accepted government auditing          unregulated afﬁliates of the broker-dealer and
                                 standards. The OIG initiated this audit based        the holding company itself.
                                 on a request received on April 2, 2008, from
                                 Charles E. Grassley, the Ranking Member of               A broker-dealer became a CSE by
                                 the United States Senate Committee on                applying to the Commission for an exemption
                                 Finance. The request asked the OIG to                from the Commission’s standard net capital
                                 analyze the Commission’s oversight of the            rule, and the broker-dealer’s ultimate holding
                                 Consolidated Supervised Entity (CSE) ﬁrms            company consenting to group-wide
                                 and broker-dealers that were subject to the          Commission supervision, if it did not already
                                 Commission’s Risk Assessment Program.                have a principal regulator. By obtaining an
                                                                                      exemption from the standard net capital rule,
                                     In response to the Congressional request,        the CSE ﬁrm’s broker-dealer was permitted to
                                 the OIG actually conducted two separate              compute net capital using an alternative
                                 audits. This section discusses the audit of the      method.
                                 Division of Trading and Market’s (TM) CSE
                                 Program. The second audit (Report No. 446



                                                                                20

SEMIANNUAL REPORT TO CONGRESS
        The Commission designed the CSE                  mortgage-backed securities. Bear Stearns also
                                 program to be broadly consistent with the             had less capital and was less diversiﬁed than
                                 Board of Governors of the Federal Reserve             several other CSE ﬁrms.
                                 System’s (Federal Reserve) oversight of bank
                                 holding companies. However, the CSE                        In June 2007, two hedge funds that Bear
                                 program “reﬂects the reliance of securities           Stearns managed collapsed because of
                                 ﬁrms on mark-to-market accounting as a                subprime mortgage losses. Nearly a year later,
                                 critical risk and governance control. Second,         during the week of March 10, 2008, rumors
                                 the design of the CSE regime reﬂects the              began to spread about liquidity problems at
                                 critical importance of maintaining adequate           Bear Stearns. Due to Bear Stearns’ lenders
                                 liquidity in all market environments for              not rolling over secured ﬁnancing, Bear
                                 holding companies that do not have access to          Stearns began to face severe liquidity
                                 an external liquidity provider.”                      problems. As a result, on March 14, 2008,
                                                                                       JP Morgan Chase & Co. (JP Morgan)
                                     At the time of the OIG’s ﬁeldwork, the            provided Bear Stearns with emergency
                                 Commission exercised direct oversight of ﬁve          funding. According to Congressional
                                 CSE ﬁrms: (1) Bear Stearns; (2) Goldman               testimony, after the markets closed on March
                                 Sachs; (3) Morgan Stanley; (4) Merrill Lynch;         14, 2008, it became apparent that the Federal
                                 and (5) Lehman Brothers. As discussed below,          Reserve Bank of New York’s (FRBNY)
                                 in March 2008, Bear Stearns failed and was            funding could not stop Bear Stearns’
                                 sold with Federal ﬁnancial backing. On                downward spiral. On March 16, 2008, it was
                                 September 15, 2008, Lehman Brothers                   announced that Bear Stearns would be sold to
                                 announced that it would ﬁle for bankruptcy            JP Morgan, with ﬁnancing support coming
                                 protection, and the Bank of America                   from the FRBNY. In May 2008, the Bear
                                 announced its agreement to acquire Merrill            Stearns’ sale was completed.
                                 Lynch. Both Lehman Brothers and Merrill
                                 Lynch had experienced serious ﬁnancial                     In testimony given before the Senate
                                 difﬁculties. On September 21, 2008, the               Committee on Banking, Housing, and Urban
                                 Federal Reserve approved (pending a statutory         Affairs on April 3, 2008, SEC Chairman
                                 ﬁve-day antitrust waiting period) applications        Christopher Cox stated that Bear Stearns’
                                 from Goldman Sachs and Morgan Stanley to              collapse was due to a liquidity crisis caused by
                                 become bank holding companies with the                a lack of conﬁdence. Chairman Cox
                                 Federal Reserve as their new principal                described Bear Stearns’ collapse as a “run on
                                 regulator.                                            the bank,” which occurred exceptionally fast,
                                                                                       in an already distressed market environment,
                                 Bear Stearns’ Collapse                                i.e., the credit crisis.

                                     Bear Stearns was a holding company that               Commission ofﬁcials further stated that
                                 had two registered broker-dealers. Its main           neither the CSE program nor any regulatory
                                 activities included investment banking,               model (i.e., standards developed by the Basel
                                 securities and derivatives sales and trading,         Committee on Banking Supervision (Basel II))
                                 clearance, brokerage and asset management.            used by commercial and investment banks
                                 Bear Stearns was highly leveraged and had a           considered the possibility that secured
                                 large exposure (i.e., concentration of assets) in     ﬁnancing, even when backed by high-quality


                                                                                 21

SEMIANNUAL REPORT TO CONGRESS
   collateral, could become completely                    ﬁnance-related maters. He served as a staff
                                 unavailable. Instead, the CSE program only             member of the Presidential Task Force on
                                 considered that a deterioration of secured             Market Mechanisms (Brady Commission)
                                 ﬁnancing could occur (e.g., that ﬁnancing              after the stock market crash of 1987 and has
                                 terms could become less favorable), and that           worked as a consultant on ﬁnancial topics for
                                 unsecured funding could be unavailable for at          several government agencies.
                                 least one year.
                                                                                        Audit Findings
                                 Audit Objectives and Work
                                                                                           The audit identiﬁed signiﬁcant
                                      The Congressional request the OIG                 deﬁciencies in the CSE program that
                                 received on April 2, 2008, noted that TM was           warranted improvement. The CSE program’s
                                 responsible for regulating the largest broker-         mission provides in pertinent part:
                                 dealers and their associated holding
                                 companies and requested a review of TM’s                       The regime is intended to allow
                                 oversight of the ﬁve CSE ﬁrms it directly                 the Commission to monitor for, and
                                 oversaw, with a special emphasis on Bear                  act quickly in response to, ﬁnancial or
                                 Stearns. The request further called for the               operational weakness in a CSE
                                 OIG to analyze how the CSE program was                    holding company or its unregulated
                                 run, examine the adequacy of the                          afﬁliates that might place regulated
                                 Commission’s monitoring of Bear Stearns,                  entities, including US and foreign-
                                 and make recommendations to improve the                   registered banks and broker-dealers, or
                                 Commission’s CSE program. The audit’s                     the broader ﬁnancial system at risk.
                                 objectives were to evaluate the CSE program,              [Emphasis added.]
                                 emphasizing the Commission’s oversight of
                                 Bear Stearns, and determine whether                         The audit found that the CSE program
                                 improvements were needed in the                        failed to carry out its mission in its oversight of
                                 Commission’s monitoring of CSE ﬁrms and                Bear Stearns because, under the
                                 its administration of the CSE program.                 Commission’s and the CSE program’s watch,
                                                                                        Bear Stearns suffered signiﬁcant ﬁnancial
                                      The audit was not intended to be a                weaknesses and the FRBNY needed to
                                 complete assessment of the multitude of                intervene during the week of March 10, 2008,
                                 events that led to Bear Stearns’ collapse and,         to prevent signiﬁcant harm to the broader
                                 accordingly, did not purport to demonstrate            ﬁnancial system.
                                 any speciﬁc or direct connection between the
                                 failure of the CSE program’s oversight of                  Overall, the audit found that there are
                                 Bear Stearns and Bear Stearns’ collapse.               signiﬁcant questions about the adequacy of a
                                                                                        number of CSE program requirements, as
                                     Given the complexity of the subject                Bear Stearns was compliant with several of
                                 matter, the OIG retained an expert, Albert S.          these requirements, but nonetheless collapsed.
                                 (Pete) Kyle, to provide assistance with the            In addition, the audit found that TM became
                                 audit. Professor Kyle, a faculty member at the         aware of numerous potential red ﬂags prior to
                                 University of Maryland, is a renowned expert           Bear Stearns’ collapse regarding its
                                 on many aspects of capital markets and has             concentration of mortgage securities, high
                                 conducted signiﬁcant research on numerous              leverage, shortcomings of risk management of

                                                                                  22

SEMIANNUAL REPORT TO CONGRESS
   mortgage-backed securities and the lack of                  $250,000 or two percent of aggregate
                                 compliance with the spirit of certain Basel II              debit items computed in accordance
                                 standards, but did not take actions to limit                with the formula for determination of
                                 these risk factors.                                         reserve requirements for broker-
                                                                                             dealers. However, TM did not re
                                                                                             quire CSE ﬁrms to have a leverage
                                     In addition, the audit found that
                                                                                             ratio limit. Furthermore, although
                                 procedures and processes were not strictly
                                                                                             TM was aware that Bear Stearns’ lev
                                 adhered to as, for example, the Commission                  erage was high, TM made no efforts
                                 issued an order that approved Bear Stearns to               to require Bear Stearns to reduce its
                                 become a CSE prior to the completion of the                 leverage, despite some authoritative
                                 inspection process. Furthermore, the Division               sources describing a link between lev
                                 of Corporation Finance (Corporation                         erage and liquidity risk.
                                 Finance) did not conduct Bear Stearns’ latest
                                 10-K ﬁling review in a timely manner.                  •"   TM was aware that the risk manage
                                                                                             ment of mortgages at Bear Stearns
                                                                                             had numerous shortcomings, includ
                                    The audit also identiﬁed numerous
                                                                                             ing the lack of expertise by risk man
                                 speciﬁc concerns with the Commission’s                      agers in mortgage-backed securities at
                                 oversight of the CSE program. Some of the                   various times, the lack of timely for
                                 concerns the audit identiﬁed included:                      mal review of mortgage models, per
                                                                                             sistent understafﬁng, a proximity of
                                 •"   Bear Stearns was compliant with the                    risk managers to traders suggesting a
                                      CSE program’s capital and liquidity                    lack of independence, turnover of key
                                      requirements; however, its collapse                    personnel during times of crisis, and
                                      raised questions about the adequacy                    the inability or unwillingness to up
                                      of these requirements.                                 date models to reﬂect changing cir
                                                                                             cumstances. Notwithstanding this
                                 •"   Although TM was aware, prior to                        knowledge, TM missed opportunities
                                      Bear Stearns becoming a CSE ﬁrm,                       to push Bear Stearns aggressively to
                                      that Bear Stearns’ concentration of                    address these identiﬁed concerns.
                                      mortgage securities had been increas
                                      ing for several years and was beyond              •"   There was no documentation of dis
                                      its internal limits, and that a portion                cussions between TM and Bear
                                      of its mortgage securities (e.g., adjust               Stearns of scenarios involving a melt
                                      able rate mortgages) represented a                     down of mortgage market liquidity,
                                      signiﬁcant concentration of market                     accompanied by a fundamental dete
                                      risk, TM did not make any efforts to                   rioration of the mortgages them
                                      limit Bear Stearns’ mortgage securi                    selves. TM appeared to identify the
                                      ties concentration.                                    types of risks associated with these
                                                                                             mortgages that evolved into the sub-
                                 •"   Prior to the adoption of the rule                      prime mortgage crisis, yet did not re
                                      amendments that created the CSE                        quire Bear Stearns to reduce its expo
                                      program, the broker-dealers afﬁliated                  sure to subprime loans.
                                      with the CSE ﬁrms were required ei
                                      ther to maintain a debt to-net capital            •"   Bear Stearns was not compliant with
                                      ratio of less than 15 to 1 after their                 the spirit of certain Basel II standards,
                                      ﬁrst year of operation, or to have net                 and we did not ﬁnd sufﬁcient
                                      capital not less than the greater of

                                                                                  23

SEMIANNUAL REPORT TO CONGRESS
        evidence that TM required Bear                       Corporation Finance deprived inves
                                      Stearns to comply with the same.                     tors of material information that they
                                                                                           could have used to make well-
                                 •"   TM took no actions to assess the tol                 informed investment decisions (i.e.,
                                      erance for risk on the part of Bear                  whether to buy or sell Bear Stearns’
                                      Stearns’ Board of Directors and sen                  securities). In addition, the informa
                                      ior ofﬁcials (e.g., the Chief Executive              tion (e.g., Bear Stearns’ exposure to
                                      Ofﬁcer), although we found that this                 subprime mortgages) could have been
                                      is a prudent and necessary oversight                 potentially beneﬁcial to dispel the
                                      procedure.                                           rumors that led to Bear Stearns’ col
                                                                                           lapse.
                                 •"   TM authorized (without an appropri
                                      ate delegation of authority) the CSE            Recommendations
                                      ﬁrms’ internal audit staff to perform
                                      critical audit work involving the ﬁrms’             The audit identiﬁed 26 recommendations
                                      risk management systems, instead of             that, if implemented, would signiﬁcantly
                                      the ﬁrms’ external auditors perform             improve the Commission's oversight of the
                                      ing this work as required by the rule           CSE ﬁrms.
                                      that created the CSE program.
                                                                                           The recommendations included:
                                 •"   In June 2007, two of Bear Stearns’
                                      managed hedge funds collapsed.
                                      Subsequent to this collapse, signiﬁcant         •"   A reassessment of guidelines and
                                      questions were raised about the lack                 rules regarding the CSE ﬁrms’ capital
                                      of involvement by some of Bear                       and liquidity levels;
                                      Stearns’ senior managers in handling
                                      the crisis. However, TM did not reas            •"   Taking appropriate measures to en
                                      sess the communication strategy                      sure that TM adequately incorporates
                                      component of Bear Stearns’ Contin                    a ﬁrm’s concentration of securities
                                      gency Funding Plan after the collapse                into the CSE program’s assessment of
                                      of the hedge funds, and very signiﬁ                  a ﬁrm’s risk management systems and
                                      cant questions were once again raised                more aggressively prompts CSE ﬁrms
                                      about the handling of the crisis by                  to take appropriate actions to mitigate
                                      some of Bear Stearns’ managers dur                   risks;
                                      ing the week of March 10, 2008.
                                                                                      •"   A reassessment of the CSE program’s
                                 •"   The Commission issued four of the                    policy regarding leverage ratio limits;
                                      ﬁve orders approving ﬁrms, including
                                      Bear Stearns, to use the alternative            •"   Ensuring that: (1) the CSE ﬁrms have
                                      capital method, and thus become                      speciﬁc criteria for reviewing and ap
                                      CSEs, before the inspection process of               proving models used for pricing and
                                      these ﬁrms was completed.                            risk management, (2) the review and
                                                                                           approval process conducted by the
                                 •"   Corporation Finance did not conduct                  CSE ﬁrms is performed in an inde
                                      Bear Stearns’ most recent 10-K ﬁling                 pendent manner by the ﬁrms’ risk
                                      review in a timely manner. The effect                management staff, (3) each CSE
                                      of this untimely review was that                     ﬁrm’s model review and approval
                                                                                           process takes place in a thorough and



                                                                                24

SEMIANNUAL REPORT TO CONGRESS
        timely manner, and (4) limits are im            •"   Requiring that TM comply with the
                                      posed on risk taking by ﬁrms in areas                existing rule that requires external
                                      where TM determines that risk man                    auditors to review the CSE ﬁrms’ risk
                                      agement is not adequate;                             management control systems or seek
                                                                                           Commission approval in accordance
                                 •"   Being more skeptical of CSE ﬁrms’                    with the Administrative Procedures
                                      risk models and working with regu                    Act for this deviation from the current
                                      lated ﬁrms to help them develop addi                 rule’s requirement;
                                      tional stress scenarios that have not
                                      already been contemplated as part of            •"   Ensuring that reviews of a ﬁrm’s Con
                                      the prudential regulation process;                   tingency Funding Plan include an as
                                                                                           sessment of a CSE ﬁrm’s internal and
                                 •"   Greater involvement on the part of                   external communication strategies;
                                      TM in formulating action plans for a
                                      variety of stress or disaster scenarios,        •"   Developing a formal automated proc
                                      even if the plans are informal;                      ess to track material issues identiﬁed
                                                                                           by the monitoring staff to ensure they
                                 •"   Taking steps to ensure that mark dis                 are adequately resolved;
                                      putes (i.e., disagreements between the
                                      parties to derivatives transactions over        •"   Ensuring that the staff complete all
                                      the value of the derivatives) do not                 phases of a ﬁrm’s inspection process
                                      provide an occasion for CSE ﬁrms to                  before recommending that the
                                      inﬂate the combined capital of two                   Commission allow any additional
                                      ﬁrms by using inconsistent marks;                    CSE ﬁrms the authority to use the
                                                                                           alternative capital method;
                                 •"   Encouraging the CSE ﬁrms to present
                                      Value at Risk or VaR (i.e., the maxi            •"   Improving collaboration efforts
                                      mum loss likely to be incurred with a                among TM, Corporation Finance, the
                                      given probability over a speciﬁed pe                 Ofﬁce of Compliance Inspections and
                                      riod of time) and other risk manage                  Examination (OCIE), and the Ofﬁce
                                      ment data in a useful manner, which is               of Risk Assessment (ORA);
                                      consistent with how the CSE ﬁrms use
                                      the information internally and allows           •"   The development by Corporation
                                      risk factors to be applied consistently              Finance of internal guidelines for re
                                      to individual trading desks;                         viewing ﬁlings timely and tracking
                                                                                           and monitoring compliance with its
                                 •"   Ensuring (in accordance with Basel II)               internal guidelines; and
                                      that the CSE ﬁrms take appropriate
                                      capital deductions for illiquid assets          •"   The creation of a Task Force led by
                                      and stressed repurchase agreements,                  ORA with staff from TM, the Divi
                                      especially ones where illiquid securi                sion of Investment Management, and
                                      ties are posted as collateral;                       OCIE to perform an analysis of large
                                                                                           ﬁrms that hold signiﬁcant amounts of
                                 •"   Greater discussion of risk tolerance                 customer funds and have unregulated
                                      with the CSE ﬁrms’ Boards of Direc                   entities, to determine the costs and
                                      tors and senior management to un                     beneﬁts of supervising these ﬁrms on
                                      derstand better whether the actions of               a consolidated basis.
                                      CSE ﬁrms’ staff are consistent with
                                      the desires of the Boards of Directors
                                      and senior management;
                                                                                 25
SEMIANNUAL REPORT TO CONGRESS
   Management’s Response                                   ﬁeldwork between April 2008 and August
                                                                                         2008, in accordance with generally accepted
                                     Overall, in response to a draft of the audit        government auditing standards.
                                 report, Commission management ofﬁcials
                                 agreed with 21 of the report’s 26                       Background
                                 recommendations, some of which were
                                 addressed to more than one ofﬁce.                           In 1990, Drexel Burnham (Drexel), the
                                 Speciﬁcally, TM concurred with 20 of 23                 holding company of a formerly prominent
                                 recommendations addressed to that ofﬁce,                broker-dealer, experienced ﬁnancial
                                 OCIE concurred with the three                           difﬁculties. In a period of about three weeks,
                                 recommendations addressed to that ofﬁce, and            and without the knowledge of the
                                 Corporation Finance concurred with one of               Commission, approximately $220 million of
                                 the three recommendations addressed to that             capital was transferred from the broker-dealer
                                 ofﬁce.                                                  to the holding company, in the form of short-
                                                                                         term loans. By the time the Commission
                                     Chairman Cox also submitted a separate              learned about the transaction, Drexel or its
                                 response to the audit report. Chairman Cox              associated entities had amassed a signiﬁcant
                                 lauded the report, stating that it “provides an         amount of short-term liabilities that were due
                                 invaluable and fresh perspective for the                to mature within a month and could not meet
                                 agency to carefully review and consider.”               their obligations. As a result, Drexel’s broker-
                                                                                         dealer ﬁled for bankruptcy and was
                                     On September 26, 2008, a day after OIG              subsequently liquidated.
                                 issued its ﬁnal two reports on the SEC’s
                                 Oversight of Bear Stearns’ and Related                       Section 17(h) of the Securities and
                                 Entities, Chairman Cox announced that TM                Exchange Act of 1934 was amended in 1990,
                                 would end the CSE program. In Chairman                  and temporary rules 17h-1T and 17h-2T
                                 Cox’s announcement, he noted that the OIG               became effective in September 1992,
                                 had released the CSE audit report and                   following and in response to Drexel’s collapse.
                                 indicated that the report validated and echoed          These rules require broker-dealers that are
                                 the concerns he had expressed to Congress               part of a holding company structure with at
                                 about the CSE program.                                  least $20 million in capital, to ﬁle with the
                                                                                         Commission disaggregated, nonpublic
                                 SEC’s Oversight of Bear Stearns and                     information on the broker-dealer, the holding
                                 Related Entities: Broker-Dealer Risk                    company, and other entities within the holding
                                 Assessment Program                                      company system, and to maintain and
                                 (Report No. 446-B)
                                                                                         preserve records and other information
                                    The OIG initiated this audit in                      concerning entities related to the broker-
                                 conjunction with the audit of the                       dealer. Currently, 146 broker-dealers ﬁle a
                                 Commission’s CSE Program, Report No.                    Risk Assessment Report for Brokers and
                                 446-A (discussed above), as a result of a               Dealers (Form 17-H or 17(h) documents) with
                                 Congressional request received on April 2,              the Commission under the Broker-Dealer Risk
                                 2008, from Charles E. Grassley, the Ranking             Assessment Program.
                                 Member of the United States Senate
                                 Committee on Finance. We conducted our


                                                                                   26

SEMIANNUAL REPORT TO CONGRESS
       The purpose of the Broker-Dealer Risk             only 20 of the 146 ﬁrms ﬁling 17(h)
                                 Assessment Program is for staff in TM to              documents were ﬁling electronically.
                                 assess the risk to registered broker-dealers that
                                 may stem from afﬁliated entities, including           Audit Findings
                                 holding companies, and to keep apprised of
                                 signiﬁcant events that could adversely affect              The OIG found that TM was not
                                 broker-dealers, customers and the ﬁnancial            fulﬁlling its obligations in accordance with the
                                 markets.                                              underlying purpose of the Broker-Dealer Risk
                                                                                       Assessment Program in several respects. First,
                                 Objectives                                            TM had not updated and ﬁnalized the rules
                                                                                       governing the Program, which would ensure
                                     The audit’s objectives were to follow up on       that broker-dealers ﬁle pertinent information
                                 the current status of recommendations that            with the Commission in a timely manner.
                                 the OIG made in a prior audit of this                 Second, TM had not enforced the temporary
                                 program and to examine the Broker-Dealer              rules’ document retention and ﬁling
                                 Risk Assessment process to determine whether          requirements that are incumbent upon broker-
                                 improvements were needed.                             dealers. As a result, nearly one-third of the
                                                                                       ﬁrms failed to ﬁle 17(h) documents as required
                                 Prior OIG Audit Report                                by the rules. Third, even after the collapse of
                                                                                       Bear Stearns in March 2008, two related
                                     The prior 2002 OIG report on the Broker-          broker-dealers still existed, one of which
                                 Dealer Risk Assessment Program contained              carried a signiﬁcant number of customer
                                 14 recommendations designed to improve the            accounts. However, the audit found that TM
                                 program. TM had addressed several of the              had not determined whether these broker-
                                 report’s recommendations. However, one of             dealers were obligated to ﬁle Form 17-H.
                                 the most signiﬁcant recommendations in the            Fourth, although TM tracked the ﬁling status
                                 prior OIG report stated that the Commission           of 146 broker-dealers that ﬁled quarterly and
                                 should update and ﬁnalize temporary rules             annual reports with the Commission, TM
                                 17h-1T and 17h-2T. As of the date of the              only conducted an in-depth review of the
                                 current audit, six years later, the temporary         ﬁlings for six of the 146 ﬁrms that they
                                 rules still had not been updated. The result          determined were the most signiﬁcant. TM
                                 was that several aspects of these rules were not      generally did not review the ﬁlings for the
                                 effective, mainly because they did not require        remaining 140 ﬁrms, but the ﬁrms were still
                                 the ﬁrms to ﬁle certain pertinent information         required to ﬁle with TM under the Broker-
                                 with the Commission.                                  Dealer Risk Assessment Program. Fifth, TM
                                                                                       did not timely process and review the ﬁlings
                                     The prior OIG report also recommended             from the six ﬁrms on which the staff focused
                                 that TM explore the feasibility of having ﬁrms        their review. Sixth and ﬁnally, TM did not
                                 electronically ﬁle 17(h) documents. In 2005,          maintain documentation to identify all the
                                 TM, in consultation with the Ofﬁce of                 broker-dealers that were exempt from the
                                 Information Technology, launched the Broker-          ﬁling process.
                                 Dealer Risk Assessment system, which enables
                                 ﬁrms to ﬁle Form 17-H electronically. As of
                                 September 2008, however, three years later,



                                                                                 27

SEMIANNUAL REPORT TO CONGRESS
       Overall, the audit found that TM’s failure     Internal Control Review of the
                                 to carry out the purpose and goals of the          Government Purchase Card Program
                                 Broker-Dealer Risk Assessment Program              (Report No. 440)
                                 hindered the Commission’s ability to foresee           The OIG contracted the services of
                                 or respond to weaknesses in the ﬁnancial           Kearney & Company (Kearney) to conduct an
                                 markets. Moreover, this failure may have had       audit of the Commission’s Ofﬁce of
                                 an impact on TM’s ability to protect ﬁrms’         Administrative Services’ (OAS) Government
                                 customers from ﬁnancial or other problems          Purchase Card (GPC) program as a follow-up
                                 experienced by broker-dealers.                     to a previous OIG report, Purchase Cards,
                                                                                    issued on November 25, 2002. Kearney
                                 Recommendations                                    conducted the audit between October 2007
                                                                                    and September 2008, on behalf of the OIG,
                                      The report included 10 recommendations,
                                                                                    in accordance with generally accepted
                                 including the reassertion of an OIG
                                                                                    government auditing standards.
                                 recommendation made in 2002, that TM
                                 should update and ﬁnalize temporary rules
                                 17h-1T and 17h-2T, which govern the Broker-            The SEC has 96 employees located at its
                                 Dealer Risk Assessment Program and enforce         Headquarters and Regional Ofﬁces who are
                                 broker-dealer compliance with these rules. In      approved GPC holders and make credit card
                                 addition, the report recommended that TM           purchases on behalf of the agency. The GPC
                                 determine whether the broker-dealers               holders primarily make small purchases for
                                 associated with Bear Stearns were required to      goods and services up to $3,000. Cardholders
                                 ﬁle Form 17-H with the Commission, in light        are responsible for the GPCs and are directed
                                 of the signiﬁcant amount of customer               to use them as prescribed in SEC Regulation
                                 accounts carried by these broker-dealers. We       (SECR) 10-6, Smartpay Purchasing Card
                                 also recommended that TM process all 17(h)         Program. All cardholders receive a Letter of
                                 ﬁlings in a timely manner, ensure that ﬁrms        Delegation of Authority sanctioning their
                                 required to ﬁle Form 17-H actually ﬁle the         GPC authority and spending limits, as
                                 form, and maintain documentation to identify       approved by the Associate Executive Director
                                 all of the broker-dealers that are exempt from     of OAS.
                                 ﬁling Form 17-H. We further recommended
                                 that TM aggressively encourage ﬁrms to ﬁle             OAS appoints an Agency Program
                                 electronically with the Commission, and            Coordinator (APC) to oversee the GPC
                                 resolve the technical problems we identiﬁed        program and an approving ofﬁcial to ensure
                                 with the Broker-Dealer Risk Assessment ﬁling       the GPC program is administered in
                                 system.                                            compliance with governing GPC regulations.
                                                                                    The APC serves as the liaison to the vendor
                                                                                    for the program, conducts high-level reviews
                                     TM concurred with eight of the report’s
                                                                                    of purchases and follows up on disputed
                                 nine recommendations directed to that ofﬁce,
                                                                                    charges and billing errors. Approving ofﬁcials
                                 and the Ofﬁce of Information Technology
                                                                                    complete a detailed review of transactions
                                 concurred with the one recommendation
                                                                                    prior to approving the cardholders’ statements
                                 directed to that ofﬁce.
                                                                                    for payment.




                                                                              28

SEMIANNUAL REPORT TO CONGRESS
       The overall objective of the audit was to       training and monitoring of purchasing
                                 assess the design and operation of the GPC          practices. Additionally, the audit identiﬁed
                                 program’s internal controls. Effective internal     certain instances where the implementation of
                                 controls over the GPC program are necessary         additional controls was needed. For example,
                                 to ensure that fraudulent, improper and             the OAS should establish a process to ensure
                                 abusive purchases do not occur and, if such         completion of GPC training and receipt of a
                                 purchases do occur, the transactions are            signed Letter of Delegation before a GPC is
                                 promptly detected and appropriate corrective        issued.
                                 action is taken.
                                                                                         Although no occurrences of fraudulent
                                     The audit report found that internal            purchases were found, the audit concluded
                                 controls over the GPC program were                  that the current internal control environment
                                 generally adequately designed, but the              created an increased risk of waste, fraud, and
                                 controls were not always operating effectively.     abuse in the GPC program.
                                 Speciﬁcally, the audit found that the
                                 Commission was not in compliance with                    The OIG issued a ﬁnal audit report on
                                 current documented policies and procedures,         September 18, 2008, providing the results of
                                 yet had not revised these policies and              the contractor’s testing and analysis. The
                                 procedures. As a result, SEC divisions and          report contained 17 recommendations that
                                 ofﬁces had adopted unapproved and unofﬁcial         are necessary to improve the Commission’s
                                 practices.                                          internal controls over the GPC program. The
                                                                                     recommendations included: (a) revising SECR
                                      In addition, the audit found that              10-6, Smartpay Purchasing Card Program, to
                                 cardholders did always not obtain required          reﬂect relevant procedures that program
                                 approvals or retain required documentation          ofﬁcials and cardholders should follow;
                                 for GPC transactions. The contractor’s              (b) requiring cardholders to use a purchase
                                 testing of GPC transactions identiﬁed missing       card log each month to verify purchases;
                                 transaction approvals, lack of required             (c) periodically issuing a reminder to
                                 competitive bids, and missing supporting            cardholders of various critical requirements;
                                 documentation. Approximately 20 percent of          (d) issuing guidance to cardholders describing
                                 the tested transactions did not provide support     what constitutes a split purchase, warning of
                                 for the receipt of goods or services.               the prohibition against splitting purchases and
                                                                                     specifying the penalty for making a split
                                     Further, the contractor identiﬁed two           purchase; (e) requiring the APC to consult
                                 expenditures that were split to circumvent the      with the Ofﬁce of Financial Management
                                 approval threshold. The audit also identiﬁed        (OFM) to verify that open obligations at the
                                 deﬁciencies in the training and certiﬁcation of     end of a ﬁscal year are rolled into the next
                                 users prior to the issuance of GPCs, as well as     ﬁscal year; (f) requiring the APC and OFM to
                                 inadequate control over spending limits and         work together to identify underlying root
                                 untimely cancellation of GPCs. Combined,            causes of late payments; (g) developing a
                                 these deﬁciencies increased the risk of waste       formal GPC training course and setting up a
                                 and misappropriation through inadequate             plan to roll out the training to all cardholders




                                                                               29

SEMIANNUAL REPORT TO CONGRESS
   in a timely manner; and (h) establishing             (actual expenses) in excess of the prescribed
                                 procedures to ensure completion of GPC               per diem rate for a speciﬁed location be
                                 training and receipt of a signed Letter of           approved in advance of travel and under
                                 Delegation before the GPC is issued to the           speciﬁc circumstances.
                                 cardholder.
                                                                                          Under Commission policy, OFM permits
                                     Management concurred with all 17                 ﬁrst and business class travel only due to a
                                 recommendations and already began to                 qualifying medical necessity or in other
                                 implement many of the OIG’s                          narrow circumstances expressly provided for
                                 recommendations.                                     by the FTR. OFM does not approve travel
                                                                                      upgrades to business class based on the
                                 Audit of Premium Travel                              necessity to review conﬁdential documents or
                                 (Report No. 447)                                     to perform agency work.

                                     The OIG conducted an audit of OFM’s
                                                                                          The Commission spent approximately
                                 controls over premium travel between May
                                                                                      $5.8 million on travel in Fiscal Year 2007 (FY
                                 2008 and August 2008, in accordance with
                                                                                      07) and $4.2 million in Fiscal Year 2008 (FY
                                 generally accepted government auditing
                                                                                      08), as of April 30, 2008. OFM approved 42
                                 standards. The objectives of the audit were to
                                                                                      and 14 business class air upgrades in FY 07
                                 determine whether OFM had established
                                                                                      and FY 08, respectively. OFM reported no
                                 effective management controls over premium
                                                                                      ﬁrst class travel for these periods. OFM also
                                 travel and to determine whether Commission
                                                                                      approved approximately 1,095 and 564
                                 employees complied with the Federal Travel
                                                                                      lodging upgrades for FY 07 and FY 08,
                                 Regulation (FTR) and other applicable laws,
                                                                                      respectively.
                                 rules, regulations, and policies regarding the
                                 approval, justiﬁcation, and documentation of
                                                                                          The OIG issued its ﬁnal audit report on
                                 premium travel.
                                                                                      September 29, 2008. The audit found that
                                                                                      although the Commission had established
                                     A primary purpose of the FTR is to
                                                                                      some management controls over travel
                                 interpret statutory and Executive Branch
                                                                                      upgrades for airfare and actual expenses,
                                 policy requirements to ensure that ofﬁcial
                                                                                      signiﬁcant improvements were needed to
                                 travel is conducted responsibly while                strengthen travel guidance and to track and
                                 minimizing administrative costs. Consistent
                                                                                      review premium travel data.
                                 with this purpose, the FTR provides that, with
                                 limited exceptions, travelers must use coach
                                                                                           Speciﬁcally, the audit report found that
                                 class accommodations for both domestic and
                                                                                      OFM’s current guidance pertaining to travel
                                 international travel. Premium class air travel
                                                                                      upgrades was outdated and required
                                 (ﬁrst or business class) may be used only when
                                                                                      strengthening. As a result, there is increased
                                 the traveler’s agency speciﬁcally authorizes the
                                                                                      risk that Commission employees may not
                                 use of such accommodations and only under
                                                                                      follow proper procedures for authorizing,
                                 speciﬁc circumstances. Likewise, the FTR
                                                                                      justifying and documenting premium travel.
                                 requires that lodging, meals and incidentals
                                                                                      In addition, the report found that OFM




                                                                                30

SEMIANNUAL REPORT TO CONGRESS
   should update its travel website to ensure that      procedures to obtain summary data on travel
                                 all pertinent memoranda and policy updates           upgrades for purposes of internal monitoring,
                                 pertaining to premium travel are available           (4) prohibit subordinates from approving their
                                 electronically to Commission employees. This         supervisor’s travel and require Ofﬁce Heads,
                                 will help ensure that employees, especially new      Division Directors, and other senior
                                 hires, can easily access applicable travel           management ofﬁcials to obtain travel-related
                                 requirements, including those for premium            approval from a peer or higher level ofﬁcial,
                                 travel, from one central location.                   (5) prohibit travel from a telework location if it
                                                                                      results in increased cost to the Commission,
                                     The audit also found that OFM does not           and (6) enforce the Ofﬁce of Management
                                 routinely track summary data related to              and Budget’s requirement to restrict premium
                                 business class air travel and lodging, meals and     class travel for temporary duty when the
                                 incidental upgrades. Without knowing how             employee is not obligated to report to duty the
                                 much is spent on premium class travel, the           following day, and include this requirement in
                                 Commission cannot effectively manage its             its travel policies and procedures.
                                 travel budget to prudently safeguard taxpayer
                                 dollars.                                                Commission management generally
                                                                                      concurred with all six OIG recommendations
                                     Additionally, the audit found that OFM’s         and indicated that it would take action to
                                 existing management controls were generally          implement these recommendations.
                                 functioning as intended and, for the most part,
                                 travel upgrades were processed in accordance         Survey of Enforcement’s Hub System
                                 with the FTR and Commission policy. Some             (Report No. 449)
                                 travel practices, however, resulted in increased
                                                                                          The OIG conducted a survey of the
                                 costs to the Commission and gave the
                                                                                      Division of Enforcement’s (Enforcement) Hub
                                 appearance of impropriety. These practices
                                 included travel upgrade requests and travel          system during the period May 2008 through
                                                                                      August 2008, in accordance with the
                                 vouchers that were self-approved, or approved
                                                                                      standards for non-audit services.
                                 by a subordinate. In addition, the audit
                                 questioned $5,604 in additional costs the
                                                                                          The Hub system is Enforcement’s newly-
                                 Commission incurred where, in three
                                 instances, travelers departed from a location        implemented case management tracking
                                                                                      system, through which staff plan, track and
                                 other than their ofﬁcial duty station, although
                                                                                      close investigations. This system was launched
                                 their vouchers and supporting documentation
                                                                                      in October 2007, after an August 2007 report
                                 did not show why the change in routing of
                                                                                      issued by the Government Accountability
                                 their travel was “ofﬁcially necessary,” as was
                                 required.                                            Ofﬁce (GAO) highlighted major issues with
                                                                                      Enforcement’s case management and tracking
                                                                                      system and made several recommendations
                                     To improve and strengthen internal
                                                                                      for improvement.
                                 controls over premium travel, the audit report
                                 made six recommendations. The report
                                 recommended that the Commission (1)                     The OIG survey followed up on the GAO
                                                                                      report’s recommendation pertaining to the
                                 enhance existing policies and procedures
                                                                                      Hub system regarding implementing written
                                 pertaining to travel upgrades, (2) update its
                                                                                      procedures that reinforce the importance of
                                 current travel website, (3) implement

                                                                                31

SEMIANNUAL REPORT TO CONGRESS
   attorneys entering investigative data into the        found that just 41 percent of respondents used
                                 Hub, providing guidance on how to do so in a          the Hub system to obtain information, and 25
                                 timely and consistent way, and establishing a         percent of users did so only occasionally.
                                 control process by which other division
                                 ofﬁcials can independently assess the reliability         The survey further found that 51 percent
                                 of investigative data maintained in the system.       of respondents stated that they either used a
                                                                                       Hub system user manual or were aware such a
                                     The OIG sent a web-based questionnaire            manual was available. However, when asked
                                 to 1,261 authorized Enforcement users to              whether they found the Hub user manual to
                                 obtain feedback regarding Enforcement’s               be helpful, only 15 percent of respondents
                                 written Hub policies, the use of the Hub by           agreed or strongly agreed the manual was
                                 Enforcement personnel, the adequacy of user           useful, and 17 percent disagreed or strongly
                                 training and the system’s capabilities.               disagreed that it was useful.

                                     The survey received a 46 percent (577 of              Finally, the survey found that although
                                 1,261) response rate, as well as a signiﬁcant         Enforcement developed a user manual, held
                                 number of written comments. Sixty-two                 training presentation sessions on the use of the
                                 percent of the respondents to the survey were         Hub, and issued a Division newsletter to
                                 attorneys, branch chiefs and accountants,             communicate the Hub’s progress and
                                 which is signiﬁcant given that Enforcement            expectations to the users, Enforcement had
                                 management requires attorneys, rather than            not developed or issued formal written
                                 support staff, to populate case data.                 guidance, such as standard operating policies
                                                                                       and procedures, regarding the Hub, as was
                                     Overall, the survey results revealed that         recommended in the GAO report. We
                                 most Hub users were satisﬁed with the system          determined that formal written policies and
                                 and felt its features were an improvement over        procedures may help ensure that Hub system
                                 the previous system in place, the Case Activity       users better understand how to utilize the
                                 Tracking System or CATS. However, even                system properly to achieve its goals.
                                 though a large number of respondents
                                 indicated that they were pleased with the Hub              The OIG issued its ﬁnal report on
                                 system, the survey determined that before the         September 29, 2008, and provided the results
                                 Hub can become a fully robust management              of its survey, as well as ﬁve recommended
                                 tool within Enforcement, some improvements            actions. The report recommended that
                                 are needed.                                           Enforcement (1) develop written policies for
                                                                                       entering information into the Hub system,
                                     The survey responses revealed that while          (2) perform an assessment of the authorized
                                 approximately 62 percent of the respondents           users to ensure that the proper personnel are
                                 personally used the Hub system, only 47               utilizing the system fully and appropriately,
                                 percent indicated that they actually entered          (3) incorporate many of the comments to the
                                 data into the system, and 23 percent of these         Hub survey relating to the revising of the
                                 respondents indicated that they used it               reports feature of the system to allow for
                                 occasionally. Similarly, the survey results           customized reports that may be exportable to




                                                                                 32

SEMIANNUAL REPORT TO CONGRESS
   spreadsheets, (4) ensure that the Hub system         evaluate agency-speciﬁc and government-wide
                                 users become aware of the features and               privacy performance, development of its
                                 advantages of the system, and (5) review the         annual security report to Congress, assist in
                                 survey comments to obtain possible areas for         improving and maintaining adequate agency
                                 enhancement of the Hub system.                       privacy performance, and inform
                                                                                      development of the E-Government Scorecard
                                      Enforcement’s management agreed with            under the President’s Management Agenda.
                                 three of our ﬁve recommended actions, and
                                 partially concurred with one recommended                  The objectives of the evaluation were to
                                 action regarding developing formal written           provide background information, clariﬁcation,
                                 policies and another recommended action              and recommendations regarding the OIG’s
                                 suggesting the assessment of authorized users        response and input to Section C of the OMB
                                 to ensure that the proper personnel are              reporting template. The topic areas for the
                                 utilizing the system fully and appropriately.        FISMA reporting template included the
                                 The OIG hopes that Enforcement will                  following:
                                 reconsider and fully implement all the report’s
                                 recommended actions.                                 •"   FISMA Systems Inventory;
                                                                                      •"   Certiﬁcation and Accreditation, Secu
                                 2008 FISMA Executive Summary                              rity Controls Testing, and Contin
                                 Report (Report No. 451)                                   gency Plan Testing;
                                     #                                                •"   Evaluation of Agency Oversight of
                                     In June 2008, the OIG contracted with                 Contractor Systems and Quality of
                                 Electronic Consulting Services, Inc. (ECS) to             Agency System Inventory;
                                 complete and coordinate the OIG’s input to           •"   Evaluation of Agency Plan of Action
                                 the Commission’s response to the Ofﬁce of                 and Milestone (POA&M) Process;
                                 Management and Budget’s (OMB)                        •"   IG Assessment of the Certiﬁcation
                                                                                           and Accreditation Process;
                                 Memorandum M-08-21. Memorandum
                                                                                      •"   IG Assessment of the Agency Privacy
                                 M-08-21 provides instructions and templates               Program;
                                 for meeting the Fiscal Year 2008 reporting           •"   IG Assessment of the Agency Privacy
                                 requirements that agencies must follow under              Impact Assessment Process;
                                 the Federal Information Security                     •"   Conﬁguration Management;
                                 Management Act of 2002 (FISMA), Title III,           •"   Incident Reporting;
                                 Pub. L. No. 107-347.                                 •"   Security Awareness Training;
                                                                                      •"   Collaborative Web Technologies and
                                     FISMA provides the framework for                      Peer to Peer File Sharing; and
                                                                                      •"   E-Authentication Risk Assessments.
                                 securing the Federal government’s
                                 information technology. All agencies must
                                                                                          The Commission operates 49 various
                                 implement the requirements of FISMA and
                                                                                      computer systems, 44 of which have
                                 annually report to OMB and Congress on the
                                                                                      undergone evaluations and have moderate
                                 effectiveness of their Privacy Impact
                                                                                      system impact levels. The ﬁve remaining
                                 Assessments and information security
                                 programs. OMB uses the information to help




                                                                                33

SEMIANNUAL REPORT TO CONGRESS
   system impact levels were evaluated and rated           to the GAO concerning this recommendation.
                                 as low.                                                 Although OIT agreed to the second
                                                                                         recommendation, it suggested that
                                     We issued ECS’s comprehensive report to             responsibility for implementing part of this
                                 management on September 29, 2008.! Senior               recommendation should be assigned to OAS’s
                                 Commission ofﬁcials informed the OIG that               Ofﬁce of Acquisitions. OIT indicated that it
                                 they had determined that the majority of the            will take action on the remaining portion of
                                 information contained in the report was                 the second recommendation, as well as the
                                 conﬁdential and nonpublic, and could                    third recommendation, within the upcoming
                                 therefore not be released to the public under           year.
                                 Commission regulations.! As a result, the OIG
                                 issued both public and nonpublic versions of            Inspection of Corporation Finance
                                 ECS’s report.! The redacted, executive                  Referrals (Report No. 433)
                                 summary version of the report was placed on
                                                                                             The OIG initiated an inspection of
                                 the OIG’s website, while the unredacted
                                                                                         referrals from the Division of Corporation
                                 nonpublic version was issued internally to
                                 Commission management.                                  Finance (Corporation Finance) to the Division
                                                                                         of Enforcement (Enforcement). The
                                     !
                                                                                         inspection, conducted between July 2007 and
                                     In its report, ECS found that the
                                                                                         August 2008, was performed in accordance
                                 Commission performed oversight and
                                                                                         with the President’s Council on Integrity and
                                 evaluations of information systems used or
                                                                                         Efﬁciency and the Executive Council on
                                 operated by agency contractors and other
                                                                                         Integrity and Efﬁciency Quality Standards for
                                 organizations on behalf of the Commission in
                                                                                         Inspections. In September 2007, due to
                                 order to ensure that applicable FISMA
                                                                                         unforeseen changes in the OIG’s work
                                 requirements were met. ECS also found that
                                                                                         priorities, the former Deputy and Acting
                                 the Commission’s Privacy Ofﬁce had made
                                                                                         Inspector General suspended work on the
                                 signiﬁcant progress in its development of
                                                                                         inspection. In February 2008, the OIG
                                 privacy resources and in benchmarking
                                                                                         resumed work on the inspection and
                                 externally with other agencies.
                                                                                         concluded the previously conducted
                                                                                         inspection work.
                                      The report made a total of three
                                 recommendations that required the Ofﬁce of
                                                                                             Corporation Finance refers potential
                                 Information Technology (OIT) to complete
                                                                                         securities law violations to Enforcement for
                                 the security controls and contingency plan
                                                                                         investigation. Corporation Finance
                                 testing for certain systems, to address certain
                                                                                         categorizes these referrals as involving either
                                 requirements and make identiﬁed
                                                                                         delinquent or non-delinquent ﬁlers.
                                 improvements, and to use the report, along
                                                                                         Delinquent ﬁler referrals pertain to individuals
                                 with the completed OIG reporting template,
                                                                                         or entities that are not current in their
                                 to develop the Commission’s annual
                                                                                         Commission ﬁling obligations. In contrast,
                                 consolidated FISMA Report.
                                                                                         non-delinquent ﬁler referrals include all other
                                                                                         types of potential securities law violations,
                                     OIT management concurred with the
                                                                                         such as accounting misstatements and the
                                 second and third recommendations, but
                                                                                         inadequacy of issuer disclosures.
                                 disagreed with the ﬁrst recommendation on
                                 the basis that it had provided documentation

                                                                                   34

SEMIANNUAL REPORT TO CONGRESS
        When Corporation Finance staff review          type of information would be beneﬁcial as it
                                 registrant ﬁlings, they may identify potential      could improve the quality of future referrals
                                 securities law violations. When they do so, the     by identifying shortcomings in previous
                                 staff prepare a referral memorandum for             referrals. Additionally, the inspection
                                 Corporation Finance’s Ofﬁce of Enforcement          determined that OEL could enhance its
                                 Liaison (OEL) that describes the potential          current gatekeeper role and improve the
                                 securities law violation. The OEL reviews the       quality of referrals if it is provided with
                                 referral memorandum and then forwards it to         additional information on the outcome of
                                 either the Enforcement Ofﬁce of the Chief           referrals.
                                 Accountant (OCA) or Enforcement staff who
                                 are actively working on matters involving the           We issued a memorandum report on
                                 same registrant. If OCA receives the referral,      September 30, 2008, which identiﬁed three
                                 it reviews the referral and in conjunction with     recommendations that Enforcement and
                                 a senior ofﬁcer in Enforcement, makes an            Corporation Finance should implement to
                                 initial determination of whether Enforcement        improve the referral process. First, we
                                 staff should investigate the referral. OCA          recommended that the referral process could
                                 staff forward the referral to Enforcement staff     be improved by centralizing the OEL and
                                 for investigation if they believe the alleged       OCA database tracking systems. Second, we
                                 securities law violation warrants further           recommended that Enforcement record
                                 investigation. This process determines the          information about the outcome of non
                                 merits of a referral based on a variety of          delinquent ﬁler referrals in its database.
                                 factors, such as the age and nature of the          Lastly, we recommended that Corporation
                                 alleged securities law violation and the degree     Finance enhance the OEL’s gatekeeper role
                                 of potential harm to investors.                     once outcome information becomes more
                                                                                     available.
                                     The OIG’s inspection found that OEL
                                 and OCA use separate Access databases to                Commission management agreed with all
                                 track non-delinquent ﬁler referrals that store      of the report’s recommendations and
                                 similar referral information. In addition,          indicated that they will explore options to
                                 OCA does not always receive a copy of the           implement the recommendations.
                                 referral when OEL sends a referral directly to
                                 Enforcement staff. The inspection also found
                                 that OCA does not consistently record the
                                 outcome of referrals in the database. This




                                                                               35

36

U.S. Securities and Exchange Commission


                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           INVESTIGATIONS
                                           OVERVIEW                                              prepares a comprehensive plan of
                                                                                                 investigation that describes the focus and
                                               The OIG’s Ofﬁce of Investigations                 scope of the investigation, as well as the
                                           responds to allegations of violations of              speciﬁc investigative steps to be performed
                                           statutes, rules and regulations, and other            during the investigation. In all investigations,
                                           misconduct by Commission staff and                    the OIG investigator interviews the
                                           contractors. The misconduct investigated              complainant ﬁrst whenever feasible and
                                           ranges from criminal wrongdoing and fraud to          conducts signiﬁcant interviews under oath and
                                           violations of Commission rules and policies           on the record. Where there is any reason to
                                           and the Government-wide ethical standards of          believe a witness will not provide truthful
                                           conduct. The Ofﬁce of Investigations                  testimony, the OIG investigator provides an
                                           conducts thorough and independent                     appropriate perjury warning. In addition, the
                                           investigations into allegations received in           OIG investigator gives assurances of
                                           accordance with the Quality Standards for             conﬁdentiality to potential witnesses who have
                                           Investigations of the President’s Council on          expressed reluctance to come forward.
                                           Integrity and Efﬁciency and the Executive
                                           Council on Integrity and Efﬁciency. In                    Where allegations of criminal conduct are
                                           instances where it is determined that                 involved, the Ofﬁce of Investigations notiﬁes
                                           something less than a full investigation is           and works with the Department of Justice and
                                           appropriate, the Ofﬁce of Investigations              the Federal Bureau of Investigation as
                                           conducts a preliminary inquiry into the               appropriate. The OIG has entered into a
                                           allegation. If the information obtained during        memorandum of understanding with the
                                           the inquiry indicates that a full investigation is    Commission’s Ofﬁce of Information
                                           warranted, the Ofﬁce of Investigations will           Technology to provide necessary assistance for
                                           commence an investigation of the allegation.          OIG investigations, including the prompt
                                                                                                 retrieval of employee e-mail accounts as
                                              Upon the opening of an investigation, the          requested by the OIG investigators. The OIG
                                           primary OIG investigator assigned to the case         investigative staff meet with the Inspector


                                                                                           37

SEMIANNUAL REPORT TO CONGRESS
   General frequently (approximately monthly)                 This matter initially began in October
                                 to review the progress of ongoing                     2005, when the OIG opened an investigation
                                 investigations. The Inspector General and the         after receiving a letter, dated September, 2,
                                 OIG investigative staff also meet periodically        2005, from the terminated employee
                                 with the Commission’s Ethics Counsel to               addressed to Chairman Christopher Cox. In
                                 coordinate activities.                                that letter, the employee claimed, among other
                                                                                       things, that his supervisors in the Division of
                                     Upon completion of an investigation, the          Enforcement (Enforcement) gave improper
                                 OIG investigator prepares a comprehensive             preferential treatment to the Chairman and
                                 report of investigation that sets forth in detail     Chief Executive Ofﬁcer (CEO) of an
                                 the evidence obtained during the                      investment bank, whom the former employee
                                 investigation. Investigative matters are              was pursuing as a potential tipper in an insider
                                 referred to the Department of Justice and             trading investigation involving a hedge fund.
                                 Commission management as appropriate. In              On November 29, 2005, the OIG closed the
                                 the investigative reports provided to                 initial investigation into the former employee’s
                                 Commission management, the OIG makes                  claims, ﬁnding that the evidence gathered did
                                 speciﬁc ﬁndings and recommendations,                  not show that the prominent individual was
                                 including whether the OIG believes                    given preferential treatment.
                                 disciplinary or other action should be taken.
                                 The OIG requests that management report                   In or about April 2006, under the
                                 back on the disciplinary action taken in              leadership of U.S. Senators Charles Grassley
                                 response to an OIG investigative report within        and Arlen Specter, the staff of the Senate
                                 45 days of the issuance of the report. The            Committees on Finance and the Judiciary
                                 OIG follows up with management prior to               (Senate Committees) commenced an
                                 and at the 45-day mark to determine the               investigation into allegations made by the
                                 status of disciplinary action taken in the            former employee. The Senate Committees
                                 matter.                                               held three hearings related to these matters.
                                                                                       On June 28, 2006, the Judiciary Committee
                                 INVESTIGATIONS AND                                    held a hearing examining short selling
                                 INQUIRIES CONDUCTED                                   activities of hedge funds and independent
                                                                                       analysts. On September 26, 2006, the
                                 Re-Investigation of Claims by Former
                                 Enforcement Employee of Improper                      Judiciary Committee held a second hearing
                                 Preferential Treatment and Retaliatory                examining enforcement of insider trading
                                 Termination                                           prohibitions and insider trading by hedge
                                     The OIG concluded its re-investigation of         funds, especially trading ahead of mergers.
                                 allegations made by a former Commission               On December 5, 2006, the Judiciary
                                 attorney that managers gave favorable                 Committee held a third hearing focusing on
                                 treatment to a prominent individual by not            the allegations made by the SEC former
                                 taking his testimony in an insider trading            employee.
                                 investigation and then ﬁred the attorney in
                                 retaliation for complaining about the                     In August 2007, the Senate Committees
                                 favorable treatment.                                  issued a ﬁnal report concluding their
                                                                                       investigation and ﬁnding, among other things,



                                                                                 38

SEMIANNUAL REPORT TO CONGRESS
   that the former employee said his supervisor            complaints ﬁled with administrative agencies
                                 warned him it would be difﬁcult to obtain               and communications with Congressional
                                 approval for a subpoena of the prominent                ofﬁcials. IG Kotz also reviewed the record of
                                 individual due to his “very powerful political          the Hearing before the Committee of the
                                 connections.” The report also found that the            Judiciary, United States Senate, 109th
                                 Commission ﬁred the former employee after               Congress, Second Session, December 5, 2006,
                                 he reported his supervisor’s comments about             Serial No. J-109-121, Examining Enforcement of
                                 this prominent individual, despite the fact the         Criminal Insider Trading and Hedge Fund Activity,
                                 employee had received positive performance              which included witness testimony, formal
                                 reviews and a merit pay raise.                          answers to questions submitted by Senators
                                                                                         Grassley and Specter, and numerous written
                                      On July 6, 2006, the OIG re-opened its             submissions. Additionally, IG Kotz reviewed
                                 investigation after a request was made by               the testimony of the Hearing before the
                                 Chairman Cox and, in January 2008, the                  Committee of the Judiciary, United States
                                 newly-appointed Inspector General H. David              Senate, 109th Congress, Second Session, June
                                 Kotz personally took over the re-investigation          28, 2006, Hedge Funds and Independent Analysts,
                                 of the former employee’s allegations. The re            How Independent are Their Relationships, which
                                 investigation focused on the following issues:          included testimony from the former employee.
                                 (a) whether the SEC gave improper
                                 preferential treatment and blocked the former                IG Kotz also reviewed the transcripts of
                                 employee’s efforts to take an individual’s              testimonial interviews of 14 witnesses taken
                                 testimony because of his political connections          by the staff of the Senate Judiciary and
                                 and/or prominence; (b) whether senior SEC               Finance Committees. In addition, the IG
                                 Enforcement ofﬁcials improperly provided                reviewed and analyzed memoranda of OIG
                                 representatives of an investment bank                   interviews of 28 persons with potential
                                 nonpublic information about the insider                 knowledge of the claims asserted by the
                                 trading investigation, and speciﬁcally the              former employee and on-the-record, under
                                 Enforcement Division’s intentions with respect          oath testimony of six individuals. IG Kotz
                                 to the prominent individual; (c) if, after the          personally took testimony on-the-record,
                                 former employee was terminated, the SEC                 under oath of 20 witnesses after he assumed
                                 Enforcement Division took insufﬁcient actions           responsibility for the re-investigation. In all,
                                 to investigate the case and improperly closed           IG Kotz reviewed over 70 transcripts of
                                 the investigation because of the individual’s           testimony or memoranda of interviews of
                                 political connections and/or prominence; and            over 50 separate individuals with knowledge
                                 (d) whether the SEC Enforcement Division                of issues relating to the former employee’s
                                 improperly terminated the employee in                   allegations.
                                 retaliation for his complaints about                         #
                                 preferential treatment and to block his efforts              In addition to the above efforts, the OIG
                                 to take the prominent individual’s testimony.           conducted numerous searches for documents,
                                                                                         including searches for the former employee’s
                                      During the re-investigation, the IG                e-mails for his entire tenure at the
                                 personally took on-the-record, under oath               Commission and pertinent e-mails of several
                                 testimony of the complainant on ﬁve                     other SEC employees. In addition, the OIG
                                 occasions and reviewed thousands of pages of            obtained and reviewed various documents
                                 material written by the former employee in

                                                                                   39

SEMIANNUAL REPORT TO CONGRESS
   pertaining to the underlying insider trading         concerning the taking of the prominent
                                 investigation.                                       individual’s testimony, was different from the
                                                                                      approach commonly utilized in other
                                     In September 2008, the IG concluded the          Enforcement investigations.
                                 re-investigation, and prepared a nearly 200
                                 page report of investigation with a ﬁve-volume           In testimony, the supervisor explained that
                                 appendix of 226 exhibits. Overall, the report        the “juice” he was referring to related to the
                                 concluded that Enforcement managers,                 ability of counsel for the prominent individual
                                 particularly the former employee’s ﬁrst-level        to reach out to senior Enforcement ofﬁcials.
                                 and second-level supervisors, failed in              The OIG’s report found that even if one
                                 numerous respects in how they managed the            accepted this explanation, however, this
                                 former employee, allowed inappropriate               “juice” did, in fact, materialize, as senior
                                 reasons to factor into the decision to terminate     Enforcement ofﬁcials were contacted by
                                 him, and conducted themselves in a manner            representatives of the investment bank about
                                 that raised serious questions about the              the investigation as it pertained to this
                                 impartiality and fairness of the insider trading     prominent individual, who was under serious
                                 investigation.                                       consideration for the position of the bank’s
                                                                                      new CEO.
                                     Speciﬁcally, the OIG investigation found
                                 that although the former employee’s                      The investigation further found that
                                 supervisors testiﬁed that they had signiﬁcant        shortly after the contacts were made on behalf
                                 concerns about his performance and conduct           of the investment bank, senior Enforcement
                                 throughout his tenure with the Commission,           ofﬁcials imparted to representatives of the
                                 they failed to provide him with timely               investment bank relevant information
                                 feedback of these concerns, denying him any          regarding the extent of the evidence
                                 ability to improve his performance or change         Enforcement had against the prominent
                                 his behavior. In fact, the record demonstrates       individual in connection with the insider
                                 that the former employee was not given any           trading investigation. The Commission’s
                                 signiﬁcant negative feedback until after he          Conduct Regulation prohibits Commission
                                 advocated taking the testimony of a                  ofﬁcials and employees from divulging
                                 prominent individual in the ﬁnancial industry.       conﬁdential and nonpublic information in
                                                                                      circumstances where the Commission has
                                     The OIG investigation also found                 determined to accord such information
                                 evidence that in conversations with the former       conﬁdential treatment. See 17 C.F.R §
                                 employee about the taking of the prominent           200.735-3(b)(7)(i). Information obtained by
                                 individual’s testimony, his direct supervisor        the Commission in the course of any
                                 used the term “political clout” and referred to      investigation, unless made a matter of public
                                 the prominent individual’s counsel as having         record, is speciﬁcally deemed to be nonpublic.
                                 “juice,” thus conveying the impression that          17 C.F.R. § 203.2. According to Commission
                                 political clout factored into the decision to        policy, the prohibition against use of
                                 deny the former employee the ability to take         nonpublic information without speciﬁc
                                 the testimony. In addition, the record showed        authorization or approval by the Commission
                                 that the approach adopted by the supervisors         does not apply to the use of such materials as
                                 in connection with the insider trading               necessary or appropriate by members of the
                                 investigation, and speciﬁcally the decision          staff in pursuing SEC investigations, or in the

                                                                                40

SEMIANNUAL REPORT TO CONGRESS
   discharge of other ofﬁcial responsibilities.              On the other hand, the OIG investigation
                                 SECR 19-1.                                           did ﬁnd that the explanation provided by the
                                                                                      former employee’s supervisors as to why they
                                     Although Commission regulations do not           felt it was appropriate to postpone taking the
                                 deﬁne speciﬁcally in what circumstances              prominent individual’s testimony until a later
                                 nonpublic information may be disclosed in the        point in the investigation was a plausible one.
                                 discharge of ofﬁcial duties, and the senior          In addition, while several other individuals
                                 Enforcement ofﬁcial primarily responsible for        who worked with the former employee on the
                                 the disclosure of the information may have           insider trading investigation concurred with
                                 legitimately believed her actions were               his request to take the testimony in July or
                                 necessary to discharge her responsibilities, the     August of 2005, they also generally indicated
                                 OIG investigation found there are serious            that it was not necessarily improper to wait to
                                 questions about the appropriateness of the           obtain additional information before bringing
                                 information conveyed to the investment bank.         in this individual for testimony. Accordingly,
                                 First, the investigation disclosed that there is     the OIG investigation did not ﬁnd sufﬁcient
                                 clearly a disconnect within Enforcement about        evidence to establish that the prominent
                                 the procedures for the release of nonpublic          individual was given improper preferential
                                 information. Second, the fact that senior            treatment regarding the taking of his
                                 Enforcement ofﬁcials provided the                    testimony. Moreover, the investigation did not
                                 information without ﬁrst conferring with the         ﬁnd that Enforcement cases are generally
                                 attorney who had primary responsibility for          affected by political decisions or the
                                 the investigation is problematic, and created        prominence of the individuals under
                                 an appearance that they were providing               investigation.
                                 preferential treatment. Third, learning the
                                 extent of the information the Commission                 The investigation also found that although
                                 had against a potential target (i.e., that there     Enforcement seems to have “gone through the
                                 was no “smoking gun” evidence in the hands           motions” in ultimately taking the prominent
                                 of Enforcement) could prove very useful to           individual’s testimony, the evidence did not
                                 outside counsel in preparing a defense.              show the insider trading investigation was
                                 Fourth, the information was provided                 abandoned. To the contrary, while there was
                                 speciﬁcally because the prominent individual         a shift by Enforcement away from one aspect
                                 was being considered for a high-level position       of the investigation based upon the belief that
                                 in a large investment bank, and would not be         other aspects were more promising, there is
                                 available to another potential target of lesser      substantial evidence that the insider trading
                                 means or reputation.                                 investigation continued to be aggressively
                                                                                      pursued until it was closed in November 2006.
                                     The investigation also called into serious
                                 question the appropriateness of the current               With respect to the former employee’s
                                 common practice in Enforcement that affords          termination, the OIG investigation found that
                                 outside counsel the opportunity to                   there was a connection between the decision
                                 communicate with ofﬁcials above the line             to terminate the former employee and his
                                 attorney level on behalf of their clients when       seeking to take the prominent individual’s
                                 they have issues or disagreements with the           testimony. The record demonstrated that
                                 Enforcement lawyers with whom they have              after the communications with the investment
                                 been dealing.                                        bank, and during the time a two-step merit

                                                                                41

SEMIANNUAL REPORT TO CONGRESS
   increase that had been recommended for the           individual’s testimony around the same time
                                 former employee was being processed, the             period, and perhaps even in the same meeting,
                                 former employee’s supervisors prepared a             in which they made the decision to terminate
                                 supplemental evaluation that criticized him for      him. In fact, the e-mail that proposed the
                                 being “resistant to supervision” and                 former employee’s termination directly
                                 referenced complaints about him from                 followed an e-mail from him in which he
                                 opposing counsel. The supplemental                   provided a justiﬁcation for taking the
                                 evaluation also noted that the employee              prominent individual’s testimony. In addition,
                                 “expresses resentment at what he inaccurately        the former employee’s third-level supervisor
                                 perceives as attempts by his supervisors to          acknowledged that the fact that the employee
                                 thwart his success.” The supplemental                simply would not listen with respect to the
                                 evaluation was not placed in the employee’s          prominent individual must have played some
                                 personnel ﬁle, and the evidence suggested that       part in his supervisors’ assessment of his
                                 the substance of the supplemental evaluation         conduct. For these reasons, the investigation
                                 may never have been conveyed to him.                 found that it was simply not credible to ﬁnd
                                                                                      that the decision to terminate the former
                                     Further, several other Enforcement               employee was totally unrelated to his efforts to
                                 attorneys, some of whom had worked in the            take the prominent individual’s testimony.
                                 Enforcement Division for many years, testiﬁed
                                 that they had never seen or even heard of a              Furthermore, although there was evidence
                                 supplemental evaluation. In addition, the            that Enforcement had a legitimate basis for
                                 timing of the supplemental evaluation                terminating the former employee in his
                                 evidences that complaints made about the             probationary period, the evidence also showed
                                 former employee’s second-level supervisor’s          that few employees in Enforcement have
                                 management style also played a role in the           historically been terminated, even in their
                                 decision to issue this unprecedented                 probationary periods, and Enforcement
                                 document.                                            management has tolerated much worse
                                                                                      conduct on the part of other Enforcement
                                      The evidence also showed that within a          lawyers.
                                 short time period after the supplemental
                                 evaluation was prepared and while the former             During the course of the OIG re
                                 employee was continuing to seek approval to          investigation, numerous former and current
                                 take the prominent individual’s testimony,           subordinates of the former employee’s second-
                                 Enforcement management decided to                    level supervisor came forward, after requesting
                                 terminate the former employee. In their              and being granted conﬁdentiality, to describe
                                 testimony, all of the former employee’s              the atmosphere of “abuse” and “unfairness”
                                 supervisors referenced his inability to work         that pervaded the ofﬁce under his leadership.
                                 well with others as the basis for his                They also described their intense fear of
                                 termination and, in fact, there was substantial      retaliation and provided accounts of how it
                                 evidence of his conﬂicts with co-workers,            was fruitless to complain about the second-
                                 supervisors and opposing counsel.                    level supervisor to upper-level management
                                                                                      because they would not take appropriate
                                     Nonetheless, the record also showed that         action. There were also concerns expressed
                                 the former employee’s supervisors were               about the former employee’s direct
                                 discussing the issue of taking the prominent         supervisor’s management style. This

                                                                                42

SEMIANNUAL REPORT TO CONGRESS
   supervisor was described as a “micro                 Investigation of Failure to Vigorously
                                 manager” who “harassed” subordinates, but            Enforce Action in Regional Office
                                 gave little or no substantive feedback.
                                                                                          The OIG conducted an investigation at
                                                                                      the request of United States Senator Charles
                                     Accordingly and in light of all the
                                                                                      Grassley, Ranking Member of the Senate
                                 evidence, the Inspector General
                                                                                      Finance Committee, into the reasons why a
                                 recommended that appropriate disciplinary
                                                                                      Commission investigation of a bank holding
                                 and/or performance-based action be taken
                                                                                      company and an investment bank was closed
                                 against the former employee’s ﬁrst and
                                                                                      without any action taken by Enforcement.
                                 second-level supervisors, including removal of
                                 their supervisory responsibilities, and
                                 appropriate disciplinary and/or performance-              In conducting the investigation, OIG
                                                                                      investigators took sworn, on-the-record
                                 based action be taken against the senior-level
                                                                                      testimony of all the individuals from the
                                 Enforcement ofﬁcial who made the ultimate
                                                                                      Regional Ofﬁce who worked on the
                                 decision to terminate the former employee.
                                                                                      Enforcement matter at issue, including current
                                 The report also recommended: (a) clariﬁcation
                                 of the Commission’s policies on the disclosure       and former staff attorneys, two staff
                                                                                      accountants, the Branch Chief, the Regional
                                 of nonpublic information in the context of
                                                                                      Trial Counsel, both a current and former
                                 Enforcement investigations and relevant
                                                                                      Assistant Regional Director, the Associate
                                 training of Enforcement employees,
                                                                                      Regional Director, and the Regional Director.
                                 particularly with respect to the
                                 appropriateness of disclosing the extent of          OIG investigators also took sworn, on-the
                                                                                      record testimony of all the individuals in
                                 evidence against a person of interest in an
                                                                                      Headquarters who had any substantive
                                 ongoing investigation; and (b) reassessment
                                                                                      involvement in the matter, including
                                 and clariﬁcation to staff of Enforcement’s
                                                                                      Enforcement’s Chief Accountant, Chief
                                 practice that allows outside counsel the
                                 opportunity to communicate with managers             Counsel and former Deputy Director. In
                                                                                      addition, OIG investigators also took the
                                 above the line attorney level on behalf of their
                                                                                      sworn, on-the-record testimony by telephone
                                 clients when they have issues or disagreements
                                                                                      of counsel for various entities that were the
                                 with the Enforcement lawyers with whom they
                                                                                      subjects of the Enforcement investigation.
                                 have been dealing to ensure Enforcement
                                 practices and policies do not result in
                                                                                          The OIG concluded its investigation in
                                 favorable treatment, or the appearance
                                                                                      late September 2008, and issued a
                                 thereof, for prominent individuals and their
                                                                                      comprehensive report of investigation that
                                 counsel.
                                                                                      found as follows. Beginning in March 1999, a
                                                                                      holding company began purchasing
                                     In the report of re-investigation, which
                                                                                      Collateralized Bond Obligations (CBOs) and
                                 was issued on September 30, 2008, the
                                                                                      Collateralized Loan Obligations (CLOs) from
                                 Inspector General requested that he be
                                                                                      an investment bank through a registered
                                 informed within 45 days of the actions taken
                                                                                      representative in the investment bank’s Latin
                                 in response to the report’s recommendations.
                                                                                      American group. For eleven months in 2002,
                                                                                      this registered representative violated the
                                                                                      investment bank’s internal policies and



                                                                                43

SEMIANNUAL REPORT TO CONGRESS
   procedures by calculating his own prices, as        method of fair value to reﬂect its inventory,
                                 the CBOs and CLOs in the holding                    contrary to accounting principles.
                                 company’s portfolio began to decline in value.
                                 When the holding company discovered the                 Due to a backlog in Enforcement’s Ofﬁce
                                 improper valuation, and that the Corporate          of Chief Accountant, the referral stalled for
                                 Debt Obligations (CDOs) had been impaired,          seven months. In January 2004, the Assistant
                                 its Chief Financial Ofﬁcer (CFO) took several       Chief Accountant in Enforcement authored a
                                 steps to reduce the impact of the impairment        Referral Disposition Memorandum,
                                 charge, each of which was not in accordance         recommending further investigation to
                                 with Generally Accepted Accounting                  determine whether information contained in
                                 Principles. Moreover, using ﬂawed                   the holding company’s press release about its
                                 information, the holding company’s CFO              earnings and ﬁnancial condition for the ﬁrst
                                 concluded that a smaller than appropriate           quarter of 2003 was false and misleading.
                                 impairment charge was necessary, and the
                                 holding company issued a 2003 ﬁrst quarter              In February 2004, the referral was sent to
                                 earnings release that was grossly inadequate,       a Regional Ofﬁce for review and disposition.
                                 giving the false impression that the securities     The Regional Ofﬁce opened a Matter Under
                                 were not impaired.                                  Inquiry into the holding company on
                                                                                     February 27, 2004. Between March 11, 2004
                                       Even after the SEC’s Division of              and July 28, 2004, the investigative team
                                 Corporation Finance (Corporation Finance)           assigned to the case worked at an intense pace,
                                 questioned the holding company about its            sending document requests that culled 53,000
                                 practices, its CFO continued to use inaccurate      documents and, between October 6, 2004 and
                                 prices, resulting in an overstatement of 67         February 14, 2005, fourteen witnesses gave
                                 percent of its pre-tax net income. The              voluntary testimony in the matter.
                                 holding company then ﬁled a Form 10-K and
                                 amended Form 10-K that failed to disclose               On February 15, 2005, the staff requested
                                 relevant information concerning the                 and was granted a formal order of
                                 impairment of its CDO portfolio. Thereafter,        investigation by the Commission. In
                                 the holding company ﬁled misleading press           requesting the formal order, the staff
                                 releases and a registration statement that          represented to the Commission that it had
                                 incorporated the false information. By using        “nearly completed” its investigation in
                                 the materially false and misleading price           connection with the impairment of certain of
                                 information in press releases and ﬁlings, the       the holding company’s assets, and the role that
                                 holding company was able to paint a favorable       the investment bank may have played in those
                                 picture of its earnings streams for its             violations.
                                 shareholders and prevent its stock price from
                                 falling.                                                 Once the formal order was obtained,
                                                                                     between February 22, 2005 and June 6, 2005,
                                     In May 2003, Corporation Finance                the Regional Ofﬁce staff took the testimony of
                                 referred the matter involving the holding           11 additional witnesses in the case. Sometime
                                 company to Enforcement. Corporation                 around June 15, 2005, the investigative team
                                 Finance had determined that, at a minimum,          met with the Regional Trial Counsel, who, by
                                 the holding company had used an inaccurate          all accounts, told the investigative team he


                                                                               44

SEMIANNUAL REPORT TO CONGRESS
   believed it was a strong case. His feeling was        months to become familiar with the matter.
                                 echoed by the senior staff, who all expressed to      The staff became frustrated with the inaction
                                 the investigative team that it was a high             and repeatedly inquired about the status of
                                 priority case for the ofﬁce, particularly because     the case.
                                 it had been referred by Headquarters and
                                 because there were allegations of fraud                   In September or October of 2006, the
                                 involving the investment bank.                        new Assistant Regional Director ﬁnally
                                                                                       completed his very belated review of the case
                                     On June 15, 2005, the staff issued notices        and, in November 2006, at least fourteen
                                 of intent to bring an Enforcement action to a         months after the initial meetings with defense
                                 variety of parties, against whom there was            counsel had occurred, the staff again
                                 evidence that they provided false price               contacted the investment bank’s counsel and
                                 information to the CFO of the holding                 advised them that the staff was ﬁnally
                                 company, with the knowledge that the holding          prepared to proceed against the proposed
                                 company was going to provide such                     defendants.
                                 information to its auditor as support for the
                                 incorrect $2.7 million impairment charge.                 Thereafter, in the early months of 2007,
                                 The staff never issued notices to the CFO and         the investment bank’s counsel convinced the
                                 the holding company itself, however, because          SEC Regional Ofﬁce to drop all charges
                                 the staff believed both would be willing to           against the investment bank’s senior managing
                                 discuss settlement.                                   directors and to reduce the charges against the
                                                                                       investment bank itself from a fraud charge to a
                                     In the fall of 2005, the staff met with           charge of failure to supervise.
                                 counsel for the investment bank and began
                                 discussing settlement. During that same                    The Regional Ofﬁce then renewed
                                 period of time, staff entered into settlement         settlement discussions with counsel for the
                                 negotiations with counsel for the CFO and the         holding company and its CFO, who had heard
                                 holding company. The staff then drafted a             nothing from the staff for 15 or 16 months.
                                 memorandum that named several individuals,            Although the holding company and CFO had
                                 as well as the holding company and its CFO,           previously agreed to a $100,000 penalty, the
                                 as proposed defendants. Shortly thereafter, in        staff offered to reduce the proposed penalty to
                                 October or November 2005, the staff reached           $75,000, and reached agreement with both
                                 a settlement in principle with the CFO’s              the holding company, and its CFO. The staff
                                 attorneys, whereby the CFO would agree to a           also engaged in successful settlement
                                 non-scienter based fraud charge, a $100,000           discussions with counsel for the investment
                                 penalty and a possible ofﬁcer and director bar.       bank, who agreed to a reduced “failure to
                                 At the same time, the holding company also            supervise” charge and a monetary penalty of
                                 agreed to settle in principle for an injunction       $500,000. The staff was also making progress
                                 with no civil monetary penalty.                       obtaining a settlement arrangement with the
                                                                                       ﬁnal proposed defendant, when the Regional
                                     In January 2006, the position of Assistant        Director abruptly decided to close the case
                                 Regional Director was ﬁlled after being vacant        entirely.
                                 for nearly ﬁve months. Despite expressing an
                                 immediate interest in the case, the new                  The Regional Director then contacted
                                 Assistant Regional Director took at least nine        counsel for the investment bank, who was a

                                                                                 45

SEMIANNUAL REPORT TO CONGRESS
   former SEC Enforcement lawyer with whom               out of two different cities were being
                                 the Regional Director had an ongoing                  investigated for the same conduct. Had the
                                 personal relationship, and told him,                  SEC Regional Ofﬁce sought information
                                 “Christmas is coming early this year,” and the        about the AUSA’s investigation, it could have
                                 investment bank “can keep their money.” The           uncovered potential systematic problems at
                                 registered representative’s lawyer, also a            the investment bank in determining the
                                 former SEC lawyer who had worked with the             market price and assessing the value of
                                 Regional Director in Enforcement in the mid-          additional CDOs issued and held.
                                 to-late 1980s, was likewise informed that no
                                 case would be brought against his client. The              The OIG investigation obtained evidence
                                 decision to close the case also meant that the        that the SEC Regional Ofﬁce’s written case
                                 holding company and its CFO were not                  closing recommendation cited “signiﬁcant
                                 required to pay a penalty or agree to any             litigation risks” as one of the bases for the
                                 charges.                                              decision to close the investigation. The case
                                                                                       closing memorandum also indicated that
                                     The staff was stunned at the decision to          although the SEC Regional Ofﬁce concluded
                                 close the case, and the reasons provided to           that the holding company and the investment
                                 them were incongruous. The staff reported             bank may have engaged in misconduct and
                                 that they were told the case was being                violated the antifraud provisions of the federal
                                 dropped due to consideration of “litigation           securities laws, and that there was evidence of
                                 risk,” even though settlements had been               potential fraud, they did not believe there was
                                 negotiated with essentially all the parties in the    a sufﬁciently compelling case to go forward.
                                 case. When the Regional Director was asked            The OIG investigation also noted that the
                                 for an explanation, he replied that the case          decision to close the investigation was
                                 was too old, and there was pressure from              approved by senior-level ofﬁcials at
                                 Enforcement in Headquarters not to bring old          Headquarters; however, their review was
                                 cases. Several of the staff believed the case         relatively limited in nature. Enforcement’s
                                 was dropped because management never truly            Chief Counsel stated that she did not think
                                 understood the complexities of the case.              she spoke with the Regional Ofﬁce Director
                                                                                       about closing the case, but simply reviewed
                                     Concurrent with the SEC investigation, a          the case closing recommendation.
                                 U.S. Attorney’s Ofﬁce was investigating               Enforcement’s former Deputy Director stated
                                 another employee of the same investment               that he recalled being informed by the
                                 bank, who had also allegedly engaged in               Regional Ofﬁce Director that there was a
                                 questionable pricing of CDOs. Although the            consensus to close the case and no one
                                 U.S. Attorney’s Ofﬁce informed the SEC                disagreed with the decision to close it.
                                 Regional Ofﬁce about its investigation, and
                                 asked to be apprised of the status of the SEC              The OIG investigation concluded that
                                 investigation, the SEC Regional Ofﬁce never           there was a failure on the part of the SEC
                                 submitted an access request for information           Regional Ofﬁce’s management to administer
                                 about the U.S. Attorney Ofﬁce’s investigation,        its statutory obligations and responsibilities to
                                 and failed to even notify the Assistant U.S.          vigorously enforce compliance with applicable
                                 Attorney (AUSA) about the Regional Ofﬁce’s            securities laws. Speciﬁcally, the OIG found
                                 investigation. The AUSA believed that it was          that the investigation was plagued by
                                 signiﬁcant that the investment bank’s traders         numerous unconscionable delays that

                                                                                 46

SEMIANNUAL REPORT TO CONGRESS
   adversely affected the staff ’s ability to conduct     contractor whose work the staff member
                                 the investigation. Notwithstanding all the             oversaw. It was further alleged that the
                                 delays in the case, the staff was able to              employee attended the pre-proposal
                                 negotiate signiﬁcant settlements with                  conference with the president and owner of
                                 essentially all the proposed defendants when           the contracting ﬁrm, that the two individuals
                                 the Regional Director abruptly decided to              had developed a close personal relationship
                                 drop the case entirely. Moreover, a signiﬁcant         over the years and that the employee had
                                 opportunity to coordinate with the U.S.                expressed a preference for working with this
                                 Attorney’s Ofﬁce and uncover evidence of a             particular contractor.
                                 systematic problem at the investment bank
                                 was also missed through neglect.                            During the investigation, the OIG issued
                                                                                        subpoenas duces tecum to the president and
                                     The OIG investigation also found that the          owner of the contracting ﬁrm and the ﬁrm
                                 fact that two of the defense counsels in the           itself, and reviewed materials produced in
                                 matter were former Enforcement attorneys               response to the subpoenas. OIG investigators
                                 created the appearance, to some, that they             obtained numerous months of the staff
                                 may have obtained favorable treatment from             member’s e-mails and obtained and reviewed
                                 SEC Regional Ofﬁce staff. While the OIG                relevant records, including the sign-in sheet
                                 investigation did not ﬁnd evidence of a direct         for the pre-proposal conference. The OIG
                                 connection between the relationship between            also took the sworn, on-the-record testimony
                                 SEC Regional Ofﬁce ofﬁcials and the                    of the company president and several other
                                 attorneys for the defendants and the decision          witness, although the employee who was the
                                 to close the investigation, even the appearance        subject of the investigation declined to testify
                                 of a conﬂict was determined to be disturbing           invoking the Fifth Amendment privilege
                                 and could potentially damage the reputation            against self-incrimination.
                                 of the Commission.
                                                                                            The OIG issued a comprehensive report
                                     Accordingly, the OIG referred the                  of investigation to management on June 5,
                                 investigation to the Executive Director, Chief         2008, describing the ﬁndings of its
                                 of Staff and Chairman for disciplinary and/            investigation. Overall, the investigation
                                 or performance-based action against the                revealed that the subject employee, while
                                 Regional Ofﬁcer Director. The OIG issued its           exercising ofﬁcial responsibility over an SEC
                                 report on September 30, 2008, and requested            contract, developed a personal friendship with
                                 that it be advised of the action taken in              the president and owner of the contracting
                                 response to the report’s recommendation                ﬁrm and acted in an impartial and improper
                                 within 45 days.                                        manner in violation of numerous provisions of
                                                                                        the Standards of Ethical Conduct for
                                 Investigation of Conflict of Interest,                 Employees of the Executive Branch
                                 Improper Solicitation and Receipt of                   (Standards of Conduct). Speciﬁcally, the OIG
                                 Gifts from a Prohibited Source, and                    found that the employee misused ofﬁcial time
                                 Misuse of Official Position
                                                                                        to attend a state agency pre-proposal
                                     The OIG investigated an allegation that a          conference with the president and owner of
                                 staff member in a supervisory position                 the company, at which she listed herself as an
                                 attended a pre-proposal conference conducted           attendee for the company and used her
                                 by a state ofﬁce on behalf of a Commission             married name to disguise her actions.

                                                                                  47

SEMIANNUAL REPORT TO CONGRESS
       The investigation also uncovered evidence           The OIG also referred the manager who
                                 that the employee solicited and accepted a          wrote the letter containing the false statement
                                 favor from the company president and owner          to Commission management for disciplinary
                                 in the form of employment for her son, during       action. In response, management counseled
                                 a time when she was the Contracting Ofﬁcer          the manager to exercise caution should similar
                                 Technical Representative (COTR) on the              circumstances arise in the future, rather than
                                 contract for which this company was a               undertaking any disciplinary action.
                                 subcontractor. In addition, while the
                                 employee was acting as the COTR for the                 Finally, we recommended that the agency
                                 company’s direct contract with the SEC, the         institute suspension and/or debarment
                                 company president and owner a second time           proceedings against the contracting ﬁrm or
                                 attempted to secure employment for the              undertake other appropriate action. As of the
                                 employee’s son. The evidence further showed         end of the reporting period, the agency had
                                 that during the period of time in which these       taken no action regarding the contracting
                                 favors were solicited and accepted, the             ﬁrm.
                                 employee ensured that all SEC tasks went to
                                 this company, which had the SEC as its only         Investigation of Falsification of
                                 client.                                             Personnel Forms and Employment
                                                                                     Application
                                      In addition, the OIG investigation                  The OIG conducted an investigation into
                                 uncovered evidence that an SEC senior               the falsiﬁcation of two Standard Form (SF)
                                 manager, at the employee’s request, used his        50s and an employment application by a
                                 ofﬁcial title to assist the employee in             recently-hired employee. OIG investigators
                                 purchasing a cooperative apartment for her          interviewed the employee, who admitted
                                 son’s personal use, while falsely stating in a      intentionally falsifying the document in
                                 letter that the apartment was for the               question. Speciﬁcally, the employee admitted
                                 employee’s use in connection with her ofﬁcial       falsifying her position and grade at her
                                 duties. The manager admitted under oath             previous agency because she did not think she
                                 that he knew the employee needed him to sign        would qualify for the position at the SEC
                                 the letter to get a place for her son to live,      based upon her actual employment
                                 rather than for use in connection with SEC          information. The employee further admitted
                                 duties, as he represented in the letter.            making a serious error in judgment by altering
                                                                                     the forms.
                                     The OIG referred the staff member who
                                 violated the Standards of Conduct by                    Because the employee admitted to
                                 misusing ofﬁcial time, soliciting and accepting     committing serious criminal offenses, the OIG
                                 favors, and favoring the contractor with whom       referred the matter to the Public Integrity
                                 she had a personal friendship for disciplinary      Section of the Criminal Division of the U.S.
                                 action, up to and including dismissal. No           Department of Justice for consideration of
                                 disciplinary action had been proposed or            prosecution, which was pending at the end of
                                 taken against the staff member as of the end        the semiannual reporting period.
                                 of the semiannual period, despite the fact the
                                 report was referred almost four months before           In addition, the OIG issued a report of
                                 the end of the period.                              investigation to management on June 24,
                                                                                     2008, recommending disciplinary action up to
                                                                               48

SEMIANNUAL REPORT TO CONGRESS
   and including dismissal against the employee,         SEC and made it a point to tell him that she
                                 who had already been placed on                        had been with the Commission for 10 or more
                                 administrative leave. Management removed              years. The broker indicated that he felt she
                                 the employee from her position effective July         was trying to intimidate and bully him and he
                                 31, 2008, relying on the employee’s                   considered her conduct to be unprofessional.
                                 admissions to the OIG that she had falsiﬁed
                                 her SF50s and employment.                                 The OIG concluded that this conduct was
                                                                                       in violation of Government-wide policies that
                                 Investigation of Misuse of Official                   speciﬁcally and strictly prohibited employees
                                 Government Position                                   from using their public positions in a manner
                                                                                       intended to coerce a beneﬁt to themselves or
                                     After receiving two anonymous                     relatives. Based upon the employee’s high-
                                 complaints, the OIG conducted an
                                                                                       level position of responsibility within the
                                 investigation into allegations of misuse of
                                                                                       agency, the signiﬁcant impact that her
                                 ofﬁcial government position, gross
                                                                                       conduct would have on a brokerage ﬁrm and
                                 mismanagement and abuse of time and
                                                                                       the strict prohibitions on using one’s
                                 attendance by a senior-level Commission               government title or position to gain personal
                                 employee. The OIG obtained and analyzed
                                                                                       beneﬁts, the OIG referred the matter to
                                 e-mail and building access logs for this
                                                                                       management for disciplinary action, up to and
                                 employee, and interviewed several
                                                                                       including dismissal. Management had not
                                 Commission staff members, including the
                                                                                       proposed or taken action against the senior-
                                 employee’s supervisor. The OIG also                   level employee as of the end of the
                                 subpoenaed brokerage account statements
                                                                                       semiannual period.
                                 and interviewed brokers from a brokerage
                                 ﬁrm with which the employee was alleged to
                                                                                       Follow-up Investigation of Disruptive
                                 have had inappropriate contact. In addition,          and Intimidating Behavior
                                 an OIG investigator took the sworn, on-the            by a Senior Manager
                                 record testimony of the senior-level employee.
                                                                                            During the prior semiannual period, the
                                     On August 12, 2008, the OIG issued a              OIG reported on an investigation it
                                 detailed report to management describing the          conducted of a Senior Ofﬁcer (Senior
                                 results of its investigation. The OIG                 Executive Service-equivalent) who had
                                 investigation found signiﬁcant evidence,              verbally and physically assaulted a colleague
                                 including her own admissions, that the senior-        in the ofﬁce. That investigation further
                                 level Commission employee clearly and                 uncovered evidence that the Senior Ofﬁcer
                                 purposefully identiﬁed herself as a                   had a history of intimidating and controlling
                                 Commission employee when dealing with                 behavior in the workplace. We also found that
                                 brokers about a family member’s account.              the Senior Ofﬁcer lacked candor in her sworn
                                 Speciﬁcally, the senior-level employee                testimony to the OIG investigator. The OIG
                                 admitted that she contacted the family                had referred the matter to management and
                                 member’s broker to question the investment            recommended that serious disciplinary action
                                 decisions and speciﬁcally pointed out that she        be taken against the Senior Ofﬁcer.
                                 worked at the Commission. The broker
                                 stated that the senior-level employee told him            In the current reporting period, the OIG
                                 on numerous occasions that she worked at the          learned that while management had


                                                                                 49

SEMIANNUAL REPORT TO CONGRESS
   reassigned the Senior Ofﬁcer to a position in         investigation and the additional disruptive
                                 which she was not ofﬁcially supervising staff,        conduct outlined in the supplemental report.
                                 management took no disciplinary action                As of the end of the semiannual reporting
                                 against the Senior Ofﬁcer, instead issuing her        period, no disciplinary action had been taken
                                 a counseling memorandum. Also during this             against the Senior Ofﬁcer for the ﬁndings in
                                 period, the OIG received further allegations          either the initial or supplemental investigative
                                 that the Senior Ofﬁcer had approached her             reports.
                                 former subordinates in an intimidating
                                 manner seeking afﬁdavits to defend herself            Investigation of Failure to Maintain
                                 from possible disciplinary action arising out of      Active Bar Status
                                 the initial OIG investigation. Upon receiving
                                 this information, the OIG re-opened its                   The OIG investigated an allegation that a
                                                                                       Commission attorney had not maintained
                                 investigation of the Senior Ofﬁcer and
                                                                                       active bar status for several years, as was a
                                 interviewed ﬁve individuals, four of whom
                                                                                       requirement of his position. It was also
                                 had been approached by the Senior Ofﬁcer
                                                                                       alleged that the attorney failed to advise his
                                 for an afﬁdavit.
                                                                                       supervisors of the change in his bar status and
                                                                                       continued to practice law as an Enforcement
                                     The OIG issued a supplemental report of
                                                                                       attorney. The OIG contacted the state bar of
                                 investigation to management on June 2, 2008,
                                                                                       which the employee had been previously been
                                 providing the results of its additional
                                                                                       an active member to obtain pertinent
                                 investigative work. The OIG found that the
                                                                                       information about his bar membership status.
                                 Senior Ofﬁcer requested afﬁdavits directly
                                                                                       The OIG also obtained and reviewed
                                 from several former subordinates with whom
                                                                                       documents pertaining to the employee’s
                                 she still worked, during the workday and in
                                                                                       position description, as well as documents
                                 the workplace. The OIG further found
                                                                                       reﬂecting representations made by the
                                 evidence that the former subordinates were
                                                                                       employee in correspondence, testimony and
                                 uncomfortable with the Senior Ofﬁcer’s
                                                                                       declarations ﬁled with courts.
                                 request, which they found to be both
                                 inappropriate and intimidating. The OIG’s
                                                                                           While the OIG’s investigation was
                                 supplemental investigation also determined
                                                                                       ongoing, the staff member admitted to
                                 that the Senior Ofﬁcer’s actions were
                                 disruptive to the workplace and uncovered             management that he had failed to maintain
                                                                                       active bar status as required by his position,
                                 additional evidence of the Senior Ofﬁcer’s
                                                                                       but claimed he had not learned of his transfer
                                 history of intimidating and controlling
                                                                                       to inactive status until several years after it
                                 behavior that continued even after she was
                                                                                       occurred. The employee, however,
                                 reassigned from her ofﬁcial supervisory
                                 position.                                             acknowledged his inattentiveness to his bar
                                                                                       status and agreed to retire, effective August 30,
                                                                                       2008.
                                     The OIG reasserted its previous
                                 investigative ﬁndings and recommended that
                                                                                           On September 11, 2008, the OIG issued a
                                 the agency take appropriate disciplinary
                                                                                       report describing the ﬁndings of its
                                 action, up to and including dismissal against
                                                                                       investigation. The evidence showed that the
                                 the Senior Ofﬁcer, based upon conduct
                                                                                       staff member had been transferred to inactive
                                 described in the previous report of
                                                                                       status in 1994 for his failure to renew his bar

                                                                                 50

SEMIANNUAL REPORT TO CONGRESS
   license. The evidence further indicated that         government parking permit without
                                 the state court disciplinary board notiﬁed the       authorization on one occasion. However, she
                                 employee of his transfer to inactive status and      claimed she infrequently parked in the garage
                                 instructed him to comply with applicable             and that, when she did, she paid the daily
                                 disciplinary rules, which he never did. The          parking rate or the attendants allowed her to
                                 evidence also showed that the employee had           park for free. The OIG found that these
                                 never been admitted to the bar of any other          statements lacked credibility, given the
                                 state.                                               evidence uncovered during the investigation,
                                                                                      and recommended that management take
                                     In addition, the OIG investigation found         disciplinary action against the employee, up to
                                 that during the time period when the staff           and including dismissal.
                                 member had no active bar membership, he
                                 submitted a declaration in Federal court, in              During the current reporting period, the
                                 which he stated that he was an attorney              employee raised allegations that several other
                                 employed by the SEC. We referred the                 staff at SEC Headquarters had been accused
                                 potential false statement or perjury to the          of violating parking rules in the past but had
                                 applicable United States Attorney’s Ofﬁce,           not been referred to the OIG. Speciﬁcally, the
                                 which provided an oral declination of                employee claimed that her supervisor had
                                 prosecution.                                         violated the parking rules and was allowed to
                                                                                      pay back money and avoid a referral to the
                                     While the OIG would have recommended             OIG, but named no other speciﬁc individuals.
                                 appropriate disciplinary action, up to and           Upon learning of these allegations, the OIG
                                 including dismissal, the OIG did not                 performed a supplemental investigation and
                                 recommend disciplinary action due to the             requested that the employee appear for
                                 employee’s retirement. The OIG provided              testimony concerning her allegations about
                                 the report to the Commission’s Ofﬁce of              other employees’ parking violations. Despite
                                 Ethics Counsel for referral to the appropriate       being given a warning requiring her to testify
                                 bar disciplinary board. In addition, as              and immunizing her statements from criminal
                                 described in the section on Advice and               prosecution, the employee refused to answer
                                 Assistance Provided to the Agency, the OIG           any questions concerning the speciﬁc names of
                                 recommended that Commission attorneys be             individuals whom she believed had violated
                                 required to certify their active bar                 the parking rules.
                                 membership status on an annual basis.
                                                                                          After the employee’s refusal to cooperate
                                 Follow-up on Investigation of Misuse                 with the OIG’s supplemental investigation, an
                                 of Government Parking Permit                         OIG investigator interviewed the supervisor
                                                                                      identiﬁed as violating the parking rules, who
                                     In an investigation completed during the
                                                                                      denied ever taking a parking pass without
                                 previous semiannual period, the OIG found
                                                                                      permission or otherwise violating SEC
                                 signiﬁcant evidence that an employee had
                                                                                      parking rules. The OIG investigator also
                                 misused a government parking permit for her
                                                                                      interviewed this individual’s supervisor and
                                 personal parking on numerous occasions.              another long-term SEC employee and found
                                 When interviewed during the investigation,
                                                                                      no evidence that other individuals had
                                 the employee admitted taking and using a
                                                                                      engaged in misconduct similar to the


                                                                                51

SEMIANNUAL REPORT TO CONGRESS
   employee’s misconduct but were allowed to           supervisor, and took sworn, on-the-record
                                 avoid referral to the OIG. The OIG issued a         testimony of the employee himself.
                                 supplemental report of investigation on May
                                 23, 2008, again recommending that the                   On July 18, 2008, the OIG issued its
                                 agency take disciplinary action against the         report of investigation setting forth in detail
                                 employee, up to and including dismissal, for        the evidence uncovered during the
                                 the conduct described in the previous report        investigation and recommending disciplinary
                                 of investigation. The OIG also recommended          action, up to and including dismissal. Based
                                 that the agency consider adding another             on the OIG’s report of investigation,
                                 charge against the employee for her refusal to      management suspended the employee from
                                 cooperate with an ofﬁcial OIG investigation.        duty and pay for nine calendar days.
                                 Management removed the employee based
                                 upon the results of the OIG’s initial and               In the second OIG investigation
                                 supplemental investigations.                        conducted during the reporting period
                                                                                     concerning an employee using Commission
                                 Investigations into Misuse of                       resources to operate a private photography
                                 Government Resources and Official                   business, the OIG found evidence that the
                                 Time to Operate Private Photography
                                 Businesses                                          employee repeatedly used Commission
                                                                                     resources and ofﬁcial time in support of his
                                     During the reporting period, the OIG            photography business, and maintained over a
                                 conducted two simultaneous investigations           hundred photographs on his SEC computer.
                                 into whether employees in different                 There was substantial evidence that the
                                 Commission ofﬁces misused government                employee used Commission resources,
                                 resources and ofﬁcial time to support private       including Internet access, e-mail, and
                                 photography businesses. Both matters arose          telephone, during work hours.
                                 out of an investigation conducted during the
                                 previous reporting period that found evidence            In making its ﬁndings, the OIG obtained
                                 that an employee had used substantial               and reviewed the employee’s e-mails for a
                                 government resources and time for a private         12-month period, as well as images and ﬁles
                                 photography business.                               copied from the hard drive of his SEC
                                                                                     computers. The OIG also reviewed the
                                     In one of the matters investigated during       employee’s Ofﬁcial Personnel Folder and
                                 this reporting period, the OIG investigation        conduct ﬁle, ﬁnding evidence that the
                                 uncovered abundant evidence that an                 employee was previously reprimanded for
                                 employee repeatedly and ﬂagrantly used              misusing government computer resources and
                                 Commission resources, including Commission          ofﬁcial time. OIG investigators interviewed
                                 Internet access, e-mail, telephone and printer,     several Commission staff and took the sworn,
                                 in support of his private photography business      on-the-record testimony of the subject
                                 for several years. To obtain this evidence, the     employee. On July 28, 2008, the OIG issued
                                 OIG reviewed the employee’s e-mails for a 12        its report of investigation, ﬁnding evidence of
                                 month period, and obtained images and ﬁles          misuse of government ofﬁce equipment and
                                 from the employee’s computer hard drive.            ofﬁcial time and recommending disciplinary
                                 Further, the OIG reviewed the employee’s            action. Based upon the OIG’s ﬁndings,
                                 Ofﬁcial Personal Folder, interviewed several        management suspended the employee from
                                 Commission staff, including the employee’s          duty and pay for 14 calendar days.

                                                                               52

SEMIANNUAL REPORT TO CONGRESS
   Investigations and Inquiries into                      management on July 9, 2008. Because of the
                                 Misuse of Computer Resources to                        serious nature of the misconduct and the fact
                                 View Pornography                                       it occurred during the employee’s
                                     During the reporting period, the OIG               probationary period, the OIG recommended
                                 continued to receive from the agency’s Ofﬁce           that management take disciplinary action
                                 of Information Technology (OIT) lists of               against the employee, up to and including
                                                                                        dismissal. Based upon the OIG’s ﬁndings,
                                 agency employees who had numerous
                                 attempts to access pornographic websites from          management informed the employee that his
                                 their Commission computers that were                   employment would be terminated, and the
                                 blocked by the agency’s Internet ﬁlter, as well        employee resigned.
                                 as instances where they successfully accessed
                                 pornography or inappropriate material.                     In the second investigated matter, the
                                 Depending on the frequency of the accesses             OIG’s examination of logs of an employee’s
                                 and attempted accesses and the nature of the           Internet activity revealed that the employee
                                 material accessed, the OIG conducted a full            had attempted to access websites classiﬁed as
                                 investigation or a more limited inquiry, as            containing pornography, resulting in
                                 discussed below.                                       thousands of access denials. Moreover,
                                                                                        forensic analysis of the employee’s computer
                                     The OIG completed three investigations             hard drive showed hundreds of pornographic
                                 of employees who misused their government              images stored on the drive, some of which
                                 computers to attempt to access and                     were of a very graphic nature. The
                                                                                        investigation also showed that the employee
                                 successfully access pornographic website. In
                                 the ﬁrst of these matters, the OIG uncovered           had succeeded in bypassing the Commission’s
                                 evidence that a employee who was still in his          Internet ﬁlter by accessing pornographic
                                 probationary period had used his SEC laptop            materials through Google images.
                                 computer to attempt to access Internet
                                 websites classiﬁed as containing pornography,              The employee declined to appear for
                                 resulting in hundreds of access denials. The           sworn, on-the-record testimony before the
                                 OIG investigation also disclosed that this             OIG, asserting the Fifth Amendment privilege
                                 employee successfully bypassed the                     against self-incrimination. The OIG issued a
                                 Commission’s Internet ﬁlter by using a ﬂash            detailed report of investigation to
                                 drive and accessed a signiﬁcant number of              management on April 30, 2008,
                                 Internet Google images containing                      recommending disciplinary action against the
                                 pornography while using his SEC computer.              employee, up to and including dismissal.
                                                                                        Based upon the OIG’s report of investigation,
                                     In his sworn, on-the record testimony, the         management suspended the employee for 14
                                                                                        days.
                                 employee admitted that he used his SEC
                                 computer to access and attempt to access
                                 websites containing pornography and other                  In the third investigation conducted
                                 sexually explicit material during work hours.          during the reporting period, the OIG found
                                 He also admitted deliberately turning off the          that, during a one-month period, an employee
                                 ﬁlter in Google to circumvent SEC                      had received numerous access denials for
                                 information technology security protocols.             pornographic websites. The investigation also
                                 The OIG issued a report of investigation to            uncovered evidence that the employee had


                                                                                  53

SEMIANNUAL REPORT TO CONGRESS
   successfully bypassed the Commission’s              employee was removed from the SEC
                                 Internet ﬁlter, thereby accessing a signiﬁcant      contract.
                                 number of pornographic and sexually explicit
                                 images, many of a graphic nature.                       In the other inquiry, the OIG found
                                                                                     evidence that an SEC employee attempted to
                                     The employee appeared for sworn, on-the         access Internet pornography numerous times
                                 record testimony before the OIG and                 using two different Internet Protocol (IP)
                                 admitted using his SEC computer to access           addresses, resulting in hundreds of access
                                 and attempt to access Internet websites             denials, many occurring during normal
                                 continuing pornography and other sexually           Commission work hours. In addition,
                                 explicit material during work hours. The            information provided by OIT showed the
                                 employee further acknowledged that he knew          employee successfully accessed a sexually
                                 his activities violated SEC rules and the           explicit website from his SEC computer. The
                                 Standards of Conduct and attributed his             OIG issued a memorandum report to
                                 actions to a mistake on his part. The OIG           management for consideration of disciplinary
                                 referred the matter to management on August         action. At the time management received the
                                 12, 2008, and recommended appropriate               OIG report, the employee had already
                                 disciplinary action. Management had not             announced that he was resigning to pursue
                                 proposed or taken disciplinary action in            other employment opportunities. Prior to the
                                 response to the recommendation as of the end        employee’s departure, management issued a
                                 of the reporting period.                            memorandum counseling him on his misuse
                                                                                     of government computer resources and
                                     The OIG also completed two inquiries            ofﬁcial time.
                                 into the misuse of SEC computer resources to
                                 view pornography. In one of these matters,          Investigation into Misuse of Computer
                                 the OIG found evidence that a Commission            Resources, Appearance of a Conflict
                                 contract employee received numerous access          of Interest and Lack of Candor
                                 request denials for Internet websites classiﬁed         The OIG opened an investigation after
                                 as containing pornography in a ﬁve-week             receiving a complaint from a city government
                                 period, many of which occurred during               ofﬁce of inspector general alleging that a
                                 normal Commission work hours. Further,              Commission employee misused government
                                 information provided by OIT showed the
                                                                                     resources to represent witnesses in an
                                 contract employee had successfully accessed         investigation being conducted by that ofﬁce,
                                 sexually explicit and sexually suggestive           acted inappropriately in the course of
                                 Internet website that contained nudity from         representing those witnesses and had a conﬂict
                                 his SEC-assigned computer. The contract             of interest because he himself was a witness in
                                 employee acknowledged to an OIG
                                                                                     the investigation. During its investigation, the
                                 investigator that no one else had access to his     OIG obtained and reviewed the subject
                                 computer, which was password protected.             Commission employee’s Ofﬁcial Personnel
                                 The OIG issued a memorandum report on               Folder and conduct ﬁle, as well as his leave
                                 July 2, 2008, and referred the matter for           records for the relevant time period. Further,
                                 consideration of disciplinary action. Based on
                                                                                     the OIG obtained several documents from the
                                 the OIG report, at management’s request, the        city government inspector general’s ofﬁce,
                                                                                     including correspondence with the


                                                                               54

SEMIANNUAL REPORT TO CONGRESS
   Commission employee and recordings of               conﬂict of interest by his outside activities, and
                                 voicemail messages left by the employee. The        to act with full candor and avoid making any
                                 OIG also obtained information from the city         inaccurate or misleading statements in
                                 government inspector general and an ofﬁce           carrying out his ofﬁcial duties. The employee
                                 staff attorney who worked on the investigation      was further directed to notify management, in
                                 in question. The OIG took sworn, on-the             advance, of any instance in which he intends
                                 record testimony of the Commission                  to represent any person or entity (other than
                                 employee.                                           the SEC) as an attorney during the continuing
                                                                                     course of his employment with the SEC.
                                      The investigation revealed that the
                                 employee misused SEC resources by using his         Investigation of Complaint of Order to
                                 SEC telephone and facsimile machine on              Falsify a Government Record
                                 several occasions during the workday in his
                                                                                          The OIG investigated a complaint that a
                                 representation of witnesses in the city
                                                                                     Commission supervisor had directed his
                                 government inspector general investigation.
                                                                                     subordinate to knowingly and deliberately
                                 Further, the OIG found that the employee
                                                                                     falsify information used in an ofﬁcial
                                 failed to consider the appearance of conﬂicts
                                                                                     government report in an effort to mislead or
                                 of interest in the course of his representation
                                                                                     impede government ofﬁcials in the course of
                                 of witnesses in that matter, particularly when
                                                                                     their duties. The orders to falsify government
                                 he used his SEC telephone and facsimile
                                                                                     records were allegedly given during the course
                                 number in communications with a bank
                                                                                     of a dispute between the supervisor and the
                                 concerning the city government inspector
                                                                                     employee about how to report certain test
                                 general’s subpoena for the bank records of
                                                                                     data. The OIG took the sworn on-the-record
                                 one of his clients. The OIG also found the
                                                                                     testimony of the supervisor and the
                                 employee lacked candor during his SEC OIG
                                                                                     subordinate and interviewed other relevant
                                 testimony. While this testimony took place less
                                                                                     witnesses. The OIG also reviewed numerous
                                 than a year after the alleged wrongdoing
                                                                                     pertinent documents provided by the
                                 occurred, the employee implausibly failed to
                                                                                     witnesses.
                                 recall basic facts about his representation of
                                 his clients in the city government inspector
                                                                                         On July 30, 2008, the OIG issued a report
                                 general investigation.
                                                                                     of investigation to management discussing in
                                                                                     detail the results of the investigation. The
                                      On August 4, 2008, the OIG issued a
                                                                                     OIG found the complaint that the supervisor
                                 report of investigation to management and
                                                                                     ordered the subordinate to falsify a
                                 recommended appropriate disciplinary action
                                                                                     government record in order to deceive
                                 of the employee, based upon his misuse of
                                                                                     government ofﬁcials was without foundation
                                 government resources, the appearance of a
                                                                                     or merit. The OIG investigation did disclose,
                                 conﬂict of interest, and his lack of candor
                                                                                     however, that in large part due to the incident
                                 during this SEC OIG testimony. Thereafter,
                                                                                     that precipitated the complaint, there was a
                                 management met with the employee and
                                                                                     high level of tension between the supervisor
                                 provided him a written counseling
                                                                                     and subordinate, negatively impacting the
                                 memorandum, admonishing him to be
                                                                                     ofﬁce’s ability to perform its functions. The
                                 cognizant of the prohibitions on the misuse of
                                                                                     OIG recommended that management take
                                 Commission resources, to be particularly
                                                                                     prompt and effective measure to address the
                                 sensitive to creating the appearance of a

                                                                               55

SEMIANNUAL REPORT TO CONGRESS
   current personnel situation within this ofﬁce.      cases being closed were part of an agency-
                                 Thereafter, management proposed to suspend          wide initiative to close out cases in which no
                                 the subordinate for conduct unbecoming a            action had been or would be brought and
                                 Federal employee for reasons both related and       obtained no evidence that any attorneys were
                                 unrelated to the OIG investigation, and the         instructed to close cases based on false
                                 supervisor resigned to accept a position at         certiﬁcations.
                                 another agency.
                                                                                         The OIG also found no evidence to
                                 Investigation of Alleged Unethical                  support the allegation that the manager did
                                 Instructions to Close Cases                         not actively purse Enforcement cases, but did
                                 and Failure to Pursue Investigations
                                                                                     ﬁnd instances of ineffective management on
                                     During an investigation conducted during        his part. The OIG further found a lack of
                                 the period, the OIG reviewed several                effective communication between
                                 allegations of misconduct by management,            management and staff that engendered an
                                 including that (1) staff attorneys were             atmosphere of fear, frustration and confusion
                                 unethically instructed to close older cases by      among the part of many staff interviewed in
                                 making false certiﬁcations, (2) a manager           the investigation. The OIG recommended
                                 refused to pursue particular types of               that management take strong and effective
                                 investigations and many investigations              measures to improve communication with
                                 languished on his desk, and (3) cases were          staff, particularly in the case decision–making
                                 improperly closed without the staff attorneys       process, and to alleviate staff fear of
                                 who worked on the investigation being               retaliation by management. Management
                                 informed of the reasons for the closure. In         informed us that they have taken steps to
                                 order to pursue the allegation of unethical         improve the way in which managers
                                 instructions to close older cases, the OIG          communicate with staff, particularly in
                                 obtained and analyzed detailed reports              connection with decisions to close cases.
                                 concerning closed investigations, open
                                 investigations that had been pending for            Misuse of Government Resources and
                                 several years, and the staff assigned to these      Time by a Contract Employee
                                 investigations. An OIG investigator                     During this reporting period, the OIG
                                 personally interviewed eight staff attorneys        conducted an investigation into a complaint
                                 and took the on-the record, sworn testimony         that a Commission-employed contractor was
                                 of another staff attorney. Many of these staff      using her SEC-assigned computer and other
                                 attorneys expressed fear of retaliation and         SEC resources to obtain personal information
                                 requested conﬁdentiality. The OIG also took         about the complainant and to harass her. At
                                 the on-the-record, sworn testimony of four          the OIG’s request, the Ofﬁce of Information
                                 supervisors and interviewed another                 Technology analyzed the contract employee’s
                                 supervisor by telephone.                            computer search history for evidence
                                                                                     concerning the complainant and provided the
                                     The OIG issued a report summarizing the         OIG with the results of its analysis. The OIG
                                 results of its investigation on April 18, 2008.     also interviewed the complainant several times
                                 The OIG found that the allegations of               telephonically, and took the sworn, on-the
                                 misconduct were not substantiated.                  record testimony of the contractor.
                                 Speciﬁcally, the OIG found that the older


                                                                               56

SEMIANNUAL REPORT TO CONGRESS
       On August 14, 2008, the OIG issued its           an individual under investigation for insider
                                 report of investigation, ﬁnding that the             trading had obtained a nonpublic list of
                                 contractor admitted to using her SEC                 Enforcement investigations involving a
                                 computer to search the Internet for personal         particular type of violation and contemplated
                                 information about the complainant, including         selling the list. The OIG coordinated its
                                 her home address, and to send one text               efforts with the Division of Enforcement and
                                 message to the complainant. The                      the applicable United States Attorney’s Ofﬁce,
                                 investigation, however, did not disclose             reviewed relevant spreadsheets and databases
                                 evidence that the contractor harassed or             and requested a search for pertinent e-mails.
                                 threatened the complainant. In response to           While the OIG’s inquiry was pending, it was
                                 the OIG investigation, management provided           disclosed that the individual in question had
                                 the contractor with a counseling                     obtained the case list from a reporter and
                                 memorandum, warning her about the SEC’s              there was no indication that any SEC staff
                                 policy on the use of government ofﬁce                members had leaked the case list.
                                 equipment, including the Internet, and
                                 cautioned her that a future violation of this             At the request of a United States Senator,
                                 policy could result in formal discipline.            the OIG conducted an inquiry into a
                                                                                      complaint that Commission Regional Ofﬁce
                                 Other Inquiries Conducted                            Enforcement staff had improperly failed to
                                                                                      bring an action against a particular individual.
                                     During the period, the OIG also                  The OIG interviewed a Commission attorney
                                 completed inquiries into numerous additional         who was involved in the matter and reviewed
                                 matters brought to its attention, the most           relevant e-mails and other documents. The
                                 signiﬁcant of which are described below.             OIG’s inquiry disclosed that Enforcement staff
                                                                                      had thoroughly reviewed the materials and
                                      An OIG inquiry reviewed a complaint             information provided by the complainant. We
                                 that the Commission’s use of an identiﬁcation        also learned that the Commission brought a
                                 token for remote access to the Commission’s          securities fraud action against one individual
                                 computer system violated the complainant’s           in the matter, but that Enforcement staff
                                 patent. During the inquiry, we interviewed an
                                                                                      made a discretionary judgment, based upon
                                 SEC information technology security ofﬁcial          its review of all available information, not to
                                 and learned that the Commission purchases            pursue any additional Enforcement action.
                                 its remote access tokens from an outside             We provided a response to the Senator
                                 vendor, and reviewed a copy of a recent task         informing him of the results of our inquiry.
                                 order for tokens. Our inquiry disclosed that
                                 the SEC purchases its tokens from a
                                                                                          The OIG conducted an inquiry into
                                 commercial vendor through a General
                                                                                      allegations that a staff member had been
                                 Services Administration schedule contract and
                                                                                      misusing her SEC e-mail account to send
                                 that the tokens purchased by the SEC
                                                                                      personal e-mails containing sexual innuendo
                                 appeared to be protected by patents that
                                                                                      to the complainant’s husband. We obtained
                                 predated the complainant’s patent.
                                                                                      one of the allegedly inappropriate e-mails
                                                                                      from the complainant and obtained and
                                    Another inquiry concluded in the                  reviewed the employee’s e-mails for a four-
                                 semiannual period involved an allegation that        month period. The inquiry disclosed that the


                                                                                57

SEMIANNUAL REPORT TO CONGRESS
   employee sent only two e-mails to the               producing and publishing the brochures,
                                 complainant’s husband during the four-month         including the ofﬁce director who had allegedly
                                 period, and neither contained inappropriate         ordered the brochures to be redone. The
                                 sexual content. As such, we found insufﬁcient       OIG inquiry found no evidence that
                                 evidence of misuse of the SEC’s e-mail system       brochures were being discarded and not used
                                 to warrant further investigation of the             because they contained the prior ofﬁce name.
                                 complaint.                                          In addition, the inquiry disclosed that while
                                                                                     there was a project underway to give all ofﬁce
                                      The OIG concluded its inquiry into a           publications a consistent and upgraded
                                 complaint that a Commission senior attorney         appearance, the plan was being implemented
                                 failed to consider seriously the complainant’s      in phases and would not result in undue waste.
                                 claim of perjury in a self-regulatory
                                 organization (SRO) arbitration proceeding
                                 that took place approximately ten years ago.        PENDING INVESTIGATIONS AND
                                 The OIG contacted staff of the SRO and              INQUIRIES
                                 obtained and reviewed relevant
                                                                                     Possible Violations of Rules Governing
                                 correspondence provided by the SRO. An              Employee Securities Transactions
                                 OIG investigator also reviewed the ﬁles of
                                 SEC staff pertinent to the matter. The OIG              The OIG is continuing its investigation
                                 provided a detailed letter to the complainant       into an allegation that an employee had a high
                                 describing the substantial work performed and       volume of personal securities trading, raising
                                 the results of the inquiry.                         suspicions that the employee may have
                                                                                     violated the Commission’s rules governing
                                     The OIG inquired into a complaint that          employee securities transactions. During the
                                 an outside individual who was being                 course of its investigation, the OIG identiﬁed
                                 considered for a senior position within one of      a second employee who may have engaged in
                                 the Commission’s divisions had a prior felony       similar behavior.
                                 conviction that he had failed to report as a
                                 registered broker-dealer. The OIG’s inquiry             OIG investigators have completed a
                                 disclosed that while this individual’s name had     comprehensive review and analysis of more
                                 surfaced in the press as a possible candidate       than two years of these employees’ brokerage
                                 for the position, he had, in fact, not applied      records, the employees’ required reports on
                                 for the position.                                   those transactions, and their case assignments.
                                                                                     The OIG has also reviewed the employees’
                                     The OIG also performed an inquiry into a        Commission e-mails for a substantial time
                                 complaint that SEC brochures were being             period, and found and analyzed numerous
                                 discarded merely because they contained a           e-mails discussing stocks and securities
                                 prior ofﬁce name, resulting in undue waste. It      transactions sent from their SEC computers.
                                 was further alleged that numerous brochures         In addition, the OIG has interviewed or taken
                                 and publications were being redone to give          sworn testimony of several Commission
                                 them a new look, without any substantive            managers and staff, and will soon be taking
                                 changes to the content. The OIG interviewed         the sworn, on-the-record testimony of the
                                 several witnesses in the ofﬁces responsible for     subjects in this matter.




                                                                               58

SEMIANNUAL REPORT TO CONGRESS
        In this investigation, the OIG is                documents, contract task orders, reports and
                                 determining whether the subject employees:            evaluations regularly provided under the
                                 (1) obtained Commission clearance for each            contract, and relevant procedures. In
                                 transaction; (2) reported and traded those            addition, the investigators have interviewed
                                 transactions within the required time periods         the whistleblower, several Commission staff
                                 after obtaining clearance, (3) properly               and employees of the other Federal agency
                                 reported their assets and securities on an            who have relevant information. The OIG has
                                 annual reporting form; and (4) held those             obtained and begun to review hundreds of
                                 securities for the required periods of time.          thousands of e-mails for relevant evidence.
                                 The OIG is also focusing on whether these             The investigators have also requested all
                                 employees violated Commission                         documentation supporting the award fees
                                 conﬁdentiality requirements by discussing             from the contractor.
                                 nonpublic information with each other, or
                                 others outside the Commission.                        Complaint of False Statement in
                                                                                       Previous OIG Investigation
                                     Additionally, the OIG is reviewing the
                                                                                           The OIG is continuing its investigation
                                 evidence obtained in the investigation to
                                                                                       into a complaint that a Commission employee
                                 determine whether these employees may have
                                                                                       made a false statement to the OIG in the
                                 engaged in any trades based on nonpublic
                                                                                       course of its initial investigation of the
                                 information they learned during the course of
                                                                                       allegations made by a former Commission
                                 their Commission work, from SEC resources,
                                                                                       attorney. The alleged false statement
                                 or from discussions with other employees. As
                                                                                       concerned the disposition of the former
                                 part of its investigation, the OIG is also
                                                                                       attorney’s original employee personnel folder
                                 reviewing the adequacy of the Commission’s
                                                                                       after he was terminated and whether copies
                                 procedures for reporting and monitoring
                                                                                       were maintained. During the reporting
                                 employees’ securities transactions and plans to
                                                                                       period, the Inspector General took additional
                                 make recommendations for improvements in
                                                                                       sworn, on-the-record testimony from the
                                 those procedures as appropriate.
                                                                                       complainant and one additional witness. The
                                                                                       Inspector General plans to take the testimony
                                 Whistleblower Allegations of                          of the subject of the investigation and ﬁnalize
                                 Falsification of Contract Documents
                                                                                       this investigation during the next reporting
                                     The OIG is conducting a joint                     period.
                                 investigation with a Special Agent from
                                 another Federal agency Ofﬁce of Inspector             Complaints of Unprofessional Conduct
                                 General and a United States Attorney’s Ofﬁce          by Commission Contractor and
                                                                                       Employee
                                 into allegations made by a whistleblower that
                                 a contractor manipulated data in order to                 The OIG is conducting an investigation
                                 increase the millions of dollars of award fees it     based upon two anonymous complaints
                                 had obtained from the SEC over a period of            alleging that a Commission contractor and a
                                 several years. The investigators have obtained        Commission employee with oversight
                                 and reviewed hundreds of documents                    responsibility for the contract engaged in
                                 pertaining to the contract, including audit           unprofessional and inappropriate conduct in




                                                                                 59

SEMIANNUAL REPORT TO CONGRESS
   the workplace. Both complaints also alleged           Allegations of Unauthorized Disclosure
                                 that the contractor was arrested during his           by Former Employee and Improper
                                 non-work hours for an offense that negatively         Enforcement Investigation
                                 impacted his ability to carry out his                     The OIG has a pending investigation into
                                 Commission-related duties.                            an allegation made in a recently-published
                                                                                       book that a former SEC attorney may have
                                     The OIG has conducted extensive                   taken conﬁdential investigative materials with
                                 investigation into the allegations in the             him when he left the Commission and
                                 anonymous complaints. Speciﬁcally, the OIG            provided those materials to a company he
                                 interviewed a Commission staff member and             went to work for as a lobbyist. It was also
                                 numerous contract employees. The OIG also             alleged in the book that the SEC failed to
                                 took on-the-record, sworn testimony of the            conduct an adequate investigation after the
                                 two subjects of the investigation. An OIG             author presented evidence of fraud by an
                                 investigator obtained relevant information and        afﬁliate of this company and instead
                                 documents from the United States Capitol              investigated the complainant for spreading
                                 Police and the District of Columbia                   negative views about the company. The OIG
                                 Metropolitan Police Department and                    has obtained and reviewed the book
                                 interviewed two police detectives.                    containing the allegations, as well as other
                                 Additionally, the OIG obtained and reviewed           relevant documents. The OIG plans to
                                 several months of e-mails for each subject.           conduct a thorough investigation into the
                                 The OIG plans to ﬁnalize the investigation            allegations of unauthorized disclosure and
                                 during the upcoming reporting period.                 improper investigation.

                                 Allegations of Perjury by a                           Complaint of Management Retaliation
                                 Commission Manager and Receiver                       Against Staff and Travel Abuse
                                 Conflict of Interest
                                                                                            The OIG is conducting an investigation as
                                     The OIG has a pending investigation into          a result of an internal complaint alleging
                                 allegations that a Commission manager                 retaliation by management in a Regional
                                 committed perjury in a letter to a Senator that       Ofﬁce for employees’ objections to policy and
                                 discussed the issue of naked short selling in         management decisions in that ofﬁce. The
                                 the context of a particular Enforcement               complaint further alleged irregularities in two
                                 matter and also lied to the Federal court in          trips that management authorized to be taken
                                 which the case was pending. The OIG is also           by staff at government expense. An OIG
                                 reviewing an allegation that the court-               investigator has obtained and reviewed
                                 appointed receiver in the matter had an               relevant e-mails and documents pertaining to
                                 improper conﬂict of interest. An OIG                  the ofﬁce in question. The OIG plans to
                                 investigator interviewed the complainant and          obtain additional travel records and take
                                 other individuals with knowledge of the issues        testimony from or interview several staff with
                                 and took the sworn-on the-record testimony of         knowledge of the allegations.
                                 the manager who allegedly committed perjury.
                                 The OIG plans to complete the investigation
                                 during the next reporting period.




                                                                                 60

SEMIANNUAL REPORT TO CONGRESS
   Allegations of Misuse of Resources                  to management during the next reporting
                                 and Official Time to Support Private                period.
                                 Businesses

                                     In addition to the several completed            Allegation of Conflict of Interest on the
                                                                                     Part of a Senior Manager
                                 investigations of misuse of government
                                 resources and ofﬁcial time to support private           The OIG is conducting an investigation of
                                 businesses, the OIG is continuing to                an allegation that a Commission Senior
                                 investigate whether another employee violated       Ofﬁcer was involved in the decision to hire a
                                 Commission and government-wide rules and            contractor with whom he had a past
                                 regulations by using Commission resources           relationship, even though the contractor was
                                 and time to support a private photography           not the lowest bidder in the procurement
                                 business. The OIG has reviewed numerous             process. An OIG investigator has obtained
                                 months of the employee’s e-mails and has            and reviewed relevant documents, such as the
                                 interviewed several Commission staff in             inter-agency agreement at issue and the
                                 connection with this investigation. The OIG         Senior Ofﬁcer’s personnel documents, and has
                                 has also taken the subject’s sworn, on-the          conducted Internet searches relating to the
                                 record testimony. The OIG plans to make a           contractor and any potential connection with
                                 recommendation to management in this                the Senior Ofﬁcer.
                                 matter shortly. Further, the OIG has several
                                 pending inquiries to determine whether other            OIG investigators also conducted
                                 individuals identiﬁed as having private             interviews of several witnesses and individuals
                                 photography and other businesses have               with knowledge and oversight of the contract,
                                 misused Commission resources and time in            as well as the Senior Ofﬁcer named in the
                                 furtherance of those businesses.                    complaint. The OIG will ﬁnalize the matter
                                                                                     in the next reporting period.
                                 Complaint of Perjury and Retaliation
                                 by Regional Office Managers                         Allegations of Conflict of Interest and
                                                                                     Investigative Misconduct
                                     The OIG is investigating a complaint
                                 alleging misconduct on the part of senior and           The OIG is continuing to investigate
                                 mid-level managers in a Commission Regional         allegations that a Commission supervisory
                                 Ofﬁce during the course of a previously-            attorney participated in an investigation
                                 conducted OIG investigation, including an           notwithstanding a personal conﬂict of interest
                                 allegation that these managers may have             that required his recusal from the
                                 provided perjurious testimony. The complaint        investigation, and that various misconduct
                                 also alleged retaliation by certain senior          occurred during the course of the
                                 managers because the complainant provided           investigation and subsequent litigation.
                                 information to the Senate Finance Committee         During this reporting period, the OIG took
                                 in connection with an inquiry involving a           the sworn, on-the-record testimony of the
                                 different OIG investigation. The OIG has            complainant and a former Commission
                                 taken the testimony of all relevant witnesses,      attorney who worked on the matter. The
                                 including the complainant, and has obtained         OIG also interviewed an attorney who
                                 and reviewed numerous documents. The                previously represented the complainant and
                                 OIG expects to issue its report of investigation    obtained numerous months of e-mails of the


                                                                               61

SEMIANNUAL REPORT TO CONGRESS
   attorneys who worked on the matter. The              subsequently reporting the alleged misconduct
                                 OIG plans to continue to review the e-mails          to a senior manager. The OIG has obtained
                                 obtained and to take the sworn, on-the record        and reviewed numerous relevant documents,
                                 testimony of the subjects of the investigation.      including e-mails, and is continuing to obtain
                                                                                      and review additional documents. The OIG
                                 Allegation of Retaliatory Investigation              has communicated in detail with the
                                                                                      complainant, and plans to take the
                                     The OIG is investigating an allegation that      complainant’s sworn, on-the-record testimony.
                                 Commission staff engaged in a retaliatory            The OIG further plans to interview former
                                 investigation of a company after it publicly         and current co-workers who have relevant
                                 complained about naked short selling. During         information concerning the alleged abuse of
                                 this reporting period, the OIG took extensive        position, and take the sworn, on-the-record
                                 sworn, on-the-record testimony of the                testimony of the subject and the female
                                 complainant and reviewed certain relevant            subordinate.
                                 documents. The OIG plans to interview
                                 additional witnesses identiﬁed by the                Allegations of Repeated Time and
                                 complainant and to take the sworn, on-the            Attendance Abuse and Misuse of
                                 record testimony of the Commission attorneys         Government Resources
                                 who worked on the matter.
                                                                                          The OIG is conducting an investigation
                                                                                      into allegations of long-standing and ongoing
                                 Allegation of Leak of Confidential
                                 Document to the Press                                time and attendance abuse by a Commission
                                                                                      employee, as well as the misuse of government
                                     The OIG is investigating an allegation that      resources. The complaint received by the
                                 Commission staff committed an unauthorized           OIG speciﬁcally alleges that an employee has
                                 disclosure of nonpublic Commission                   repeatedly not taken leave for time when he
                                 information to a national news outlet. The           has been absent from the work place and that
                                 OIG’s investigative efforts will focus on the        he has also been using government equipment
                                 circumstances surrounding the leak of this           and resources for personal purposes to an
                                 information to a newspaper, the nature of the        excessive degree or for ﬁnancial gain.
                                 information that was disclosed and the extent
                                 of the harm caused by the leak.                          The OIG has obtained numerous
                                                                                      documents in the course of its investigation,
                                 Complaint of Favoritism, Abuse of                    including the employee’s leave slips, building
                                 Position and Retaliation by a Manager                access records, computer log-in and log-off
                                                                                      records, and Internet usage records. Further,
                                     The OIG is investigating a complaint
                                                                                      the OIG has obtained and reviewed the
                                 alleging lack of impartiality, abuse of position
                                                                                      subject’s e-mail records for the time period
                                 and retaliation by a Commission manager.
                                                                                      that is the focus of the investigation. The
                                 Speciﬁcally, the OIG is investigating whether        OIG has also reviewed a special
                                 the subject was involved in a romantic
                                                                                      accommodation that was granted to the
                                 relationship with a female subordinate at the
                                                                                      employee and has interviewed his supervisors.
                                 time he promoted her, and whether the
                                                                                      The OIG is undertaking efforts to secure the
                                 complainant was retaliated against for




                                                                                62

SEMIANNUAL REPORT TO CONGRESS
   subject’s testimony before issuing its report of              with notices requiring the preservation
                                 investigation to management.                                  of documents for litigation;
                                                                                          •"   a complaint that Commission staff
                                 Other Pending Inquiries                                       falsely represented to a court that
                                                                                               subpoenas had been served on a indi
                                     The OIG has several other pending                         vidual when they had not been served,
                                 inquiries that it plans to continue to review                 and failed to correct the record after a
                                 during the next reporting period. These                       state court found the subpoenas had
                                 include inquiries into:                                       not been served;
                                                                                          •"   whether Commission staff members
                                                                                               improperly provided information
                                 •"   various allegations of misconduct on
                                                                                               about a claimed whistleblower to a
                                      the part of Commission staff and a
                                                                                               law ﬁrm representing the investment
                                      court-appointed receiver that were
                                                                                               bank that had terminated that indi
                                      made by the subject of a Commission
                                                                                               vidual; and
                                      Enforcement proceeding;
                                                                                          •"   allegations that Commission attorneys
                                 •"   a complaint that a Commission-issued
                                                                                               made multiple false representations to
                                      Blackberry was sold on eBay;
                                                                                               a court, thereby improperly obtaining
                                 •"   allegations that a Commission attor
                                                                                               a judgment.
                                      ney continued to send inappropriate
                                      e-mails after being disciplined for that
                                      type of behavior and failed to comply




                                                                                    63

64

U.S. Securities and Exchange Commission


                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           REVIEW OF LEGISLATION 

                                           AND REGULATIONS
                                               During the reporting period, the OIG            example, in the audit performed of the
                                           reviewed legislation and proposed and ﬁnal          Broker-Dealer Risk Assessment Program
                                           rules and regulations relating to the programs      (Report No. 446-B, issued September 25,
                                           and operations of the Commission, pursuant          2008), the OIG reviewed the temporary rules
                                           to Section 4(a)(2) of the Inspector General         governing the program (Rules 17h-1T and
                                           Act. As is discussed in detail in the Section on    17h-2T) that had been adopted in 2002. The
                                           Advice and Assistance provided to the Agency,       OIG found that these temporary rules had
                                           the OIG provided comments on several                not been ﬁnalized or updated and
                                           proposed internal regulations and procedures.       recommended appropriate corrective action.
                                           These included, among others, the revised           In a related audit of the Consolidated
                                           regulation on use of SEC ofﬁce equipment            Supervised Entity (CSE) Program (Report No.
                                           (SEC Regulation (SECR) 24.4.3), a draft             446-A, issued September 25, 2008), the OIG
                                           Operating Directive (OD) on Privacy Incident        reviewed the rule amendments that
                                           Management (OD 24-08.04), a draft                   established the CSE program and
                                           Implementing Instruction (II) on Privacy            recommended that the Division of Trading
                                           Incident Response Capability (II 24-08.04.01),      and Markets either comply with an existing
                                           and the Division of Enforcement’s draft             rule requirement or seek Commission
                                           policies and procedures governing the               approval for a deviation from that
                                           selection of receivers, fund administrators,        requirement. Additionally, in audits
                                           independent distribution consultants, tax           conducted of the agency’s premium travel
                                           administrators and independent consultants.         and government purchase card programs, the
                                                                                               OIG reviewed the requirements of pertinent
                                               In addition, the OIG reviewed statutes,         federal and agency regulations and
                                           rules and regulations and requirements, and         recommended that the agency’s policies,
                                           their impact on Commission programs and             procedures and internal regulations be
                                           operations, within the context of several           appropriately updated and revised.
                                           audits conducted during the period. For

                                                                                         65

SEMIANNUAL REPORT TO CONGRESS
      The OIG also tracked legislation that           Efﬁciency (ECIE). In particular, the OIG
                                 would impact the Inspector General                 reviewed and assessed the impact on the OIG
                                 community, in coordination with the                and the agency of the Inspector General
                                 Legislation Committee of the President’s           Reform Act of 2008 (H.R. 928) and the
                                 Council on Integrity and Efﬁciency (PCIE)          Government Accountability Ofﬁce Act of
                                 and the Executive Council on Integrity and         2008 (H.R. 5683).




                                                                              66

U.S. Securities and Exchange Commission


                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                              Ofﬁce of
                                             Inspector
                                              General




                                                         STATUS OF RECOMMENDATIONS WITH
                                                             NO MANAGEMENT DECISIONS
                                            Management decisions have been made on all audit reports issued
                                                    before the beginning of this reporting period.


                                                          REVISED MANAGEMENT DECISIONS

                                                 No management decisions were revised during the period.


                                             AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                           The Office of Inspector General agrees with all significant management
                                                        decisions regarding audit recommendations.



                                                  INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                            67

68

SEMIANNUAL REPORT TO CONGRESS
                                Table 1
                                List of Reports: Audits, Evaluation and
                                Inspections
                                 Audit / Evalua-
                                tion / Inspection                    Title                  Date Issued
                                     Number
                                                      Inspection of Corporation Finance
                                      433                                                   Sep 30, 2008
                                                           Referrals, Memorandum
                                                        Internal Control Review of the
                                      440                                                   Sep 18, 2008
                                                     Government Purchase Card Program
                                                     SEC’s Oversight of Bear Stearns and
                                    446-A            Related Entities: The Consolidated     Sep 25, 2008

                                                         Supervised Entity Program
                                                     SEC’s Oversight of Bear Stearns and
                                    446-B            Related Entities: Broker-Dealer Risk   Sep 25, 2008

                                                            Assessment Program

                                      447                  Audit of Premium Travel          Sep 29, 2008



                                      449            Survey of Enforcement’s Hub System     Sep 29, 2008



                                      451           2008 FISMA Executive Summary Report     Sep 29, 2008




                                                                    69

70

                                Table 2
SEMIANNUAL REPORT TO CONGRESS


                                Reports Issued with Costs Questioned 

                                or Funds Put to Better Use
                                (including disallowed costs)

                                                                                                Number of
                                                                                                             Value
                                                                                                 Reports
                                A. REPORTS ISSUED PRIOR TO THIS PERIOD

                                  For which no management decision had been
                                      made on any issue                                                 0             0
                                  For which some decisions had been made on some issues                 2   $153,452.48


                                B. REPORTS ISSUED DURING THIS PERIOD

                                                                                                        1     $5,604.00
                                   Audit of Premium Travel (Audit No. 447)


                                TOTAL OF CATEGORIES A AND B                                             3   $159,056.48


                                C. For which final management decisions were made during this
                                        period                                                          0         $0.00


                                D. For which no management decisions were made during this
                                        period                                                          1     $5,604.00


                                E. For which management decisions were made on some issues
                                                                                                        0            0
                                       during this period

                                TOTAL OF CATEGORIES C, D AND E                                          1     $5,604.00




                                                                              71

72

SEMIANNUAL REPORT TO CONGRESS

                                 Table 3
                                 REPORTS WITH RECOMMENDATIONS
                                 ON WHICH CORRECTIVE ACTION HAS
                                 NOT BEEN COMPLETED
                                                 RECOMMENDATIONS OPEN 180 DAYS OR MORE


                                    Audit/Inspection #           Issue Date                 Summary of Recommendation
                                         and Title

                                 365 - IT Capital Investment     3/29/2004          Publish a charter for the Information Officers
                                 Decision-Making Follow-Up                          Council.


                                 393 - Software Management       3/24/2005          Enhance manual controls for software
                                                                                    management.


                                                                                    Implement preventive controls for software
                                                                                    management.


                                                                                    Develop written policies and procedures for
                                                                                    software management.


                                                                                    Perform periodic inventories of software and
                                                                                    hardware.


                                                                                    Develop procedures for software acquired by
                                                                                    contractors.


                                 395 - Integrity Program:        3/31/2005          Complete the development of an employee
                                 Inspection of Field Offices                        manual.


                                 402 - Office of the Secretary   9/20/2005          Develop a regulation involving updating and
                                                                                    posting public company forms on the Commission's
                                                                                    website.

                                 406 - Federal Information       9/28/2005          Conduct Privacy Impact Assessments (PIAs) for all
                                 Security Mangement Act                             Privacy Act systems.
                                 2005

                                 412 - Oversight of the          9/28/2006          Review the Public Company Accounting Oversight
                                 PCAOB                                              Board's (PCAOB) disaster contingency plan.




                                                                              73

                                    Audit/Inspection #        Issue Date                Summary of Recommendation
SEMIANNUAL REPORT TO CONGRESS


                                         and Title

                                                                                Develop procedures for several PCAOB oversight
                                                                                issues.


                                 417 - Systems Security       3/22/2007         Ensure analysis of security impact for system
                                 Evaluation – Blue Sheets                       modifications.


                                 421 - Investment Company     9/25/2007         Develop outcome-based performance indicators for
                                 Disclosure Initiatives                         disclosure initiatives.


                                 422 - Backlog of FOIA        3/30/2007         Develop a tracking system for comment letter
                                 Requests for Comment                           postings.
                                 Letters

                                 425 - Federal Information    9/18/2006         Improve the identification and documentation of
                                 Security Management Act                        systems.
                                 2006

                                 428 - Electronic Documents   7/25/2007         Issue program guidance.
                                 Program


                                                                                Ensure adequate data loading and quality
                                                                                assurance.


                                                                                Develop written procedures for loading data work
                                                                                from the regional offices.


                                                                                Consider a larger forensics lab.



                                                                                Research connectivity problems with Concordance
                                                                                system.


                                                                                Issue guidance on the preservation of electronic
                                                                                records.


                                                                                Decrease and track imaging turnaround times.



                                                                                Perform background investigations for thirteen
                                                                                identified contract employees.




                                                                           74
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection #          Issue Date             Summary of Recommendation
                                        and Title

                                430 - Contract Ratifications   9/25/2007      Update Commission regulations (i.e., SECR 10-2)
                                                                              to incorporate requirements.


                                                                              Establish procedures to review ratification require-
                                                                              ments submitted by the Office of Administrative
                                                                              Services.

                                                                              Reevaluate procurement in the regional offices.



                                                                              Develop procurement procedures and provide
                                                                              training for the regional offices.


                                                                              Evaluate using debit cards for the regional offices.



                                                                              Finalize expert witness guidelines.



                                                                              Determine necessary training in expert witness
                                                                              contracts.


                                                                              Consider requiring appointment letters for
                                                                              Inspection and Acceptance officials and Point of
                                                                              Contact officials (normally trial attorneys).

                                                                              Add disciplinary language to ratification guidance.



                                                                              Develop procedures to compile contract ratification
                                                                              data semiannually.


                                432 - Oversight of Receivers   12/12/2007     Decide how often and in what format receiver/
                                and Distribution Agents                       distribution agent information should be submitted.


                                                                              Request final accounting from receivers/distribution
                                                                              agents.
                                                                              Provide guidance and training to Enforcement staff
                                                                              on receiver/distribution agent oversight.


                                434 - Background               3/28/2008      Develop operating procedures for program by June
                                Investigations                                30, 2008.



                                                                            75

   Audit/Inspection #        Issue Date            Summary of Recommendation
        and Title

                                           Develop or acquire a case management tracking
                                           system.


                                           Evaluate and restructure staff resources assigned
                                           to the Personnel Security Branch (PSB).


                                           Obtain secure storage for personnel security files.



                                           Revise current procedures to ensure interim clear-
                                           ances granted after acceptable review.


                                           Develop milestones and methodology for complet-
                                           ing minimum background investigations for con-
                                           tractors and employees.

                                           Notify the Office of Management and Budget of any
                                           reported data that cannot be supported and de-
                                           velop a methodology and system for quarterly re-
                                           porting.
                                           Review new credentialing system requirements for
                                           compliance with FIPS 201-1, Part 2.


436 - Usefulness of IM's     3/28/2008     Identify clear and specific objectives for Investment
Website                                    Management's (IM) Intranet and discuss objectives
                                           with IM's IT staff.

                                           Improve Intranet including develop an appropriate
                                           project plan that incorporates applicable website
                                           best practices and systems development proc-
                                           esses.
                                           Provide appropriate assistance and training to IM's
                                           IT staff to ensure IM-web meets Section 508 ac-
                                           cessibility requirements.

437 - Security Enhance-      10/22/2007    Install cameras in Station Place parking garage.
ments in SP Parking Garage


439 - Student Loan Program   3/27/2008     Undertake actions to delegate in writing approving
                                           waivers, amend Form 2497, and issue guidance for
                                           approval requirements of Student Loan Program
                                           (SLP) award.
                                           Review Office of Personnel Management regulation
                                           to ensure proper individual approves SLP awards.




                                          76

Audit/Inspection #   Issue Date             Summary of Recommendation
     and Title

                                    Ensure SLP files contain appropriate documenta-
                                    tion of repayments by employees not completing
                                    Service Agreements.

                                    Ensure documentation in SLP files correctly indi-
                                    cates who prepared/reviewed the payments.


                                    Implement methods to mitigate the risk of fraudu-
                                    lent documentation submitted by employees.


                                    Ensure the reliability of management records re-
                                    garding former employees.


                                    Review the reliability of management records in-
                                    volving former employees.


                                    Take necessary steps to adequately safeguard the
                                    SLP files.


                                    Implement separation of duties in the review, proc-
                                    essing and approval of SLP awards.


                                    Consult with the Department of Interior to ensure
                                    that monies owed to Commission is collected,
                                    documented and recorded in a timely manner.

                                    Conduct a thorough review of the employee clear-
                                    ance process to initiate improvements.


                                    Implement recommendations of contractor retained
                                    by the Office of Financial Management to increase
                                    the likelihood of collection of employee debts relat-
                                    ing to the SLP or, if not feasible, prepare a report
                                    explaining why the recommendations were not im-
                                    plemented.
                                    In consultation with the Union, provide supervisors
                                    with guidance on preparing substantial justification
                                    memoranda.

                                    Return to supervisors justification memoranda that
                                    lack substantiation of the criteria.


                                    Prepare document regarding the required criteria
                                    for justification memoranda for the 2008 Open
                                    Season.



                                  77

   Audit/Inspection #         Issue Date            Summary of Recommendation
        and Title

                                            Implement an automated process for monitoring
                                            lifetime awards before the 2009 Open Season.


                                            Develop a plan to obtain data and a methodology
                                            to analyze and record data to comply with Collec-
                                            tive Bargaining Agreement requirements.

                                            In consultation with the Union, develop a detailed
                                            distribution plan.


                                            Ensure that all vacancy announcements issued
                                            include language regarding the SLP.


443 - Internet Use Policies    2/4/2008     Update and clarify Internet usage policies.
and Rules


                                            Clarify pornography definition and send staff re-
                                            minders about prohibition on accessing or down-
                                            loading pornographic materials.

M27 - NRSI Password Man-      1/29/2003     Streamline and automate the user access process
agement                                     for IT systems.




                                           78

SEMIANNUAL REPORT TO CONGRESS
   Table 4
                                 Summary of Investigative Activity



                                                                  CASES                              NUMBER


                                       Cases Open as of 4/1/08                                         14
                                       Cases Opened or Re-opened during 4/1/08 - 9/30/08               19
                                       Cases Closed during 4/1/08 - 9/30/08                            16
                                       Total Open Cases as of 9/30/08                                  17
                                       Referrals to Department of Justice for Prosecution              6
                                       Prosecutions                                                    0
                                       Convictions                                                     0
                                       Referrals to Agency for Disciplinary Action or Performance-     17
                                       Based Action



                                                       PRELIMINARY INQUIRIES                         NUMBER


                                       Inquiries Open as of 4/1/08                                     11
                                       Inquiries Opened during 4/1/08 - 9/30/08                        32
                                       Inquiries Closed during 4/1/08 - 9/30/08                        20
                                       Total Open Inquiries as of 9/30/08                              23
                                       Referrals to Agency for Disciplinary Action                     3
                                       Referrals to Other Agencies                                     2



                                                        DISCIPLINARY ACTIONS                         NUMBER


                                       Removals (Including Resignations)                               6
                                       Suspensions                                                     5
                                       Reprimands                                                      0
                                       Warnings/Other Actions                                          5




                                                                        79

80

SEMIANNUAL REPORT TO CONGRESS   Table 5
                                Summary of Complaints Received


                                                                     DESCRIPTION                       NUMBER


                                Hotline Complaints Received*                                       29*

                                Other Complaints Received                                          108

                                Total Complaints Received                                          137

                                Complaints on which a Decision was Made                            133

                                Complaints Awaiting Disposition                                    4

                                Complaints Resulting in Investigations                             17

                                Complaints Resulting in Inquiries                                  32

                                Complaints Referred to OIG Office of Audits                        6

                                Complaints Referred to Agency Management/Other Agency Components   32

                                Complaints Referred to Other Agencies                              6

                                Complaints Included in Ongoing Investigations or Inquiries         7

                                Response Sent/Additional Information Requested                     14

                                No Action Needed                                                   24



                                * The OIG Hotline became operational on 8/13/08.




                                                                                   81

82

SEMIANNUAL REPORT TO CONGRESS
   Table 6
                                 References to Reporting Requirements
                                 of the Inspector General Act

                                  The Inspector General Act of 1978, as amended, specifies reporting requirements for
                                  semiannual reports to Congress. The requirements are listed below and indexed to the
                                  applicable pages.



                                                       INSPECTOR GENERAL ACT REPORTING REQUIREMENT                       PAGES
                                   Section 4(a)(2)   Review of Legislation and Regulations                                65-66

                                   Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                       11-58

                                   Section 5(a)(2)   Recommendations for Corrective Action                                11-58

                                   Section 5(a)(3)   Prior Recommendations Not Yet Implemented                            73-78

                                   Section 5(a)(4)   Matters Referred to Prosecutive Authorities                         38-58,79

                                   Section 5(a)(5)   Summary of Instances Where Information Was Unreasonably               67
                                                     Refused or Not Provided


                                   Section 5(a)(6)   List of OIG Audit/Evaluation/Inspection Reports Issued During the     69
                                                     Period
                                   Section 5(a)(7)   Summary of Significant Reports Issued During the Period              20-35,
                                                                                                                          38-58
                                   Section 5(a)(8)   Statistical Table on Management Decisions with Questioned Costs       71

                                   Section 5(a)(9)   Statistical Table on Management Decisions on Recommendations          71
                                                     That Funds Be Put To Better Use


                                   Section 5(a)(10) Summary of Each Audit Over Six Months Old for Which No                 67
                                                    Management Decision Has Been Made


                                   Section 5(a)(11) Significant Revised Management Decisions                               67

                                   Section 5(a)(12) Significant Management Decisions with Which the Inspector              67
                                                    General Disagreed




                                                                               83

   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline# #        (877) 442-0854

   Main Ofﬁce#       (202) 551-6061


   Web-Based Hotline Complaint Form:
   www.reportlineweb.com/sec_oig

   Fax:#      #      (202) 772-9265

   Write:
   Ofﬁce of Inspector General
   U.S. Securities and Exchange Commission

   100 F Street, N.E.

   Washington, D.C. 20549-2736


   Email:
   oig@sec.gov


                     Information received is held in conﬁdence upon request.
       While the OIG encourages complainants to provide information on how they may be
       contacted for additional information, anonymous complaints are also accepted.
U.S. Securities
and Exchange
 Commission




        Additional copies of this report may be obtained by contacting the

                  Ofﬁce of Inspector General at (202) 551-6061. "


         The report is also available on the Inspector General's website at

                        http://www.sec.gov/about/oig.shtml. 

